<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2012

                              ----------                              


                        THURSDAY, MARCH 10, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 11:04 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairman) 
presiding.
    Present: Senators Mikulski, Lautenberg, Nelson, Pryor, 
Brown, Hutchison, and Murkowski.

                         DEPARTMENT OF JUSTICE

                            Attorney General

STATEMENT OF HON. ERIC H. HOLDER, JR., ATTORNEY GENERAL


            opening statement of senator barbara a. mikulski


    Senator Mikulski. Good morning, everybody. The Commerce, 
Justice, Science, and Related Agencies Subcommittee of the 
United States Senate Committee on Appropriations will come to 
order.
    This is our first hearing on the fiscal year 2012 of the 
agencies within the portfolio of this subcommittee.
    Today, we welcome the Attorney General of the United 
States. And Mr. Attorney General, we are just so glad to see 
you.
    Before we turn to you, first of all, the subcommittee would 
like to note, because of our responsibility for the National 
Aeronautics and Space Administration (NASA), the joy that we 
feel on the safe return of the Discovery. It has been on its 
final journey, and sometimes I feel this appropriations 
subcommittee is there as well. But we were so glad that they 
returned safely, and we salute them.
    On a more melancholy note, on behalf of this Committee, 
this subcommittee, and, I believe, the Senate, we would like to 
express our condolences to the United States Marshals Service 
(USMS) and to the families of those who--particularly of the 
deputy who was killed in a shootout with the fugitive. We also 
understand another marshal has been, indeed, gravely wounded. 
We express our condolences and our sympathies there.
    We also want to note that this is the third Federal agent 
killed in the line of duty in recent weeks. And we want to 
acknowledge that our Federal law enforcement is in harm's way 
every single day protecting this Nation.
    When we talk about numbers and statistics and cuts and 
shutdowns and showdowns, we need to know that there are 
consequences to this, and that there are people every single 
day out there, putting themselves in harm's way not only to 
protect us overseas--and we salute those troops there--but we 
have boots on the ground in the United States of America. And 
they are in our streets and our neighborhoods.
    This man died serving a warrant. We know that we ask people 
to serve warrants every single day under the Adam Walsh Act, 
going after the despicable, reprehensible sexual predators.
    We also note that in local law enforcement--well, eight 
Federal law enforcement agents died last year in the line of 
duty--eight. Also we were told through the National Law 
Enforcement Officers Memorial Fund that 160 police officers 
died nationwide. That is a 40 percent jump in our thin blue 
line from what it was in other years. Forty percent more police 
officers have died.
    We are a Nation at risk, and our law enforcement is at 
risk. Now, there will be appropriate memorial services, which 
we salute. But we have to protect those who protect us. And 
that means adequate pay--first of all, let us start with 
respect. Let us realize that there are many people who are 
called to defend and protect the United States, and many are in 
our Federal law enforcement.
    So I am going to be asking you questions today about what 
is going to happen in terms of what you see in 2012 and the 
consequences to the continuing resolution.
    I also want to note that my new ranking member, Senator Kay 
Bailey Hutchison, will be joining us shortly. She is at a 
Commerce Committee hearing for which she is the ranking member. 
She has significant responsibility. She will be joining us. She 
will have her own statement, and we will interrupt any 
proceedings so that she can move to the head of the line.
    I want to thank you for all that you are doing. And I am 
mindful that we are in a tough spot. I am mindful that we 
haven't finished our appropriations on 2011.
    You were here last year. You very clearly, specifically, 
and aptly and ably outlined the needs of the Department of 
Justice of the United States of America. We tried to give you 
the right stuff so that they could do the right job.
    Now, we are facing a continuing resolution where I don't 
know where we stand. I don't know where we are going, and I 
don't know what to tell you, what we are going to do. But I 
sure would like to hear from you about where you are in terms 
of managing the Department of Justice.
    I want you to know that I am absolutely on your side. In 
terms of community security, I want to make sure that our 
streets and neighborhoods and the people who live in them are 
safe.
    I want to be clear that our national security is protected. 
And what the Department of Justice is doing there, not only 
through the able work of the Federal Bureau of Investigation 
(FBI), but what they do--I read the article about you being a 
nighthawk, staying up and getting those 3 a.m. calls, standing 
sentry over the predators that threaten the safety and well-
being of the American people.
    Well, if you stay up all night, I think we ought to stay up 
all night to make sure you get funded. And in terms of 
oversight and accountability, yes, there are some yellow 
flashing lights, and you and I are going to talk about it. But 
I believe we need to put our Federal checkbook where our values 
are. We are a Nation of a rule of law. Therefore, we need to 
support an independent judiciary. And we need to support a 
Department of Justice, both to enforce our laws and also to 
prosecute those who break our laws.
    My priorities--and I know your highlights--will be in 
protecting our Southwest Border, which will have an additional 
$2 billion; funding for State and local law enforcement, 
something all of us enthusiastically support, for $3 billion; 
fighting mortgage fraud and white-collar crime, close to $1 
billion; tackling civil rights and discrimination; and also 
strengthening our national security and counterterrorism 
efforts for $5.4 billion.
    I am very concerned that for those that want to cut law 
enforcement, it will have a draconian effect. This subcommittee 
and the current Justice Department have locked arms and 
committed to reinvesting resources for the State and local 
areas. We want to make sure violent crime rates drop.
    This is the time that we know we must be frugal, but we 
think we also need to make these public investments that keep 
our Nation straight. You can't have a strong economy if you are 
worried about break-ins, whether it is through cyber crime or 
people on the street.
    The Justice Department requests $3 billion for State and 
local tribal partners supporting grant programs. But we will 
also--I understand you are going to consolidate 35 programs.
    We know that you have got your hands full tackling fraud 
cases, and that you are teaming up with the FBI agents, U.S. 
Attorneys, and legal divisions to really go after the Ponzi 
schemes, mortgage and healthcare fraud. We wonder why more of 
those who broke the law aren't in orange jumpsuits and either 
paying restitution or paying with time in jail. We know that 
you have requested close to--through the President--$978 
million to go after financial fraud.
    We hear from families everywhere that they want their 
children to be protected. This is why we so strongly support 
the Adam Walsh Act. We are concerned that it received no 
additional funding in 2011, but yet the list of sexual 
predators grows. And we ask that our marshals enforce them. We 
want to be sure that this year, we invest $370 million in going 
after the sexual predators.
    I know that Senator Hutchison will talk about our Southwest 
Border effort. She and I have had extensive conversations about 
it. She and I will be joined together in our effort to protect 
our Southwest Border. Because if our Southwest Border is at 
risk, the entire United States of America is at risk.
    And the Southwest Border should not be a gateway for drug 
cartels, illegal guns, and a variety of other despicable 
activity. So we want to be able to support the $2 billion 
request to target and dismantle drug cartels. I know Senator 
Hutchison will speak more to that, but I want you to know I 
regard this as a bipartisan effort to protect our borders.
    Something that is very specific in my interest is in the 
area of cybersecurity. I believe, Mr. Attorney General, we have 
four wars. We have Iraq. We have Afghanistan. We have the war 
at our very own border, the Southwest Border war. And I believe 
we have an enduring war in cybersecurity.
    As we speak, the United States of America is under attack. 
Today, at the end of the day, there will be 2,000 attacks on 
the Pentagon from sovereign states and organized crime.
    Also, we now know that even something as important to our 
economy as NASDAQ had a cybersecurity intrusion. Thanks to the 
collaborative work of our own Government and the outstanding 
work of the FBI, we thwarted the bring-down of NASDAQ. Well, it 
could happen again, and you need a very sophisticated workforce 
to deal with this.
    We are going to discuss a variety of issues with you, but I 
am going to turn to Senator Hutchison. Senator, we welcome you, 
and then hear from you. But we need to know, how is the 
Department of Justice protecting the Nation, what does fiscal 
year 2012 mean, and how do you see the consequences of this 
really foggy ``never-neverland'' of the continuing resolution 
affecting your ability to protect the Nation?
    Senator Hutchison, I am going to turn to you for your 
opening statement. And I would like to say, I really, with 
warmth and enthusiasm, welcome you as my ranking member.
    We have worked together on so many issues, from the space 
program to women's health, and now we look forward to working 
with you here. And again, a very cordial and collegial welcome, 
and with that, we turn to you for such remarks that you choose 
to make.


               statement of senator kay bailey hutchison


    Senator Hutchison. Well, thank you, Madam Chairman.
    And let me say that I can't think of anyone with whom I 
would rather work on a bipartisan basis than you, because we 
have worked together on so many issues of mutual concern, and I 
know that you are a straight shooter. And I know that you want 
to do the things that are right for our country, and I look 
forward to us pursuing those things together. And we do have a 
lot of mutual interests, in space, as well as certainly in the 
Justice Department.
    I do want to welcome you, Mr. Attorney General. You have a 
very tough job, and I understand that. And I have looked at the 
beginnings of the budget request that you have made.
    I will just make a few points. And I will say I am late 
because I am the ranking member on the Commerce Committee, and 
we had nomination hearings this morning at 10 a.m., and it ran 
over. So I do apologize.
    Let me just make some of the points, because Senator 
Mikulski was talking as I came in about the war on our border, 
and it is true. It is there. Just yesterday, I was meeting with 
the people from Laredo--actually, the day before yesterday. The 
police chief was here, the mayor, the council. And when I go to 
El Paso or Laredo or Brownsville or many of our border cities, 
I see what they are dealing with at a local level.
    And I will tell you what every one of them says to me, and 
that is the most valuable thing that they have is the 
interagency information cooperation. And they believe that is 
working pretty well, and that is very important to them because 
their local police on the streets need to know if we have drug 
cartel information or drug gang information. And there is no 
question in my mind that we have got to have a firm stand on 
the border to completely stop the corruption from coming 
across.
    And there is drug activity connected with the Mexican 
cartels in our major cities and in our border communities. And 
there are efforts to recruit 12-year-olds and 13-year-olds by 
the cartels. They are poor kids. They have never had money, and 
they are offered enormous sums of money to do terrible things. 
So we have a problem and we must use the resources that we 
have.
    Your budget does have support for State and local law 
enforcement. One of the things that I am very concerned that 
you have cut is the State Criminal Alien Assistance Program 
(SCAAP) funding. That is the funding for the local people to 
house illegal alien criminals. People who have committed 
crimes, they have to go to a jail, and the jails are overrun. 
These are county jails and city jails, and they are overrun.
    SCAAP funding helps offset the expenses of housing 
criminals who are also illegal aliens, and your budget cuts 
that by $194 million. And I am very concerned about that, I 
will tell you, because we need to support those local law 
enforcement officials throughout the Arizona and California 
borders as well. Senator Feinstein, Senator Kyl, and I have 
worked on this, and I hope that we can use that priority.
    I think that the Community Oriented Policing Services 
(COPS) hiring funding, in my opinion--and according to The 
Washington Post, your Department didn't put that forward as a 
request in your budget, but OMB did. And so, it is in your 
request. I don't--I think that it is important to have police 
on the streets everywhere. But is it the priority use of your 
funding? I don't think so.
    And I think perhaps you didn't think so since you didn't 
ask for it. But that is an area where, if I were going to do it 
at all, it would be on the border to help local law enforcement 
officers deal with issues that are beyond just their purview, 
but are because of people coming across the border and these 
terrible drug fights.
    Number two, Mr. Attorney General, Guantanamo--I know we are 
in disagreement about Guantanamo. I welcomed the President, 
even though he was critical of the Congress, in his statement 
that we would not be able to pursue trials of these terrorists 
on American soil. He was not happy about it, but I am glad that 
we are not going to be bringing those people from Guantanamo, 
where there has yet to be an escape, into our 49--well, 48 
States anyway, certainly. And I don't want it to be in Hawaii 
or Alaska either. But I don't think it is in the security 
interests of U.S. citizens to have these people on our soil 
where there could be attacks to try to free them or other 
issues.
    So I think that many in the Congress hope that you will not 
be pursuing that further. But I think there will be efforts to 
keep there from being money in your budget to pursue trying 
these people on American soil with all the rights of American 
citizens in our court system.
    I have been to Guantanamo Bay, and I think that it is the 
right place for these people to be held. And I think that I 
will just quote one of our intelligence community followers to 
just give some statistics that assess how many of the people 
who have actually been released from Guantanamo have been 
confirmed or suspected of re-engaging in terrorist or insurgent 
activities after their transfer out. Thirteen percent are 
confirmed and 69 percent--or 13 percent are confirmed and 11 
percent more are suspected of re-engaging where they are now in 
terrorist and insurgent activities. In addition to that, 13 are 
dead, 54 are in custody again, and 18 remain--83 remain at 
large.
    So we have got information that says that there is a high 
recidivism rate for people who have been in Guantanamo and 
released. So I just hope that we will be a little more 
protective of our American soil than to talk about bringing 
them home.
    The Immigration and Customs Enforcement (ICE) agent 
shooting in Mexico--there are disturbing reports. First of all, 
let me say, I appreciate that you have established an 
investigation that encompasses the organizations that could 
contribute to this. I give you the credit for doing that.
    I want to add to your area of investigation that there are 
disturbing reports that the weapons that have been used in the 
killing of a Border Patrol agent in Arizona and the ICE agent 
from Texas in Mexico City, that the guns used were smuggled in 
from America. And the reports are that perhaps Bureau of 
Alcohol, Tobacco, and Firearms and Explosives (ATF) agents knew 
of that smuggling.
    I would like to ask you--and I will, in my question 
period--if you will add that to your area of investigation.
    So I will stop there. I will just say one last thing, and 
that is, the Southwest Border efforts that you are making and 
are in your budget I do appreciate. I think the increase in the 
Drug Enforcement Administration (DEA) intelligence center in El 
Paso is very important. And I think that Project Gunrunner is 
something that I support, but I do want to make sure that the 
ATF agents are also supporting that. And so, we can talk more 
about that.
    But thank you, Madam Chairman, for having this hearing and 
giving us this opportunity to talk to the Attorney General, and 
I thank you for giving us the time.
    Senator Mikulski. Thank you, Senator Hutchison.
    Colleagues, I want to note that we started our hearing at 
an unusual time to accommodate Senator Hutchison, which we were 
delighted to do. But the Attorney General has to leave at 12:30 
p.m.
    So instead of asking for your opening statements, why don't 
we get right into the testimony? If any of you have to leave, 
if you could tell me, because I want to protect your rights as 
well.
    Mr. Attorney General, why don't you go right ahead with 
your testimony, and let us get into it.


                summary statement of eric h. holder, jr.


    Attorney General Holder. Thank you.
    Well, good morning, Chairwoman Mikulski, Ranking Member 
Hutchison, and other distinguished members of the subcommittee.
    I want to thank you for this opportunity to discuss the 
President's fiscal year 2012 budget for the Department of 
Justice.
    And on behalf of my colleagues, the more than 117,000 
dedicated men and women who serve our Nation's Justice 
Department in positions and in offices all around the world, I 
want to thank you for your support of the Department's critical 
work.
    Now, as I have said often, no aspect of our work is more 
important or more urgent than protecting the safety of the 
American people and strengthening our national security. As 
Attorney General, this is my paramount obligation. And at every 
level of the Justice Department, this is our primary focus.
    In recent years, we have confronted some of the most 
significant terrorist threats to the homeland since the 
September 11 attacks, and the Justice Department has played a 
vital role in combating these threats.
    Just yesterday, outside of Spokane, Washington, we arrested 
a United States citizen on charges of attempted use of a weapon 
of mass destruction. We allege that in January, this individual 
placed a bomb along the route of a Martin Luther King Jr. Day 
unity march.
    Now, had it been successful, this alleged bomb plot could 
have been extremely deadly. But thanks to the help of alert 
citizens and the outstanding work of FBI agents and their 
Federal, State, and local law enforcement partners, it was 
foiled. And this morning, that individual is in custody.
    On Tuesday of this week, United States citizen Jamie 
Paulin-Ramirez pleaded guilty in Federal court in Philadelphia 
to conspiracy to provide material support to terrorists and 
admitted to traveling overseas with the intention of 
participating in violent jihad.
    And 2 weeks ago, Zachary Chesser, a resident of northern 
Virginia and, again, a United States citizen, was sentenced to 
25 years in prison for attempting to provide material support 
to the terrorist organization Al-Shabaab, communicating threats 
against Americans and encouraging violent jihadists to impede 
and to obstruct law enforcement activities.
    Now despite the many forms of national security threats 
that we have faced, I am proud to report that over the last 2 
years, the Justice Department has charged more defendants in 
Federal court with the most serious terror-related offenses 
than at any other time since 9/11.
    Now beyond our essential national security work, the 
Department has made extraordinary progress in fulfilling the 
pledge that I made before this subcommittee nearly 2 years ago: 
that under my leadership, every decision made and every policy 
implemented would be based on the facts, the law, and the best 
interests of the American people, regardless of political 
pressures or consequences.
    Now I am proud of the work that has been done to honor this 
promise and to advance the Department's other critical 
priorities. In the last 2 years, we have taken meaningful steps 
to safeguard civil rights and to utilize the new tools and 
authorities that the Congress provided to combat hate crimes.
    We have worked to protect our environment and to respond to 
the largest oil spill in United States history by seeking 
justice for victims and working to make certain that American 
taxpayers don't foot the bill for restoring the gulf coast 
region.
    We have launched historic efforts to expand access to legal 
services, to strengthen our corrections system, and to combat 
child exploitation, human trafficking, prescription drug abuse, 
and gun, gang, and drug-fueled violence.
    The Department has collaborated with governments worldwide 
not only to combat international crime networks, but also to 
identify and to disrupt drug cartel operations, intellectual 
property thefts, and a broad range of cyber crimes.
    We have strengthened relationships with colleagues across 
Federal, State, local, and tribal governments as well. And we 
have focused in particular on finding innovative, effective 
ways to protect the safety of our law enforcement partners.
    From our bulletproof vest initiative to cutting-edge 
training programs and information-sharing platforms, we will 
continue to do everything we can to ensure officer safety and 
to reduce the rising tide of gun violence against law 
enforcement that has devastated too many families and 
communities in recent months.
    I also want to note that we have brought our Nation's fight 
against financial and healthcare fraud to a new level. In fact, 
in the last year, the Department has announced the largest 
financial and healthcare fraud takedowns on record. And in 
fiscal year 2010, the Department's Civil Division secured the 
highest level of healthcare fraud recoveries in history, $2.5 
billion, as well as the second-largest annual recovery of civil 
fraud claims.
    Our Criminal Division has seen similar success in fiscal 
year 2010. The Criminal Division participated in efforts, 
including joint enforcement actions with our U.S. Attorneys' 
offices throughout the country, that secured more than $3 
billion in judgments and in settlements.
    Now, in addition to our work to secure these recoveries, we 
have made strategic investments and taken unprecedented actions 
to serve as sound stewards of precious taxpayer dollars.
    The President's fiscal year 2012 budget for the Department 
of Justice reflects our ongoing commitment to identifying 
savings and efficiencies. It also reflects a willingness to 
make difficult, but necessary choices, such as program 
reductions, in order to focus resources on our highest-priority 
programs and to respond to current fiscal realities.
    Although the current cost of operations and staffing is 
considerably higher than it was last year, the fiscal year 2012 
budget request represents an increase of less than 2 percent 
more than the fiscal year 2011 continuing resolution. Without 
question, the continuing resolution has presented significant 
budget challenges for the Department and resulted in financial 
restrictions, including a temporary hiring freeze and the 
curtailing of nonessential spending.
    I have had to make some tough choices, and I have asked my 
colleagues to do more with less. They have risen to the 
occasion, and they are working harder and more collaboratively 
than ever before.


                           prepared statement


    It is on their behalf and on behalf of the American people 
that we are privileged to serve that I submit to you the 
Department's fiscal year 2012 budget request.
    Thank you.
    [The statement follows:]
               Prepared Statement of Eric H. Holder, Jr.
    Good morning Chairwoman Mikulski, Ranking Member Hutchison, and 
members of the subcommittee. Thank you for this opportunity to meet 
with you today to discuss the President's fiscal year 2012 budget 
request for the Department of Justice (DOJ) and to provide an update on 
the Department's progress, key priorities, and future plans. I 
appreciate your recognition of the Department's critical mission, and I 
thank you, in particular, for your support of the fiscal year 2010 
Supplemental Emergency Border Security Act and the fiscal year 2010 
Supplemental Disaster Relief and Summer Jobs Act. These measures 
provided essential resources for our law enforcement and litigation 
operations. I look forward to your continued partnership and support.
    When I appeared before this subcommittee last May, I testified that 
the Department had made historic progress in meeting its strategic 
goals under this administration:
  --to protect our national security;
  --to reinvigorate the Department's traditional missions and to 
        restore integrity; and
  --have transparency at every level of the Department's work.
    I also pledged that, under my leadership, all decisions and 
policies would be based on the facts, the law and the best interests of 
the American people, regardless of political pressures or political 
consequences.
    Almost 1 year later, I am pleased to report that--even at a time of 
financial challenge--we continue to make progress in meeting these 
ambitious goals. We remain dedicated to protecting the American people 
through the use of every lawful instrument to ensure that terrorists 
are brought to justice, held accountable for their actions, and can no 
longer threaten American lives. Over the past year, we also continued 
to defend the safety and best interests of both consumers and the 
United States. We sought to ensure the strength and integrity of our 
most essential healthcare programs through enforcement actions that 
helped control healthcare costs and reduce fraud. We worked to 
safeguard the public against threats foreign and domestic. We 
collaborated with local law enforcement to investigate January's tragic 
shootings in Tucson, Arizona, and we continue to utilize every resource 
necessary to deliver justice for those killed and injured. We also led 
Federal efforts to prevent and control crime by taking aggressive steps 
to combat the serious proliferation of violence along the Southwest 
Border and to combat the nationwide epidemics of gang- and drug-fueled 
violence, human trafficking, hate crimes, and child exploitation.
    Today, I affirm these commitments--and pledge also to act as a 
sound steward of taxpayer funds. The Department will continue to 
explore ways to assess the effectiveness of our investigations and 
prosecutions; to reduce duplication of efforts and realign 
investigative resources; and to promote effective, fiscally sound 
alternatives to incarceration consistent with public safety. I will 
continue to make targeted investments that render communities safer for 
all Americans and to work with our many partners to strengthen critical 
State, local- and, tribal-assistance initiatives.
    As you are aware, the fiscal year 2011 continuing resolution 
presents significant budget challenges for the Department, as the 
current cost of operations and staffing is considerably higher than it 
was last year. Given the size of our Department--and the scope of its 
many responsibilities--I have announced financial restrictions that are 
difficult but, under these circumstances, necessary. One of the 
measures that I recently announced was a temporary freeze on hiring. I 
have also directed components to immediately curtail nonpersonnel 
spending unless it is necessary for essential operations. These 
actions--and others--are designed to increase overall efficiency and to 
keep the Department solvent and operating effectively. We take these 
steps now in order to avoid more severe measures in the future, such as 
staff furloughs.
    But even with these directives in place, it is critical to our 
national security--and to our law enforcement work--that the Department 
obtains adequate funding in fiscal year 2011 and that this 
subcommittee, and the 112th Congress, approves the President's fiscal 
year 2012 budget request.
    The President's fiscal year 2012 budget request for the DOJ totals 
$28.2 billion, which represents a 1.7 percent increase in gross 
discretionary budget authority compared to the fiscal year 2011 
continuing resolution level. This budget reflects our key priorities of 
strengthening national security, preserving the Department's 
traditional missions, maintaining safe prison and detention facilities, 
assisting our State, local and tribal law enforcement partners, and 
identifying savings and efficiencies that promote fiscal 
responsibility. In addition to addressing my key priorities, the budget 
enhances the Department's ability to focus on recovering assets 
obtained through financial fraud, drug trafficking, and other criminal 
activity. In fiscal year 2010, the Department's Asset Forfeiture 
program obtained more than $1.6 billion in forfeited assets and 
distributed more than $674 million to victims of financial crimes and 
our State and local law enforcement partners. The Department also 
collected and disbursed more than $4.7 billion related to civil debt 
collection in fiscal year 2010. Of this amount, $3.7 billion was 
returned to Federal agencies; $494.5 million was returned to the 
Treasury; $391.2 million was paid to non-Federal recipients; and $101.8 
million was retained for debt collection efforts within the Department. 
This budget continues our emphasis on fiscal accountability and 
oversight.
                      strengthen national security
    Preventing, disrupting, and defeating terrorist acts before they 
occur remain the Department's highest priority. National security 
threats are constantly evolving, requiring additional resources to 
address new critical areas. The increase in global access to 
technological advancements has only compounded this problem, resulting 
in new vulnerabilities that must be addressed.
    The President's budget request demonstrates this administration's 
steadfast dedication to protecting our national security and a 
commitment to using every instrument within our power to fight 
terrorism and keep America safe. The Department plays a critical role 
in the Government's national security and intelligence efforts, and it 
is essential that the Department's budget maintain the capabilities we 
have developed even in these difficult fiscal times. Moreover, the 
budget requests $128.6 million in program increases and 170 additional 
positions to strengthen national security and counter the threat of 
terrorism. The requested increases would provide the essential 
technological and human capital to detect, disrupt, and deter threats 
to our national security.
    More specifically, the administration supports critical national 
security programs within the Department, including $122.5 million in 
program increases for the Federal Bureau of Investigation (FBI) and 
$729,000 in program increases for the National Security Division. This 
figure includes resources that will enable the FBI to enhance national 
security related surveillance capabilities and enhance its Data 
Integration and Visualization System; expand the Operational Enablers 
program and Weapons of Mass Destruction/Render Safe capabilities to 
strengthen our ability to diffuse, disrupt, or destroy weapons of mass 
destruction; and expand the Computer Intrusion initiative to increase 
our capabilities to detect and counter cyber intrusions.
    To address the growing technological gap between law enforcement's 
electronic surveillance and the number and variety of communications 
devices available to the public, the request also includes $17 million 
in program increases to improve the Department's lawful Electronic 
Surveillance Capabilities for the FBI, Drug Enforcement Administration, 
Bureau of Alcohol, Tobacco, Firearms and Explosives, and the U.S. 
Marshals Service.
                     preserve traditional missions
    At the Department, we continue America's greatest tradition of 
protecting the promise of justice and helping bring justice to those in 
need. Enforcing the law and ensuring the fair and impartial 
administration of justice for all requires resources to both 
investigate and litigate on behalf of the American people. The request 
provides $57.4 million in program increases to expand the Department's 
enforcement litigation capacity and its ability to protect vulnerable 
populations.
    These resources will enable the Department to continue to fulfill 
its historic role in fighting crime, protecting civil rights, 
preserving the environment, and ensuring fairness in the marketplace, 
while responding to new and unprecedented challenges such as the 
Deepwater Horizon oil spill. And they will support continued robust 
efforts to crack down on financial fraud, which have already resulted 
in charges for fraud schemes that have cost victims more than $8 
billion in estimated losses nationwide. The budget also includes 
funding to continue the implementation of the Hate Crimes Prevention 
Act of 2009, which helps communities prevent and respond to violent 
hate crimes committed on the basis of gender, gender identity, sexual 
orientation, religion, and disability in addition to race, color, and 
national origin.
    To respond to mounting demands, we have also requested $15 million 
for the Executive Office of Immigration Review, including funds for 21 
new immigration judge teams, additional attorneys for the Board of 
Immigration Appeals and funds to expand our Legal Orientation program.
             maintain safe prison and detention facilities
    It is important for the Department to maintain the appropriate 
balance of resources within core Departmental functions. Successful 
investigations lead to arrests, prosecutions, and convictions. They 
also lead to a greater need for prison and detention capacity. More 
than 5,000 new Federal inmates and 6,000 detainees are projected to be 
in custody in 2012, which means adequate funding for prison and 
detention operations is critical. The budget requests a total of $8.4 
billion to maintain basic prison and detention operations.
    The budget request includes $224 million in prison and detention 
resources to maintain secure, controlled detention facilities and 
$461.4 million for program increases to ensure the growing numbers of 
offenders are confined in secure facilities. The Department is 
committed to strengthening current efforts to improve inmate re-entry 
and recidivism rates, and the proposed budget includes $22 million for 
second chance initiatives that would allow for enhanced inmate re-entry 
programs, specifically vocational training, education, and drug 
treatment programs.
    In addition, the budget addresses the Federal prison population 
through sentencing reform. Such reform is anticipated to help stabilize 
the growth of the prison population and ensure fundamental fairness in 
our sentencing laws, policy, and practice. One outcome of these changes 
would be to address associated long-term costs.
    We are also continuing our efforts to combat sexual abuse in 
correctional settings. Simply put, sexual abuse is a crime, not a 
punishment for a crime. Last month, we published a proposed rule 
pursuant to the Prison Rape Elimination Act (PREA) that contains 
national standards aimed at combating sexual abuse in adult prisons and 
jails, juvenile facilities, lockups, and community confinement 
facilities. In addition to preparing the rule, the Department has been 
working to ensure that, once promulgated, the national standards are 
successful. The Department is uniquely positioned to serve as a force 
multiplier, enabling best practices to gain recognition and enabling 
correctional systems to benefit from the PREA efforts of other 
jurisdictions. The Bureau of Justice Assistance has entered into a 3-
year cooperative agreement for the development and operation of a 
Resource Center for the Elimination of Prison Rape. The Resource 
Center, which was established with fiscal year 2010 funding, will 
provide additional training and technical assistance to States and 
localities to assist in the identification and promulgation of best 
practices and promising practices. The Department's request will 
supplement our efforts by enabling the Bureau of Justice Statistics to 
continue its work conducting surveys examining the incidence and 
consequences of sexual abuse in confinement settings.
        assist state, local, and tribal law enforcement partners
    The President's budget also requests a total of $3 billion for 
State, local, and tribal law enforcement assistance. These funds will 
allow the Department to continue support to State, local, and tribal 
law enforcement agencies that fight violent crime, combat violence 
against women, and support victim programs.
    The Department recognizes that many tribal law enforcement agencies 
face unique obstacles to effectively promote and sustain community 
policing. Unlike municipal police agencies, many tribes still lack 
basic technology to modernize their departments, such as laptops 
installed in police vehicles. The budget requests $424.4 million in 
total resources for public safety initiatives in Indian country.
    In addition, the Department continues to build and maintain key 
partnerships with State, local, and tribal law enforcement officials as 
well as community members. These partnerships include Community 
Oriented Policing Services hiring program, which enables State, local, 
and tribal police agencies to increase the number of officers available 
for targeted patrol and other proven strategies designed to prevent and 
reduce crime. In addition, the Office on Violence Against Women (OVW) 
supports numerous grant initiatives that provide communities with 
resources to combat sexual assault and other forms of violence against 
women. These include the Legal Assistance for Victims program, Sexual 
Assault Services program, and the new OVW Consolidated Youth Oriented 
Grants program.
    The budget request includes resources for new programs for the 
Office of Justice programs, including the Race-to-the-Top style 
Juvenile Justice System Incentive Grant program and the Byrne Criminal 
Justice Innovation program. And it includes funding to continue 
implementation of the Adam Walsh Act of 2006 to protect children from 
exploitation; assist children exposed to violence; and implement a 
smart policing initiative. These programs--and our relationships with 
State, local, and tribal law enforcement agencies--will maximize the 
Federal Government's ability to fight crime and to promote justice 
throughout the United States.
    In that spirit, although violent crime has decreased nationwide, 
the Department remains committed to tackling a disturbing countertrend: 
the number of law enforcement officers killed in the line of duty has 
surged. Last year, 162 law enforcement officers were lost--61 of them 
were killed by gun-violence--an increase of nearly 40 percent from the 
previous year, and the highest level of gun-related officer deaths in 
nearly two decades. So far in 2011, the number of officers killed by 
gunfire is 60 percent higher than last year's level at this time.
    To combat this unacceptable trend, the Department hopes to be able 
to continue our critical investments to expand our bulletproof vest 
initiative and our cutting-edge officer safety training programs and 
information-sharing platforms. This much we owe to those who put 
themselves in harm's way, day after day, to protect their fellow 
citizens.
                        savings and efficiencies
    The President's fiscal year 2012 budget request represents a 
fiscally responsible approach to funding the Department's critical 
missions. The budget proposal also places a premium on achieving 
savings and efficiencies. It includes broad savings to be gained from 
improved IT project management, smarter travel policies, better space 
utilization, and other cost-saving measures. We have also made hard 
choices in program reductions in order to focus our resources on our 
highest-priority programs. These are just a few of numerous proposed 
efforts to respond to the fiscal realities that we face today--and to 
act as sound stewards of taxpayer dollars.
    As we move forward with the tough choices necessary to reduce our 
national deficit and put the country on a sustainable fiscal path, we 
must never compromise our core mission--to protect the American 
people--and to ensure justice for all.
                               conclusion
    Chairwoman Mikulski, Ranking Member Hutchison, and members of the 
subcommittee, thank you again for this opportunity to discuss the 
Department's priorities and detail new investments sought for fiscal 
year 2012.
    Today, I have highlighted critical areas that require attention and 
resources so that the Department can continue to enforce the Nation's 
laws and protect our national security. I hope that you will support 
the Department in the execution of these worthy efforts. In this age of 
limited budgets and growing demands, the Department's leadership has 
already made many tough choices in preparing this budget, significantly 
reducing funds requested in certain areas in order to focus our 
resources on national security and core law enforcement and litigation 
responsibilities. I urge you to support these priorities.
    In this time of unprecedented challenges, new threats, and ongoing 
war, such support will remain critical in enabling the DOJ to meet its 
goals and obligations. As we move forward, I look forward to working 
with you and your colleagues.
    I am now happy to answer any questions you may have.
    Thank you.

    Senator Mikulski. Thank you very much, Mr. Attorney 
General.
    We are going to follow pretty closely the 5-minute rule and 
go in the order of arrival.
    I am going to use my first 5 minutes and then, if you are 
still able to stay, focus also on 2012. But I am very deeply 
concerned about the consequences of the continuing resolution 
on the safety and functioning of the United States of America.
    We know that Homeland Security and the Department of 
Defense are off the table. But I would like to know, what are 
the consequences of the continuing resolution to you--not to 
you, but to the Department of Justice?
    We have already cut--or at least the Senate was willing--
many in the Senate were willing to cut up to $50 billion. Now 
we are going to be asked to cut another--go another 2 weeks and 
cut another $4 billion, and then maybe another 2 weeks and 
another $4 billion while we keep doing this.
    As the CEO of DOJ, what could you tell us about the 
consequences on the functionality of DOJ? And also, I know that 
you are going to pay the FBI and make sure they are on the job. 
But I would presume you have to recycle, reprogram, and move 
money around.
    Could you tell us what this means in terms of the safety 
and security of the people who work for us, and then also the 
consequence to local communities? And what does this also mean 
to morale? I am not hearing good things in Maryland about 
morale and this continuing resolution.

       EFFECTS OF FISCAL YEAR 2011 CONTINUING RESOLUTION--MORALE

    Attorney General Holder. Yes. I will go in reverse order. 
But I would start with morale, and that is not an insignificant 
concern. And I think you are right, that the uncertainty that 
this process has entailed has had a negative impact on morale 
throughout the Department.
    As I have visited, up to now, about 38 U.S. Attorneys' 
offices, as I talk to the people who are in the components here 
in Washington, DC, the lack of certainty with regard to the 
amounts of money that we are going to have, the ability to do 
the programs that we want to do, the question of whether or not 
they are going to continue to have their jobs, be furloughed, 
pay cuts, all of these things have had a negative impact on 
morale.
    People are fighting through those morale concerns and still 
doing a good job. But it is, nevertheless, a concern that I 
have.
    If we look at the funding levels under the current 
continuing resolution, I know that certain accounts, such as 
prisons, detention, some of our legal divisions, will 
ultimately be deficient without further funding. And I am 
greatly concerned about that. This has a negative impact on our 
ability to do the job that the American people expect from the 
Department of Justice.
    If you look at the possibilities that exist here, I am very 
concerned that, too often, our funding is considered 
discretionary. Well, there is nothing discretionary about 
protecting the national security, protecting the lives of the 
American people, making sure that we adhere to the rule of law.

      EFFECTS OF FISCAL YEAR 2011 CONTINUING RESOLUTION--FURLOUGHS

    Senator Mikulski. Would you anticipate furloughs?
    Attorney General Holder. I don't think so. I think that 
with the hiring freeze that we have in place, we are going to 
be okay. But I have to say that if we continue with these 2-
week cycles or 3-, 4-week cycles, we are ultimately going to 
reach a position where we are going to have to consider that.
    That is not something that people in the Department of 
Justice are going to want to hear, and it is something that I 
would certainly like to avoid. But I am very concerned that 
unless we have additional funding, that might be something that 
we will have to consider.

   EFFECTS OF FISCAL YEAR 2011 CONTINUING RESOLUTION--PRISON FUNDING

    Senator Mikulski. And these cuts, is it possible that you 
will run out of money in certain key areas at certain times in 
the year?
    Attorney General Holder. Yes. If you look at the level of 
funding that we are getting with regard to the prisons, we are 
taking in prisoners all the time. We have about 200,000 now. We 
expect to take in about another 11,000 this year.
    We need additional funds beyond that which we have in order 
to do the work of keeping prisoners and keeping them off the 
streets. We will potentially run out of money in that regard.
    Senator Mikulski. What would that also mean in terms of 
your ability to--for example, in terms of the way we reimburse 
on detention? Does that mean we could no longer provide funds 
to State and local governments to hold prisoners that we have 
asked them to hold, and that would fall on local people?
    Attorney General Holder. We have made tough decisions in 
the budget, cognizant of the fact that we are not going to have 
as much money as we would like, and we have had to cut the 
SCAAP program. As this budgetary process goes through and we 
look for cuts that we have to make, I think that is one of the 
things that would have to be on the table.
    It is not something I would want to do, but as I am trying 
to restrict my focus on what I consider core functions of the 
Department of Justice, that is something that I think would 
potentially be at risk.

       EFFECTS OF FISCAL YEAR 2011 CONTINUING RESOLUTION--FUNDING

    Senator Mikulski. So this is pretty serious. And am I 
correct, from our conversation before the hearing, that a cut 
at this stage of the year has almost a--it has a different 
consequence than if you could spread it out over the year? How 
would you see that?
    Because, first of all, know that I don't want to cut more. 
I believe in a more frugal Government. I believe we will have 
to look to other sources, like oil and gas subsidies, the $30 
billion farm subsidy, et cetera--that we can't do all this on 
discretionary spending.
    I worry about if this subcommittee has to take more, we 
would have to go to the Justice Department, the space program, 
important economic development initiatives in the Department of 
Commerce. Can you take more?
    Attorney General Holder. I don't think that we can. I think 
that we, in the very, very short term, can come up with 
creative ways in which we can deal with this. That is why I 
have instituted this hiring freeze, stopped all kinds of what 
we call ``nonessential'' spending, but we are pretty close to 
the bone. And----
    Senator Mikulski. So you have already taken those steps at 
where we are now?
    Attorney General Holder. Yes, those steps have been in 
place.
    Senator Mikulski. I am going to stick to the 5-minute rule. 
I am going to stop and want to pursue 2012.
    Senator Hutchison.

                           PROJECT GUNRUNNER

    Senator Hutchison. Yes, thank you, Madam Chairman. I will 
try to--I will stick to the 5-minute rule.
    Let me ask you about the ATF issue that I mentioned in my 
opening statement, that there are reports that there was 
actually knowledge by ATF of the sales that were going on of 
the arms out of America, illegally out of America into Mexico, 
purportedly, I think, to be able to trace them, but after the 
shooting of the agent in Mexico, traced to those arms and also 
the shooting of the agent in Arizona.
    What is your view now on that particular program? And I 
know that you have asked for an Inspector General study of it, 
but tell me if you think that program should be continued. Is 
it the correct use of the Project Gunrunner subprogram, I 
guess? Because, of course, it is a great concern.
    Attorney General Holder. First, I would say that the 
mission of the ATF and the mission to which they are dedicated 
is to stop the flow of guns into Mexico and to people who 
shouldn't have guns here in the United States. And that is the 
focus of the ATF, that it is why the ATF agents serve bravely 
in Mexico and in this country, and, I think, do a great job.
    It is true that there have been concerns expressed by ATF 
agents about the way in which this operation was conducted. And 
on that, I took those allegations, those concerns very 
seriously and asked the Inspector General to try to get to the 
bottom of it. An investigation--an inquiry is now underway.
    I have also made clear to people in the Department that 
letting guns walk is not something that is acceptable. Guns are 
different than drug cases or cases where we are trying to 
follow where money goes.
    We cannot have a situation where guns are allowed to walk, 
and I have made that clear to the United States Attorneys, as 
well as the agents in charge in the various ATF offices.
    Senator Hutchison. Thank you.

                         GUANTANAMO BAY TRIALS

    On Guantanamo Bay trials, in the President's budget, there 
is a $72.8 million request for the Department's anticipated 
increases in security and prosecutorial costs associated with 
high-security trials. And it is a variety of things that you 
would need if you are going to bring known and reputed 
terrorists to trial in the United States.
    Mr. Attorney General, do you think that is the right 
priority for the expenditure of your very scarce and important 
dollars for FBI, ATF, the many areas of law enforcement that 
you are responsible for? Do you really--I mean, I will say, is 
it still going to be the policy that you will continue to 
pursue having trials on American soil, even in spite of the 
protests that you have heard from Members of Congress?
    Attorney General Holder. First, in this fight, we have to 
use all the tools that we have. The use of Article III courts 
and our Federal courts has proven to be extremely effective 
over the years. Hundreds of people have been convicted of 
terrorist offenses in these cases.
    We have shown that the Bureau of Prisons is capable of 
handling them, holding onto them. There is not one report--one 
report--of anybody ever escaping from a maximum-level Federal 
penitentiary who has been convicted of a terrorist offense. I 
think we can handle these cases. We have done so in the past.
    There is, with regard to the budget that we have submitted 
in 2012, no trial money with regard to these Guantanamo 
detainees. I think that the restrictions that the Congress has 
placed on our use of funds in that regard, as I indicated in a 
letter that I sent to Majority Leader Reid, as well as to 
Speaker Boehner, are unwise.
    The President indicated in his signing statement when he 
signed the Defense authorization bill that he thought this was 
not a wise thing to do as well. And we both indicated that we 
will try to unravel or unwork the restrictions that have been 
placed on us because I think it hampers us and our ability to 
handle the terrorism problem by taking a tool away from us that 
has proven to be very useful in the past.
    Senator Hutchison. Well, my time is up, and I will adhere 
to the 5-minute rule.
    Thank you, Madam Chairman.
    Senator Mikulski. Senator Nelson.
    Senator Nelson. Thank you, Madam Chairman.
    Attorney General Holder, it is good to have you here. First 
of all, I want to thank you and all those who work within your 
agencies for the fine work on behalf of the security and 
justice for all Americans, and we appreciate those efforts so 
much.

                      FISCAL YEAR 2012 BUDGET CUTS

    This is the time to have a candid conversation, of course, 
about budgets and the expenditure of taxpayers' dollars, and it 
is not something new for me. As Governor, I had to make the 
tough decisions about tough times when revenues didn't 
necessarily match the need for the outflow of expenditures to 
take care of the needs of the people.
    So I am hoping that we can work cooperatively in this 
effort, and I know we can. Cuts are coming, and what I would 
like to know is as you look at your budget, it requests a 1.7 
percent increase in new budget authority. And the increase in 
parts of your budget, outside of State and local grants, which, 
I think, have been reduced by 16 percent, the budget actually, 
outside of those cuts, goes up 4.4 percent.
    I am hopeful that you will be able to take a look at that 
budget in light of where we are today, recognizing that we have 
to do more with less. And I know that is easy to say and hard 
to do, but it is essential that you could take a look to see 
where you could begin to trend down the expenditures in the 
2012 budget.
    I understand the challenge you have with the continuing 
resolution--continuing resolutions, I guess; we just keep doing 
it--for 2011. I understand that challenge. But in 2012, we are 
looking at a 12-month period, not cutting in the middle of 
programs, but at the beginning.
    If you would, tell me where you could look to cut 1, 2, or 
3 percent, or some area of reduction. We are expecting that 
from the Department of Defense. I am on the Armed Services 
Committee. And so, if you would, give me your thoughts.
    Attorney General Holder. We are mindful of the financial 
situation that our Nation confronts, and we have submitted a 
budget for 2012 that I think walks that fine line between 
understanding the financial situation that we are in and making 
sure that we are still capable of doing what the American 
people expect of the Department of Justice.
    As I look at the places that we have made cuts--everything 
from dealing with ballistics tracing, radios, and technology--
we have made very substantial cuts. We have looked at what we 
call DOJ-wide cross-cutting efficiencies and cut about $57 
million there.
    We have looked at a whole variety of things that, frankly, 
have been really difficult to identify and difficult to 
implement. I have pushed people to make sure that we are not 
doing things for financial purposes that will have a negative 
impact on our ability to do our jobs, and we have come up, as I 
said, with a variety of things that are reflected in the budget 
that I think take into account those dual responsibilities: The 
financial situation and our obligation to keep the American 
people safe.
    Senator Nelson. To distinguish myself from those who have 
been running around with percentages looking for plans for 
cuts, the reason that I am focused on this is Admiral Mullen, 
Chairman of the Joint Chiefs, when asked the question, ``What 
is the biggest threat to America?'' It wasn't Iran. It wasn't 
North Korea. It wasn't even the border. Although those are 
important challenges that we face, it was the national debt.
    So if that is the biggest threat to our country, then we 
must, in fact, find ways to trend down spending, increase 
prosperity to both cut and grow our way out of the situation we 
are in, and that means that everybody has to do more with less. 
We can't do--we can't ignore that reality. And so, that is why 
I hope we can work cooperatively to try to find a way to make 
those reductions.
    It is a categorical imperative that we are facing right 
now, based on the threat that debt and the growing deficit is 
to our future. Not just our future, but to future generations 
as well.
    Attorney General Holder. No, I agree with you, Senator. We 
have to find a way in which we deal with that debt problem that 
is, in fact, a threat to the welfare of our Nation, while at 
the same time coming up with ways in which we do the things 
that are expected of the Department.
    You know, we are not the biggest agency. We have a proposed 
budget of about $28 billion. But the responsibilities that we 
have are fairly enormous with regard to everything from 
protecting the American people from outside threats to dealing 
with the crime situation that we find within the United States.
    And we have tried in this budget to allow us the ability, 
the tools so that we can make sure that we keep the American 
people safe, that we promote civil rights, that we protect the 
environment, all of the things that are our responsibility, 
while being mindful, as you correctly say, of the crisis that 
we face on the budget side.
    Senator Nelson. Well, I appreciate it, and I know that we 
can work together. And I look forward to that as we move 
forward with this new budget. Obviously, the continuing 
resolution saga is going to plague us, but we are going to have 
to find ways to make that work as well and find some spirit of 
consensus to get it moving forward so we are not doing it every 
2 weeks.
    Thank you very much.
    Thank you Madam Chairman.
    Senator Mikulski. Thank you, Senator Nelson.
    I am going to turn to Senator Murkowski and then Senator 
Pryor.
    Before you go, I found what you said about Admiral Mullen 
very interesting. When did he say that?
    Senator Nelson. Within the last 6 months.
    I will get you the quote.
    Senator Mikulski. Well, I would like to hear the quote 
because then if he feels that--did he also say that he was 
willing to give at the office and that Department of Defense 
should----
    Senator Nelson. Oh, absolutely.
    Senator Mikulski [continuing]. Now be on the table?
    [The information follows:]

    Admiral Mullen. ``I think the biggest threat we have to our 
national security is our debt.''

    Senator Nelson. What I can say is that Secretary Gates has 
begun the process out there of trying to cut back and look for 
duplication and reduce the growth in their budget as well. So 
they are on board. They are on board.
    Senator Mikulski. And that is why we need to go not for the 
2 weeks, but we need to put all things on the table and come to 
a rational, orderly way to do this, because it is not good for 
anyone with boots on the ground.
    Senator Nelson. Absolutely.
    Senator Mikulski. Senator Murkowski.
    Senator Murkowski. Thank you, Madam Chairman.
    And Attorney General Holder, welcome.
    Attorney General Holder. Good morning.
    Senator Murkowski. Thank you for your leadership. Good 
morning.

                         BILL ALLEN ALASKA CASE

    I am going to change the subject a little bit here. I would 
like to bring up with you the issue of Mr. Bill Allen, a name 
that I am sure you are familiar with from Alaska.
    For the benefit of my colleagues, Mr. Allen pled guilty in 
2007 to multiple Federal offenses, including bribery and 
extortion. He subsequently became a key witness for the Justice 
Department in the trials of the late Senator Ted Stevens and 
several Alaskan legislators. Mr. Allen is presently serving 
time at the Federal Corrections Institute in California.
    Back in 2008, the Anchorage Police Department received 
information that Allen had paid a young Alaska Native woman for 
sex. She was 15 years old at the time. The young woman then 
later moved to Seattle, and he sought to continue that 
relationship. We learned--the law enforcement folks learned 
that Allen had transported this young woman between Seattle and 
Anchorage with the intent to engage in prostitution on multiple 
occasions.
    The Anchorage Police Department brought in the FBI. The 
case was presented to the Child Exploitation and Obscenity 
section for prosecution. We understand that there were multiple 
trips with the trial attorney from Washington, DC, to Alaska to 
work with our law enforcement. We later learned that the trial 
attorney, as well as the section chief, had recommended that 
the case be presented to the grand jury, and yet Mr. Allen has 
never been charged with these crimes.
    It was reported that the charges were never presented to 
the grand jury, and it appears that the Justice Department 
simply declined prosecution.
    I wrote you expressing my concerns back in August, and I 
received a reply from your Assistant Attorney General, Mr. 
Welch, back in October. I think you knew that I was not 
satisfied with Mr. Welch's response to my concern, and Alaskans 
were certainly not satisfied with the response.
    I have indicated to Alaskans that I would follow up 
directly with you. So, at this time, I would ask you, Mr. 
Attorney General, if you can explain, as specifically as you 
can, why the Justice Department did not pursue an indictment 
against Mr. Allen on these charges. And if you could, 
specifically address the proposition that the Justice 
Department did not prosecute him on the sex abuse charge on 
account of his cooperation in other cases.
    Attorney General Holder. With regard to the exploitation 
matter, I would say that the Department certainly has a very 
good record of vigorously investigating and trying these kinds 
of matters. I was just looking at the numbers here. We have 
about 4,000 of these offenders who, within the last 3 years, we 
have investigated.
    Our caseload in that regard is up more than 1,000 percent 
since fiscal year 2001. So we are vigorous in our prosecution 
of those cases.
    In making the determination as to what happens in any 
particular case, we are guided by the principles of Federal 
prosecution, and we take into consideration a number of 
factors, among them being the age of the case, the reliability 
of the witnesses, the ability to say that we have a better than 
50 percent chance of winning a case.
    Decisions to decline prosecutions or not go forward with 
cases are made strictly on that basis, not with regard to 
political persuasion or the role somebody has played. If a case 
could be made, a case would be brought. The basis for the 
declination would be rooted only in that which is governed or 
set out in the principles of Federal prosecution.
    Senator Murkowski. Given the circumstances of this 
particular matter and, again, this proposition that the failure 
to prosecute was based on cooperation, and that has been 
repeated and repeated, do you think I would be out of line if I 
were to ask the Office of the Inspector General and the Office 
of Professional Responsibility to examine the Department's 
handling in the Bill Allen case?
    Attorney General Holder. Well, that certainly would be 
within your discretion to do that. I don't think that is 
necessarily warranted on the basis of the decision here. I am 
confident that the decision was made, or all of these decisions 
were made, on the basis of the appropriate guidelines.
    We can certainly say that with regard to the case that I 
have not shown an unwillingness to do things that might have 
been a little controversial, maybe even unpopular, with regard 
to matters in Alaska, you know, the Stevens dismissal.
    Senator Murkowski. And I appreciate that.
    Attorney General Holder. And the decision here, as I said, 
I am confident follows the rules that always apply.
    Senator Murkowski. Well, Mr. Attorney General, I appreciate 
your comments, and I certainly appreciate your actions with the 
Ted Stevens matter. This is something that has so troubled 
Alaskans to the core, that you have an extremely high-profile 
political figure, extraordinarily wealthy, truly abusing in a 
very terrible way a 15-year-old girl over a period of years. 
The assumption is just that, you know, the wealthy politician 
or the wealthy guy with the political connections is able to 
get away with a level of criminality that simply would not be 
accepted elsewhere.
    I will tell you that we are not done attempting to resolve 
this issue, and I will be asking for your support as we try to 
pursue this.
    Attorney General Holder. Okay. I just want to assure you, 
Senator Murkowski, I have great respect for you--we have always 
had, I think, good interactions--and the people of Alaska, that 
you might not agree with the decisions that have been made in 
connection with cases that have come before the Department of 
Justice, but the decisions had nothing to do with political 
connections, whether somebody has cooperated in a case, or 
anything like that.
    The decisions were made only on the basis of the facts, the 
law, and the principles that we have to apply. And nothing 
beyond that entered into any decisions that we have made.
    But I understand the concerns that you have expressed and 
that people in Alaska have. I can't get into much detail with 
regard to why particular decisions are made in particular 
cases, but I really do want to assure you and the people of 
your State that the extraneous things that you mentioned did 
not factor into that decisionmaking.
    Senator Murkowski. Well, we will keep working with you on 
this.
    Thank you, Madam Chairman.
    Senator Mikulski. Senator Pryor, thank you for your 
patience.
    Senator Pryor. Thank you, Madam Chair.
    General Holder, it is always good to see you, and thank you 
for being here today.

                     DEFENSE OF MARRIAGE ACT (DOMA)

    I want to start with a question about your responsibilities 
as Attorney General. And I know you have a lot of 
responsibilities. You have to balance a lot of things. I had a 
little taste of that when I was my State's Attorney General a 
few years ago.
    But one of the things we were very committed to in my 
office was always trying to follow the law. And with that said, 
I am curious about your decision recently with regard to the 
DOMA. My view would be that even if you have concerns about the 
constitutionality, et cetera, the Congress has passed it. It is 
the law until the court--in this case, maybe the U.S. Supreme 
Court--tells you it is not.
    I am curious about your legal rationale. And again, I don't 
really want to get into the details of DOMA, the policy. I 
happen to support it, but I am not even really talking about 
DOMA itself. I am talking about the process that you all went 
through to come to a decision to basically stop defending one 
of the laws that we have on the books.
    Attorney General Holder. Sure. As a general principle, this 
Department of Justice takes seriously its responsibility to 
defend acts of the Congress where reasonable arguments can be 
made with regard to their constitutionality, and we have done 
that. There come rare circumstances where a decision is made 
within the Department when that cannot be done, and that was 
the case with regard to DOMA.
    We were faced with a situation that was, in some ways, 
different. We had defended DOMA in those circuits where the 
rational basis standard was the standard. We were faced in the 
Second Circuit with a circuit where no determination had been 
made as to what was the appropriate standard to judge the 
constitutionality of the statute.
    We looked at the facts. Given the history of discrimination 
that gays and lesbians have experienced in this country, it was 
our belief the President accepted the recommendation that I 
made to him--that a heightened level of scrutiny was 
appropriate.
    Under that heightened level of scrutiny, the determination 
that we made was that the statute was unconstitutional. And as 
a result, we made the determination that we would not defend 
the constitutionality of the statute. But we will continue to 
enforce the statute until it is either repealed by the 
Congress, or the Supreme Court makes the determination that it 
is, in fact, unconstitutional.
    Senator Pryor. You mentioned that this is a rare decision 
by the Justice Department. What are the other recent instances 
where your administration or previous Justice Departments have 
made a decision to not defend a Federal statute?
    Attorney General Holder. Yes, I have in front of me a 4-
page document that has 10 to 15 cases in which that has 
occurred. I know that Chief Justice Roberts, when he was the 
acting Solicitor General in the Metro Media case, made a 
determination not to defend the constitutionality of a statute.
    There are other instances that I would be more than glad to 
share with you and provide you with this document. It is, as I 
said, something that is rare. It has happened during the course 
of this administration probably about eight or nine times or 
so, more often than not for technical reasons that we decide 
not to defend a statute.
    What we did with regard to DOMA was extremely unique and 
not indicative of any desire or lack of desire on the part of 
the Department to do what it traditionally has done, which is 
defend the constitutionality of statutes.
    Senator Pryor. I would like to look at those because I have 
the concern about future Presidents that may disagree with some 
act of the Congress and just decide, ``Hey, you know, we are 
not comfortable with this, and so we are not going to defend 
it.'' And I think that part of the checks and balances is that 
the Justice Department and the administration should defend the 
laws that the Congress puts on the books, regardless of what 
their personal views may be on those.

                 BUREAU OF PRISONS CONSTRUCTION FUNDING

    Let me go to my next question, if you will. I noticed that 
in one of the accounts that you have for building of prisons, 
for the Bureau of Prisons, my understanding is that there is 
some money to build prisons. But I am concerned that there may 
not be enough there to build the adequate bed space that you 
need. Do you have any comments on that?
    Attorney General Holder. Yes. That is something I am very 
concerned about. We have really gotten as low as we possibly 
can get. We have the need for additional bed space. It is a 
question of safety not only for the prisoners, but for also the 
guards who work in these facilities.
    With overcrowding comes insecure conditions, and we want to 
build new prisons to the extent that we can. We want to acquire 
the Thompson facility, for instance, in Illinois, that would be 
used to house high-security prisoners, where we have a 
particular problem.
    We want to expand the facility that we have in Arkansas. We 
think we have had a good experience there, and there is a high-
security facility that we would like to put there. But we would 
need the support of the Congress not only this year, but in 
subsequent years so that we can, in fact, construct these 
facilities, which I think are very much needed. Because the 
reality is that as we are successful in doing our jobs, there 
are increasing numbers of prisoners who come into the system.
    Senator Pryor. Right. Yes, I think the Federal prison 
system is fairly overcrowded at this point. So we need more bed 
space.
    Madam Chair, thank you. Thank you.
    Senator Mikulski. Senator Lautenberg.
    Senator Lautenberg. Thank you, Madam Chairman.
    Mr. Holder, good to see you. We both spent time at Columbia 
University. I don't remember seeing you around the campus, 
but----
    Attorney General Holder. I was there.
    Senator Lautenberg. Yes. Maybe it was before I was there.
    You didn't have President Eisenhower give you your diploma, 
did you? I did.
    Attorney General Holder. No, I did not. I did not.

                   EFFECT OF CUTS TO THE COPS PROGRAM

    Senator Lautenberg. You have had a lot of experience in all 
kinds of criminal prosecutions and white collar prosecutions. 
And I know how arduous you are, how you want to catch them. But 
you know, the one thing we know is, that you can't try 
criminals or offenders if you don't first arrest them. And you 
can't arrest them if we don't have the police on the streets 
and in the communities.
    And we see the cuts in the COPS program. It is such a good 
program, and they wanted to decimate it, the Republican side. 
And there was an amendment offered to restore some of the 
funding.
    But I want to tell you, I am pleased that the President's 
budget included a substantial increase in funding for the COPS 
program. But then the House Republicans stepped in and 
eliminated the program altogether.
    In the city of Camden, New Jersey, poor city, cops can't 
even answer burglary calls. They have to put them on a list. 
They can't answer car thefts. They don't have enough manpower. 
Laying off more than 100 policemen, city of Newark, I mean, we 
have to do the things in those cities that can make them safer 
than they presently are.
    Now what is the effect of a combination of layoffs and 
eliminations that the COPS program has on safety in the 
streets?
    Attorney General Holder. I think that you are exactly 
right, Senator. I have great concern about proposed levels of 
funding with regard to the COPS program.
    Our budget asks for $600 million. That is an increase of 
$302 million from that which had previously been put in the 
COPS program. That is a vital tool for not only the State and 
local forces that benefit from the money, but also from us in 
the Federal Government.
    We are only as effective as the partnerships that we try to 
construct with our State and local counterparts. I am greatly 
concerned by the situation, certainly, in Camden, that has been 
widely reported. But I am also concerned about the inability of 
other departments to do all the things that we expect them to 
do.
    And it is beyond that which people traditionally think 
about our State and local partners. They are our eyes and ears. 
They are also the people who feed to us information that helps 
us on the national security front when it comes to terrorist 
threats. They are frequently the people who first see things 
that are reported to us on the Federal side.
    So I think that if we want to keep the American people 
safe, we have to fund COPS at the level that we have suggested, 
and also support the $3 billion that is in our budget for aid 
more generally to our State and local counterparts.
    Senator Lautenberg. Thanks.
    I want to get to a couple things, if you can give me a 
quick answer.

                   HIGH-CAPACITY AMMUNITION MAGAZINES

    The Tucson shooter's high-capacity ammunition clip that 
killed 6 people and wounded 13 others: the clips were banned 
until 2004 as part of the assault weapons ban. And even former 
Vice President Dick Cheney, who strongly supports gun 
availability, has suggested it may be appropriate to reinstate 
the ban of that kind of thing.
    Is it time to once again ban high-capacity ammunition 
magazines?
    Attorney General Holder. I think that given what we saw in 
Tucson and the impact that these kinds of magazines can have, I 
think we should examine whether or not we want to go back to 
the ban that we had on them previously. So that is something 
that I think we should be looking at and working with the 
Congress in trying to determine if, in fact, the reinstitution 
of that ban is appropriate.
    Senator Lautenberg. Do I take it that you are saying yes?
    Attorney General Holder. I think that we should certainly 
look at this and make sure that we are doing all that we can to 
protect the American people.

                           GUN SHOW LOOPHOLE

    Senator Lautenberg. I hope we can. Nearly 12 years ago, the 
Senate passed my legislation to close the gun show loophole. It 
went to the House, and it died there.
    And at the time, you were a Deputy Attorney General and 
urged the House to follow the Senate's lead and close this 
loophole. Recent polls found that 69 percent of NRA gun owners 
and 89 percent of all Americans support closing the gun show 
loophole.
    I think everybody knows what that loophole is. It permits 
people to buy guns without identifying themselves. It could be 
Osama bin Laden. You don't ask the questions about where, do 
you live, what is your name? Put the money on the table, you 
get the bullets. Or you get the guns.
    Don't you think it is time for the Congress to close the 
gun show loophole, once and for all?
    Attorney General Holder. Again, I think we need to look at 
the existing laws that we have and the situation that we face. 
I am very concerned, as the chair was saying, in terms of the 
numbers of law enforcement officers who have been gunned down 
over the last 2 years. And I think we have to come up with 
meaningful, effective ways to protect their lives, as well as 
the American people.
    And so, we are looking in the administration now at ways in 
which we can make sure that we respect the second amendment 
rights that people have, but come up with effective measures 
that will protect our law enforcement colleagues and, as I 
said, the American people. This is a process that is ongoing 
within the administration.
    Senator Lautenberg. Well, I would hope we can get it 
solved, and I would hope that we could get a permanent ATF 
Director. The post has been open since 2006, and I think we 
ought to try to take care of that.
    Madam Chairman, thank you.
    Senator Mikulski. You have been a staunch champion on these 
issues.
    Senator Lautenberg. Thank you very much.
    Senator Mikulski. And we have noted the crisis that New 
Jersey is in.
    So, Senator Brown, one of our newest members----
    Senator Brown. Thank you, my first subcommittee hearing.
    Senator Mikulski. So we want to say hi.
    Senator Brown. Thank you, Madam Chair.
    And Mr. Attorney General, thank you. And I would have been 
here at the beginning, but I presided today. So Mr. Attorney 
General, thanks for your service, and thank you for what you 
are doing.
    Attorney General Holder. Good morning.

                 FUGITIVE SAFE SURRENDER (FSS) PROGRAM

    Senator Brown. An announcement came out of USMS earlier 
this week, late last week that they were terminating the FSS 
program, which I know you are familiar with. FSS started in 
Ohio. It is a pioneering program that has made a huge 
difference in encouraging mostly those who have committed 
misdemeanors--and it is 10 percent or so felons, that committed 
felonies--to get them to voluntarily surrender.
    They meet in a church for 2 or 3 days. Judges, prosecutors, 
and police officers are there. Those people with outstanding 
warrants voluntarily come and turn themselves in and are 
generally--their warrants and all are generally disposed of. It 
is a prime example of how law enforcement officials work 
together with the local community to create a safer environment 
for everyone.
    I understand the importance of prioritizing limited 
budgets, but FSS is a program with relatively little expense 
that has made a huge difference. Nationally, some 35,000 
individuals have voluntarily surrendered. It makes police 
officers' jobs a lot safer because they are not arresting 
someone for a traffic violation and that person panics and 
injures or kills a police officer.
    Seven thousand people in Cleveland alone in 2010 turned 
themselves in. I was there one of those days. I had been there 
earlier in the program at another church. It has made such a 
difference.
    I have written to Director Stacia Hylton and asked that you 
continue to work with us to restore the program. Can we 
expect--what can we expect?
    Attorney General Holder. I agree that the program has a 
clear record of benefit to the courts, to law enforcement, and 
to the communities in which it has operated. There are 
thousands of people who have surrendered across the country 
without violence, without danger to officers.
    There are decisions that we have to make with regard to how 
we can support a program that I think has worked well. I 
actually think this is more a State and local responsibility. 
It is best a State and local program versus a Federal 
responsibility.
    On the other hand, I do think that we should try to find 
ways in which we can support the program. And so, I would like 
to work with you to see if there are grant-making 
opportunities, things that we might be able to do that will 
support a program that has proven to be beneficial.
    Senator Brown. Okay. Thank you.
    I understand it is mostly local and State. And I mean, 
there are judges, prosecutors, all State, county, city 
officials there. I think the beauty of it, in part, is where 
after Cleveland began it, it began in Arizona. It was done 
other places.
    And you know, just the imprimatur of the U.S. Justice 
Department with USMS can encourage local communities to do this 
with minimal, relatively minimal Federal assistance and 
involvement and resources and encouraging local governments to 
do that.

                    PRESCRIPTION DRUG ABUSE PROGRAMS

    Let me talk about one other issue or, actually, two other 
issues, both the pill mills and what has happened around the 
country. Ohio has seen huge increases and larger than the rest 
of the country, or larger than many places in the rest of the 
country, abuse of, particularly, morphine-based drugs--
OxyContin, Oxycodone, Percocet, Vicodin, a whole bunch of 
drugs.
    We have, working with the Medicaid director in Ohio, 
established a lock-in program for high-risk individuals. My 
understanding is that there are currently--but, you know, we 
need law enforcement help in this, obviously, as we are doing 
in the State, too. There are currently 37 operational tactical 
diversion squads nationwide, not one of them based in Ohio, the 
seventh-largest State in the country.
    Can we work together with local law enforcement to perhaps 
create that in Ohio so that we can join much of the rest of the 
country in that kind of assistance?
    Attorney General Holder. Sure. I would be glad to work with 
you about how we have deployed our resources. That is something 
that we have devoted a great deal of attention to and have come 
up with ways in which we are fighting a problem that exists in 
a great many States.
    But I would be glad to sit down and talk to you about ways 
in which we might help you deal with the problem, the issue in 
Ohio.

                               METH LABS

    Senator Brown. Okay. And last point, Madam Chair.
    On meth labs, DOJ nationally has stopped State funding for 
meth lab cleanups. Is that a permanent decision, or is that 
something you are looking at again?
    Attorney General Holder. That was one of those tough ones. 
As we looked at the budget situation and had to make the 
decision about what we are going to do with regard to the 
cleanup of these meth labs when it comes to State and local 
operations, and it is something that we have cut in our budget 
request for 2012.
    All I can say is that it is just one of those tough 
decisions that we had to make, given the monies that are 
available to us. It is not something that I particularly like 
doing, but it is something that I think we have to do if we are 
going to try to deal with the financial situation that we find 
ourselves in.
    Senator Brown. Okay. Thank you, Madam Chair. Thanks.
    Senator Mikulski. Thank you, Senator Brown, for those 
excellent questions.
    Mr. Attorney General, we will have additional questions 
that we will submit to the record.
    We want to assure you this subcommittee will be working on 
a bipartisan basis with you. We also want to assure you we hope 
to go to a quick resolution of this gray area with the 
continuing resolution.
    I think we have to come to closure on this, and I think the 
2-week uncertainty and the death by a thousand cuts every 2 
weeks is just terrible. And it is terrible in terms of the 
morale. You cannot, as the chief executive officer, 
appropriately plan. The FBI doesn't know if it can bring on 
people along with our Federal law enforcement. So we want to 
move to resolving this.
    We will be turning to you for additional information, and 
we will welcome a muscular approach by the President to help us 
with this.

                     ADDITIONAL COMMITTEE QUESTIONS

    If there are no further questions this morning, all 
Senators may submit additional questions for the subcommittee's 
official record. We request that DOJ respond within 30 days.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
           Questions Submitted by Senator Barbara A. Mikulski
         consequences of fiscal year 2011 continuing resolution
    Question. The House-passed continuing resolution for wrapping up 
2011 cuts the Justice Department (DOJ) $2.6 billion below the 
President's request and $833 million below 2010 levels. The Senate 
alternative cuts DOJ $2.4 billion below the President's request and 
$656 million below 2010 levels. We're in a holding pattern and the 
House Republicans want us to cut $4 billion every 2 weeks. Currently, 
we are under a 3-week continuing resolution that cuts $470 million 
below fiscal year 2010 levels in funding that would have helped State 
and local communities combat violent crime and improve criminal 
justice.
    What would the cuts proposed in the House-passed continuing 
resolution and the Senate alternative mean for DOJ? What are the 
consequences? Is there anything else that DOJ can cut?
    Answer. DOJ was very concerned about funding levels proposed in the 
House-passed and Senate alternative continuing resolutions for fiscal 
year 2011. At a minimum, certain accounts, such as prisons, detention, 
and some of our legal divisions, would have faced possible deficiency. 
While considered ``discretionary'' in appropriations parlance, much of 
DOJ's work is not discretionary and is impacted by factors outside our 
control. There is nothing discretionary about protecting the American 
public against terrorism and criminal threats, defending civil rights 
and liberties, and upholding the rule of law.
    DOJ's fiscal year 2011 enacted budget (Public Law 112-10) is $26.9 
billion, which is $806.2 million less than the fiscal year 2010 enacted 
budget. Under these levels, DOJ will sustain its core national security 
and law enforcement functions, but must reduce critical funding to 
State and local grants, juvenile justice programs, litigating 
components, and technology programs.
    Some programs, such as the Integrated Wireless Network, DOJ's 
strategic initiative for upgrading DOJ law enforcement tactical mobile 
communications, received significant and unanticipated cuts, which will 
be difficult to plan for and execute in the remaining 6 months of the 
fiscal year. In addition, funding requested for new positions just 
appropriated in fiscal years 2009 and 2010 for DOJ's core mission 
areas, as well as for the continuation of financial fraud and Southwest 
Border enforcement activities, is not provided in the fiscal year 2011 
budget. DOJ will need to closely examine existing operations and 
continue to implement savings and efficiencies to ensure that we can 
absorb the increased and unfunded costs of maintaining our current 
program efforts in fiscal year 2011.
    DOJ understands the need to promote fiscal restraint and pursue 
savings and efficiencies. To keep DOJ operating effectively within 
constrained funding levels, we instituted a temporary hiring freeze in 
January 2011 and suspended all nonessential travel, training, and 
conferences. In addition, all expenditures across the board, including 
vehicles, employee moves, information technology (IT) process, 
equipment, supplies, and contracts, are being held to essential needs.
    Wherever possible, DOJ has implemented management and 
administrative efficiencies to generate savings, which help to support 
existing priority programs and maintain current efforts. DOJ has 
generated creative ideas to achieve efficiencies, which have been 
included in the fiscal year 2011 and fiscal year 2012 President's 
budgets. But we cannot afford additional substantial cuts while 
preserving DOJ's ability to fulfill its core law enforcement.
    Question. How is this affecting morale?
    Answer. As I stated during the Senate Appropriations Committee 
hearing, employee morale associated with a long-term continuing 
resolution is a significant concern. The uncertainty of the fiscal year 
2011 budget process has had a negative impact on morale throughout DOJ. 
In conversations I have had with personnel in the field and with staff 
here in Washington, DC, uncertainty exists with regard to the amount of 
funding enacted for the fiscal year, the ability of DOJ to conduct the 
programs we want to implement, and the question of whether or not 
employees will continue to have their jobs or face furloughs or pay 
cuts. These have all had negative impacts on morale.
    Despite these morale concerns, the dedicated staff at DOJ continue 
to do a good job for the American people. Some of their concerns have 
been mitigated with the enactment of the full-year appropriation; 
however, employee morale will suffer again if we are required to 
operate under long-term continuing resolutions in future fiscal years.
    Question. What difficulties does DOJ face when it has to operate on 
short-term continuing resolutions like the five we have had to pass 
since October 1, 2010? Particularly the continuing resolutions that 
cover only 2 or 3 weeks at a time?
    Answer. In addition to the morale concerns created by the 
uncertainty of repeated, short-term continuing resolutions, this method 
of funding also creates significant operational challenges. The way in 
which continuing resolutions affect DOJ often depends on the specific 
language in the continuing resolution and the way ``current rate'' is 
calculated. If, for example, we are limited to funding provided in the 
previous fiscal year (the ``current rate'') and we are required to fund 
pay raises during the continuing resolution period, components will be 
strapped for operational funds until further appropriations, if any, 
are enacted. This results in a need for limiting hiring and restricting 
operational spending. In the absence of a full-year appropriation, DOJ 
exercises particular caution in the execution of resources and closely 
monitors the status of funds through various reporting mechanisms. In 
some instances where solvency becomes a concern during the continuing 
resolution period, DOJ takes immediate action to remedy the situation 
through transfers, reprogrammings or the deferral of costs until a 
full-year appropriation has been enacted.
    Overall, the activities most affected by continuing resolutions 
include contracting practices, hiring, training, and procurement of IT 
and other major purchases. For example, a continuing resolution creates 
significant uncertainty at every step of the procurement process, from 
budgeting through contractor performance and invoicing. Because 
continuing resolutions limit the funding available to a specified 
period of time, annual contracts must be carefully scrutinized by 
program and procurement officials. Depending on the type, some 
contracts must be fully obligated upon award. These include fixed price 
contracts and subscriptions. The need to obligate a large contract up 
front, at the beginning of the year, can result in funding shortfalls 
for other needs such as payroll and operations. Other contracts, such 
as labor hour contracts, can be segmented. In such cases, the 
contract's period of performance is limited to the portion of the year 
that is funded. When the continuing resolution is extended or a full-
year appropriation is enacted, these contracts must be modified. This 
can be a huge workload burden for program and procurement staffs, as 
well as the contractors, with no value-added.
    Question. How would public safety be impacted by these proposed 
cuts at each of the Federal, State, and local law enforcement levels?
    Answer. At the fiscal year 2011 enacted level, DOJ will sustain its 
core national security and law enforcement functions, but must reduce 
critical funding to State and local grants, juvenile justice programs, 
litigating components, and technology programs. With the exception of 
the Federal Bureau of Investigation (FBI), which received an increase 
above the fiscal year 2010 enacted level, all law enforcement 
components are funded at fiscal year 2010 levels. The Bureau of Prisons 
and Office of the Federal Detention Trustee also received increases 
above the fiscal year 2010 level. However, even though the budget is 
essentially held flat for our law enforcement agencies, the cost of 
doing business-as-usual is higher this year as a result of requirements 
to support increased health insurance premiums, retirement 
contributions, rent and move expenses, and second-year costs associated 
with new staff appropriated in last year's budget. Funding to support 
these ``mandatory'' expenses will have to come from management and 
administrative efficiencies, and possibly scaled-back operations. DOJ 
will do all it can, however, to ensure minimal disruption to core law 
enforcement and public safety initiatives.
    Both the House-passed continuing resolution and the Senate 
alternative included significant cuts to our State, local and tribal 
assistance programs, and the enacted budget includes a 25 percent 
reduction to these programs. Although DOJ certainly appreciates the 
gravity of the strain on State, local and tribal budgets, we will need 
to implement the difficult decisions reflected in the final funding 
levels for our State, local, and tribal partners. We will continue to 
award grant funding so that innovative and effective law enforcement 
solutions are realized and will provide whatever technical assistance 
possible, but our focus must also be on ensuring the availability of 
sufficient resources to successfully execute Federal law enforcement 
programs and responsibilities.
    Question. How will these cuts impact DOJ in 2012?
    Answer. The cuts enacted in the fiscal year 2011 appropriation will 
have a significant adverse impact on DOJ in fiscal year 2012. For 
example, I implemented a Department-wide hiring freeze in January 2011, 
which means components are unable to replace staff leaving through 
attrition. The funding levels provided in the fiscal year 2011 
appropriation, which are in most cases less than the fiscal year 2010 
level, are not sufficient for components to afford to ``buy back'' 
those lost positions. As a result, DOJ is directing components to 
eliminate these ``hollow'' or unfunded positions from their authorized 
position levels. DOJ's workforce will be smaller in fiscal year 2012 
than it is in fiscal year 2011, although the workload is likely to stay 
the same or increase. In addition to staffing efficiencies, DOJ is also 
implementing management and administrative cost savings measures, such 
as reductions to travel and training. DOJ's workforce will be required 
to do more with less. Given the current fiscal outlook for fiscal year 
2012, this trend will likely continue for some time.
    Further, some program reductions proposed in the fiscal year 2012 
President's budget were enacted in fiscal year 2011. For example, both 
the National Drug Intelligence Center and the Integrated Wireless 
Network program saw considerable cuts in the fiscal year 2011 
appropriation, which will be difficult to plan for and execute in the 
remaining 6 months of the fiscal year.
    Overall, most components will need to closely re-evaluate their 
allocation of resources to support continued base requirements, such as 
increased health insurance premiums, retirement contributions, rent and 
move expenses, and second-year costs associated with new staff 
appropriated in last year's budget. This re-evaluation may mean that 
operational funding previously available for law enforcement or 
litigation activities will be adversely impacted.
                cops and byrne grant funding reductions
    Question. The 2011 House continuing resolution proposes drastic 
cuts in funding for programs like Community Oriented Policing Services 
(COPS) and Byrne grants, which will result in fewer police officers to 
protect our communities, help victims recover, and combat crimes like 
violence against women. State and local agencies would be hamstrung as 
partners of Federal law enforcement, but also increasingly turn to 
Federal agencies to meet needs they no longer have the capabilities to 
address themselves.
    What concerns do you have about what these cuts will do to State 
and local law enforcement agencies around the country?
    Answer. DOJ understands that it is operating in an age of 
austerity, and that tough choices are necessary to rein in the Federal 
deficit and put the country on a sustainable fiscal path. However, 
these cuts threaten the hard-won historic crime reductions achieved by 
State and local law enforcement over the past decade. They also add 
another measure of difficulty for those agencies that support State and 
local law enforcement, several of which have suffered from nearly 3 
years of budget cuts.
    State, local, and tribal public safety agencies across the country 
face significant budget-related challenges that threaten their ability 
to deliver core services and maintain public safety. According to a 
December 2010 report released by the Police Executive Research Forum, 
more than one-half of the 608 law enforcement agencies surveyed 
experienced budget reductions in 2009 and 2010. Six out of 10 of these 
agencies have experienced additional reductions in 2011. Many of these 
agencies serve areas--both urban and rural--that face persistent 
problems with gangs, guns, and drugs.
    Numerous law enforcement agencies have been forced to lay off sworn 
and civilian personnel, while others are disbanding specialized units, 
reducing or eliminating training, forgoing important technology 
acquisitions, and limiting on-scene responses to various categories of 
service calls. One of the most severe cases is Flint, Michigan. Despite 
a murder rate higher than Newark, St. Louis, New Orleans, or Flint has 
been forced to lay off two-thirds of its force over the past 3 years.
    After years of increasingly progressive policing that contributed 
to record crime reductions, many agencies are forced to retreat to the 
1970s, allocating the bulk of their resources and personnel to answer 
calls for service. When departments run from call to call, the gains 
attributed to community policing, improved analysis, and data-driven 
crime prevention efforts are jeopardized.
    Instilling trust in crime-prone neighborhoods takes time and 
patience. Maintaining safe and nurturing schools often involves a 
stable law enforcement presence. Preventing retaliatory violence 
requires substantial law enforcement resources and attention. These 
activities, whether framed as community policing, quality of life 
enforcement or broken windows theory, play an important part in 
protecting the individual rights and liberties guaranteed by the 
Constitution. Despite their importance to neighborhoods across America, 
these programs are less tangible, produce less hard data and are very 
difficult to defend during a budget crisis.
    The Office of Justice Programs (OJP) provides training on effective 
responses to such emerging and long-standing threats. OJP develops and 
shares knowledge about ``what works'' in preventing and controlling 
crime, funds important innovations, and provides cost effective and 
supportive training and technical assistance. OJP also funds technology 
and equipment acquisitions that can help agencies struggling with 
reduced budgets to operate more efficiently.
    Considering the tremendous need for DOJ's leadership and resources 
among its State, local, and tribal partners in the current economic 
climate, the President's fiscal year 2012 request reflects an earnest 
effort to maximize Federal resources, achieve efficiencies, and make 
the difficult decisions necessary to respond to current fiscal 
realities. These programs and our relationships with State, local, and 
tribal law enforcement agencies maximize the Federal Government's 
ability to fight crime and promote justice throughout the United 
States.
    DOJ shared your concerns over the proposed cuts to the COPS office 
programs, but we were pleased to see that the final fiscal year 2011 
budget included these much needed resources for our partners in State, 
local, and tribal law enforcement. While the hiring program and other 
COPS office grant programs were cut to ensure a budget could be passed, 
they were manageable reductions and we're looking forward to opening 
the hiring solicitation later this spring.
    Question. When police departments cannot afford to put officers on 
the beat to prevent and combat violent crime, what impact does this 
have on families and communities?
    Answer. In every corner of this country, State, local, and tribal 
police departments are laying off officers and civilian staff, or 
modifying their operations as a result of budget cuts. Police 
departments are now required to do more with less in this economy, 
especially when there are reductions in much needed Federal resources. 
The practice of policing has become more automated with technology 
filling in the gaps left by fewer cops on the beat. Law enforcement 
agencies have learned to better combine resources and create regional 
multi-agency partnerships to better address public safety issues. 
Recognizing these partnerships is a priority for COPS and DOJ's grant 
making agencies, as they too must do more with less. The challenge will 
be balancing the public's expectations and demands on police with a 
department's fiscal capacity to perform its core mission.
    The impact on families and communities is being felt in cities and 
counties across the country as government executives are cutting 
policing services to fill budget gaps. There are reports each week of 
cut backs including a city in the mid-west that is looking to cut 
municipal services to more than 20 percent of its 139 square mile 
jurisdiction. Other cities have resorted to laying off sworn police 
officers, which has a direct impact on the ability to patrol 
neighborhoods and respond to service calls. The ripple effect of 
shrinking budgets is being felt nationwide.
    Question. If State and local agencies are forced to reduce their 
numbers because of this funding reduction, do you anticipate a greater 
burden placed on Federal law enforcement agencies to fill gaps in 
policing?
    Answer. The economic crisis has taken a heavy toll on State and 
local budgets, and public safety agencies are suffering. Last summer, 
the city of Oakland, California laid off 80 police officers, 
representing 10 percent of its force. In January, more than 160 
officers in Camden, New Jersey--one-half of the police department--were 
forced to turn in their badges. In Cincinnati, Ohio, officers are 
facing massive lay-offs and demotions. These are just a few of the 
historically high-crime cities that have seen critical public safety 
jobs sacrificed to shrinking municipal budgets. While OJP does not have 
evaluations available through its National Institute of Justice to 
measure the impact of these challenges, it seems inevitable that in 
this environment there will be increased calls for assistance to 
Federal law enforcement from State and local law enforcement agencies.
    It is difficult to predict the impact on Federal law enforcement 
agencies at this stage. What we do know is that there is an ever-
increasing demand for scarce Federal funding to supplement public 
safety initiatives. For example, when the COPS office opened the 
solicitation for the COPS Hiring Recovery program in 2009, which was 
part of the American Recovery and Reinvestment Act, the demand far 
outweighed the funding available with more than $8 billion in requests 
for the $1 billion that was appropriated. This demonstrates that the 
States' need for financial assistance outstrips what the Federal 
Government can provide.
    Question. Which Federal law enforcement agencies would State and 
local police turn to and would those agencies have the capabilities to 
help?
    Answer. Based on historical experience with DOJ programs, the Drug 
Enforcement Administration (DEA), the United States Marshals Service 
(USMS), the Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), 
and the FBI all have ongoing and cooperative relationships with State 
and local law enforcement. These agencies would be most likely to 
receive increased calls for assistance from State, local, or tribal 
agencies.
    The FBI actively provides assistance to Law Enforcement Agencies 
(LEAs) through a variety of programs such as SSTFs, JTTFs, the National 
Academy, etc. To the extent possible, the FBI provides assistance to 
LEAs on an ad hoc basis through its field offices and the local 
relationships it has established.
    While ATF and DEA will continue to work with State, local, and 
tribal law enforcement the anticipated fiscal year 2012 funding levels 
will result in reduced funding to support investigative and other 
activities. ATF, for example, may be forced to reduce funding to 
program areas like the National Integrated Ballistics Imaging Network, 
the National Tracing Center, as well as State and local training. Under 
level funding DEA will be forced to manage hiring, including Special 
Agent hiring, and will likely be unable to backfill positions at the 
rate of attrition.
    Question. Are Federal LEAs set to receive any additional resources 
to deal with additional demand from State and local partners?
    Answer. With the exception of the FBI, which received an increase 
above the fiscal year 2010 enacted level to sustain its current 
services, all DOJ law enforcement components are funded at fiscal year 
2010 levels. DOJ will need to find additional management and 
administrative efficiencies and possibly re-prioritize operations in 
order to maintain core national security and law enforcement functions, 
while absorbing increases in ``mandatory'' expenses such as health 
insurance premiums, retirement contributions, and rent. DOJ appreciates 
the gravity of the strain on State, local and tribal budgets, and we 
will need to implement the difficult decisions reflected in the final 
funding levels for our State, local, and tribal partners. We will 
continue to award grant funding so that innovative and effective law 
enforcement solutions are realized, and we will continue to provide 
necessary and appropriate technical assistance.
                        stopping child predators
    Question. The National Center for Missing and Exploited Children 
(NCMEC) there are more than 100,000 noncompliant sex offenders at-large 
in the United States. The Adam Walsh Child Protection and Safety Act of 
2006 (Public Law 109-248) gives the USMS the authority to treat 
convicted sex offenders as fugitives if they fail to register, as well 
as to assist jurisdictions to locate and apprehend these individuals.
    USMS estimates it needs a dedicated force of 500 deputies to fully 
implement the Adam Walsh Act. Currently, there are 177 deputy marshals 
on board. No additional funds have been requested for Adam Walsh Act 
implementation and enforcement in fiscal year 2012.
    If USMS estimate they need 500 deputies to fully enforce the Adam 
Walsh Act and keep our children safe, why has DOJ failed to request 
additional resources in fiscal year 2012 for USMS to hire more deputies 
to meet this need?
    Answer. The Adam Walsh Child Protection and Safety Act is a 
landmark piece of legislation that considerably enhances the ability of 
DOJ to respond to crimes against children and vulnerable adults and 
prevent sex offenders who have been released back into the community 
from victimizing other people. DOJ and USMS fully support the mandates 
of the Adam Walsh Act. The fiscal year 2012 President's budget for USMS 
requests $57 million for Adam Walsh Act related activities, an increase 
of $9 million (19 percent).
    Question. If more resources cannot be devoted to enforcing this 
act, what other measures could the Congress adopt which would improve 
the effectiveness of the investigators? Specifically, would DOJ support 
documentary administrative subpoena power for the USMS in its 
investigative capacity?
    Answer. Additional tools, such as the ability of the USMS to secure 
its own documentary administrative subpoena authority, would help make 
sex offender investigations more robust. DOJ supports a grant of such 
authority. DOJ will consider and inform the subcommittee if there are 
other nonmonetary measures that would enhance DOJ investigations.
                   financial fraud--predatory lending
    Question. Predatory lenders across the United States continue 
destroying families and communities, and undermine faith in our 
financial systems. DOJ's financial fraud workload continues increasing 
as more predatory lenders are exposed. Last year, the Congress gave you 
an estimated $865 million, including resources to hire 54 new agents, 
165 new attorneys, and 142 new professional support staff dedicated to 
investigating financial fraud. This brings the total number working on 
this problem to more than 4,700 Federal personnel.
    When provided the resources to hire and equip full task force teams 
of agents, forensic accountants, analysts, and attorneys to work on the 
financial fraud case workload, what exactly does this mean DOJ is able 
to do?
    Answer. These resources allow DOJ to prosecute financial fraud 
aggressively. Many of the financial fraud crimes that DOJ investigates 
are increasingly sophisticated and involve complex schemes, numerous 
asset transfers, and tens of thousands, if not millions, of pages of 
documents. Investment frauds can involve a significant money laundering 
component as well, and victim funds are often secreted away in numerous 
accounts. In order to successfully prosecute these crimes and to obtain 
recovery of the assets for victims, prosecutors and agents are often 
required to sort through voluminous bank records and other documents, 
and to trace fund flows into and out of bank accounts, including 
overseas accounts.
    Similarly, many financial fraud crimes involve the use of 
sophisticated accounting gimmicks, joint partnerships, fraudulent 
accounts, and corporate shell entities. In order to pierce these 
schemes, investigators are required to analyze numerous records and 
understand accounting rules. Forensic accountants and analysts may be 
asked to apply their expertise in reviewing accounting records, sales 
agreements, third-party transactions, partnership and corporate 
records, and bank records.
    Question. The phrase ``economic fraud'' covers a broad range of 
financial crimes. What types of economic fraud investigations and 
prosecutions are DOJ's teams of FBI agents, U.S. Attorneys, legal 
divisions, and the inspector general (OIG) tackling? With each type of 
fraud case, give examples using successfully prosecuted convictions and 
recoveries.
    Answer. DOJ investigates and prosecutes a wide range of crimes that 
could be characterized as economic fraud. For example, DOJ's economic 
crime prosecutions include investment fraud, bank fraud, mail fraud, 
wire fraud, securities fraud, and mortgage fraud. These schemes can 
bring economic devastation to their victims.
    One case in particular serves as an example of DOJ's efforts to 
prosecute each of these types of fraud cases: the April 19, 2011, 
conviction of Lee Bentley Farkas, the former chairman of a private 
mortgage lending company, Taylor, Bean & Whitaker (TBW). In that case, 
in connection with a $2.9 billion fraud scheme, a Federal jury in 
Alexandria, Virginia, convicted Farkas of one count of conspiracy to 
commit bank, wire, and securities fraud; six counts of bank fraud; four 
counts of wire fraud; and three counts of securities fraud. Farkas and 
his co-conspirators engaged in a scheme that misappropriated more than 
$1.4 billion from Colonial Bank's Mortgage Warehouse Lending Division 
in Orlando, Florida, and approximately $1.5 billion from Ocala Funding, 
a mortgage lending facility. The scheme led to the collapse of TBW, one 
of the largest private mortgage lending companies in the United States, 
and Colonial Bank, 1 of the country's 25 largest banks in 2009.
    DOJ's prosecution of two brothers, Matthew and Lance La Madrid, is 
another recent example of its efforts to prosecute mortgage-related 
fraud. On January 3, 2011, both defendants pleaded guilty in the 
southern district of California to mail fraud charges pertaining to a 
$30 million mortgage fraud and investment fraud scheme. As part of the 
scheme, the brothers used false borrower information to obtain millions 
of dollars in mortgages, which they then used to fund a real estate 
investment fraud scheme.
    DOJ has prosecuted numerous other economic fraud cases that involve 
investment, bank, and securities fraud. For example:
  --On March 12, 2009, Bernard Madoff pleaded guilty to 11 felony 
        counts, including counts for securities fraud and investment 
        adviser fraud, in connection with perhaps the largest 
        investment fraud scheme in history. On June 29, 2009, Madoff 
        was sentenced to 150 years' imprisonment;
  --On January 27, 2010, Scott Rothstein, the former managing partner 
        of a Florida law firm, pleaded guilty to orchestrating a $1.2 
        billion fraud scheme. On June 9, 2010, Rothstein was sentenced 
        to 50 years imprisonment;
  --On December 2, 2009, Thomas Petters was convicted after trial for 
        masterminding a $3.7 billion investment fraud scheme that 
        defrauded thousands of investors. On April 8, 2010, Petters was 
        sentenced to 50 years imprisonment; and
  --On May 11, 2009, Marc Dreier--the founder of Dreier LLP, a law firm 
        with more than 250 employees--pleaded guilty to a securities 
        fraud scheme which caused approximately $400 million in losses. 
        On July 13, 2009, Dreier was sentenced to 20 years 
        imprisonment.
    Recoveries from these cases have been substantial. In December 
2010, for example, DOJ announced that the estate of Jeffrey Picower, a 
Madoff investor, had agreed to forfeit to the United States more than 
$7 billion, representing all the profits that Picower had withdrawn 
from Madoff's fraudulent investment advisory business.
    Question. Since DOJ ramped up its crackdown on economic fraud, how 
many cases has the Justice Department successfully prosecuted? How many 
convictions have resulted? What did those schemes cost victims and how 
much in losses have been recovered?
    Answer. DOJ has aggressively prosecuted cases involving economic 
fraud. According to DOJ statistics, in fiscal year 2009, the 94 U.S. 
Attorney's Offices (USAOs) charged at least 4,704 defendants with 
crimes concerning financial fraud, and obtained at least 4,091 guilty 
convictions against individual defendants in such cases. In fiscal year 
2010, those numbers increased: the USAOs charged at least 5,459 
defendants with crimes concerning financial fraud, and obtained at 
least 4,423 guilty convictions against individual defendants in such 
cases. These frauds have cost victims, and resulted in losses of, 
billions of dollars.
    At the same time, through both criminal and civil enforcement 
efforts, we have sought to recover billions of dollars. DOJ estimates 
that in fiscal year 2010, $4.8 billion in losses were recovered in 
criminal financial fraud related cases. According to the United States 
Sentencing Commission, in fiscal year 2010, courts ordered $6.6 billion 
in restitution to victims of Federal fraud related crimes. DOJ also 
seeks to forfeit funds where appropriate. In December 2010, as just one 
example, we announced that the estate of Jeffrey Picower, a Bernard 
Madoff investor, had agreed to forfeit more than $7 billion to the 
United States, representing all the profits that Picower withdrew from 
Madoff's fraudulent investment advisory business.
    Question. How much does it cost DOJ to successfully prosecute an 
economic fraud case, ranging from the lowest of recoveries to the 
highest? Describe the resources--including personnel, time, and other 
tools--required to successfully prosecute this range of crimes.
    Answer. It is difficult to quantify how much any particular 
financial fraud case costs DOJ to prosecute successfully. We 
investigate thousands of fraud cases every year, and individual 
prosecutors and agents work on multiple cases at any given time. 
Nevertheless, the component costs are identifiable as:
  --personnel, including attorneys, paralegals, agents, and support 
        staff;
  --IT resources;
  --electronic document collection, storage, management, and review 
        tools; and
  --litigation support for trial.
    The expenses vary depending upon the size and complexity of a case. 
Many cases are prosecuted by one prosecutor and one agent, working with 
minimal administrative support. These prosecutors and agents are also 
working on other cases. The larger the fraud scheme, however, the more 
likely the case is to involve large numbers of documents, bank records, 
and witnesses, and therefore to require additional prosecutors, agents 
and litigation support resources.
    Complex fraud cases, including large-scale investment fraud schemes 
and corporate fraud cases such as the Farkas, Petters, and other cases 
discussed in response to question 14, are extremely resource-intensive 
and cannot be successfully prosecuted and investigated without a 
substantial resource commitment by DOJ. These cases typically involve 
tens of thousands, if not millions, of pages of documents to review; 
numerous company and third-party witnesses, including accountants and 
analysts; and substantial travel.
    Question. Neither the Senate nor the House 2011 continuing 
resolution provides additional funds in 2011 for FBI, U.S. Attorneys, 
and DOJ's litigation divisions. How will this impact DOJ's ability both 
this year and in 2012 to conduct fraud investigations?
    Answer. DOJ is committed to investigating and prosecuting all forms 
of financial fraud aggressively, and we will continue to do so with 
existing resources. To the extent that the Congress appropriates 
additional funds for the Justice DOJ to use in prosecuting financial 
fraud cases, we will use those resources to bolster our already 
vigorous efforts in this critical area.
    Question. How can DOJ better help State and local officials 
investigate predatory lenders?
    Answer. DOJ currently works closely with its State and local law 
enforcement partners on financial fraud cases in numerous ways, 
including through regional mortgage fraud task forces and working 
groups; through the coordinated efforts of the Financial Fraud 
Enforcement Task Force, which includes many State and local enforcement 
officials; and through the National Association of Attorneys General 
and the National District Attorneys Association. DOJ will continue to 
use these and other avenues to work with its State and local partners 
in the future.
                             cyber security
    Question. Cyber intrusions are increasing and threaten the U.S. 
economy and security. Foreign firms are hacking into our corporate 
networks, stealing trade secrets, and reducing our competitiveness. 
Terrorists and foreign nations with advanced cyber intrusion abilities 
could shut down power grids and financial systems, and steal U.S. 
counterterrorism information, like IED jammer technology.
    DOJ requests $167 million to combat computer intrusions, including 
$129 million for FBI's Comprehensive National Cybersecurity initiative 
and $38 million for digital forensics in fiscal year 2012, an increase 
of $18.6 million compared to current services and equal to the fiscal 
year 2010 enacted level. FBI, in particular, has unique authorities to 
collect domestic intelligence and investigate foreign intrusions to 
Government and private networks.
    Describe the Justice Department's efforts--particularly those of 
the FBI--to protect cyberspace.
    Answer. FBI maintains a comprehensive cyber program to pursue cyber 
threats. This program is driven by investigative and intelligence 
goals, focusing on the actors and organizations behind computer 
intrusions. FBI has had several well-publicized arrests of criminal 
cyber threat actors, including extraditions and foreign government 
arrests of actors operating abroad. FBI's cyber program also provides 
insight into the tactics, techniques, capabilities, and targets of 
cyber threat actors, allowing FBI to share timely and actionable 
information to net-defenders who might otherwise be unaware of the 
network vulnerabilities discovered by our adversaries.
    FBI is also responsible for operating the National Cyber 
Investigative Joint Task Force (NCIJTF), a multi-agency national focal 
point for coordinating, integrating, and sharing pertinent information 
related to cyber threat investigations. NCIJTF is the day-to-day 
workplace for 18 member organizations that collectively identify and 
prioritize cyber threat actors. NCIJTF participants work in concert to 
design and implement operations that mitigate the threat through any of 
their combined counterterrorism, counterintelligence, intelligence, and 
law enforcement authorities. NCIJTF focuses primarily on national 
security and significant criminal threats, helping to coordinate 
domestic operations among members and integrate these operations with 
intelligence activities conducted outside the United States. NCIJTF has 
demonstrated numerous positive outcomes in the areas of attribution and 
advance indications and warnings that help targeted victims mitigate 
the consequences of cyber exploitation or avoid attack altogether.
    Other DOJ components, including the Criminal Division, National 
Security Division, and the 94 USAOs, through the national Computer 
Hacking and Intellectual Property coordinator program, collaborate with 
the FBI in securing lawful authority to obtain electronic evidence to 
assist in the investigation and prosecution of cybercrime, cooperate 
internationally on evidence collection and extradition, and, when 
appropriate, lead prosecutions against those who have used computer 
networks to commit crimes. DOJ also engages regularly with partner 
agencies, including the Departments of Defense (DOD), Homeland 
Security, and State, to ensure that the Department's response mission 
is appropriately coordinated with the protection, warning, and defense 
missions of other agencies.
    Question. How will the 2011 continuing resolution impact DOJ's 
ability to protect U.S. information and technology networks from cyber 
attacks?
    Answer. The fiscal year 2011 President's budget request included 
$45.9 million in enhancements to combat cyber attacks against the U.S. 
information infrastructure. The fiscal year 2011 full year 
appropriation does not fund this request, thus limiting FBI's ability 
to evolve its cyber program, enhance personnel efforts against emerging 
cyber terrorist and critical infrastructure threats, and resource 
NCIJTF facilities and technology requirements.
    Question. Although the 2012 budget request to detect and combat 
computer intrusions is $18.6 million more than current services, it is 
actually a request equal to the fiscal year 2010 enacted budget for 
this purpose. Given that President Obama has identified cybersecurity 
as an imperative of national security, and DOJ and FBI are recognized 
as the leaders in cybersecurity among civilian agencies, why were no 
increases above fiscal year 2010 enacted levels requested in the fiscal 
year 2012 budget? Are you seeking the necessary resources in the fiscal 
year 2012 budget for this?
    Answer. DOJ requests program increases for computer intrusions in 
its fiscal year 2012 budget to:
  --provide increased coverage of terrorists seeking to use cyber as a 
        means of attack;
  --enable the National Cyber Investigative Joint Task Force (NCIJTF) 
        to have 24/7 operations; and
  --add capacity to FBI-wide electronic surveillance and digital 
        forensics programs.
    The fiscal year 2012 budget requests an 8 percent increase in 
agents assigned to the FBI's CNCI program. The request level in dollars 
is the same as fiscal year 2010 enacted because of some changes in 
resource mapping in the financial system; however, the program will be 
enhanced by the resources requested.
    Question. How can Justice and FBI possibly expand their cyber 
security capabilities in future years when faced with 2011 continuing 
resolution impacts?
    Answer. Unfortunately, the fiscal year 2011 full-year appropriation 
fails to fund $46 million in important improvements to FBI's CNCI 
program. As a result, strategic development is stalled and the program 
will be forced to delay making long-term investments, as limited fiscal 
year 2011 funds will be reprioritized for existing infrastructure, 
technical contract services, or other core items as needed. The 
capacity to expand the program will remain constrained while funding 
levels remain constant.
                    uncollected court-ordered fines
    Question. In the last decade, Federal courts have ordered roughly 
$65 billion in fines and restitution from schemers and scammers who 
prey on hard working, U.S. middle class families. But the Federal 
Government has collected only 2 cents for every $1 owed, totaling an 
estimated $3.5 billion collected to date. These fines are mainly 
supposed to compensate crime victims.
    Who at DOJ is responsible for collecting court-ordered 
compensation?
    Answer. Pursuant to 28 C.F.R. Sec. 0.171, each USAO is required to 
have a Financial Litigation Unit (FLU) to enforce and collect civil and 
criminal debts owed to the United States and victims of crime. There 
are 93 FLUs (Guam and the Mariana Islands are combined). The FLU is 
responsible for handling civil claims and ``activities related to the 
satisfaction, collection, or recovery of fines, special assessments, 
penalties, interest, bail bond forfeitures, restitution, and court 
costs arising from the prosecution of criminal cases . . . by the 
United States Attorneys.'' 28 C.F.R. Sec. 0.171(a).
    Question. How many agents, prosecutors, and support staff collect 
owed fines and restitution?
    Answer. Approximately 350 positions in USAOs are dedicated to the 
collection of debts owed the United States and victims of crime.
    Question. What are the obstacles standing in the way of collecting 
these fines? What can we do to fix those problems? What tools does DOJ 
need to ensure that it can aggressively collect the fines an 
restitutions criminals owe?
    Answer. There are a number of obstacles to collecting court ordered 
fines and restitution:
  --Under current law, there are no statutory provisions that require a 
        defendant charged with an offense for which restitution is 
        likely to be ordered to preserve their assets for restitution. 
        In other words, under current law, we cannot start collecting 
        or even ensure that any money that the defendant does have is 
        preserved for victims until after the defendant is sentenced 
        and restitution has been ordered. White collar fraud activity 
        may take years before being discovered, investigated, and 
        successfully prosecuted. In a January 2005 report (GAO-05-80), 
        GAO found that in the cases they reviewed, anywhere from 5 to 
        13 years had passed since the time of the criminal activity 
        before an order of restitution was entered, leaving a 
        significant period of time for defendants to dissipate their 
        assets.
  --The orders of restitution many times tie the Government's hands. 
        That is, courts are ordering the full amount of restitution; 
        however, they are then adding a very small payment schedule 
        governing the payment of the restitution by the defendant. For 
        example, the court will order $1 million in restitution and 
        then go on to say that the defendant shall pay the restitution 
        at $100/month. Additionally, courts often fail to order payment 
        immediately. For example, the court will order that payment is 
        not due until after the period of incarceration.
  --Under The Mandatory Victims Restitution Act (MVRA), not only must 
        restitution be ordered for the full amount of the loss, but 
        judges cannot take into consideration the defendant's ability 
        to pay. As a result, financial penalties are imposed on 
        individuals with no resources, no incomes, or have limited 
        incomes while incarcerated, and thus this population does not 
        effectively have a means to pay the imposed debts.
  --Under MVRA, courts must impose restitution for the full amount of 
        the victims' losses. However, this often has no correlation to 
        the actual benefit to the defendant. In other words, 
        restitution is not based on how much the defendant made on the 
        fraud, (it is not a disgorgement of the defendant's gain), but 
        rather on the loss to the victims. This disparity can 
        especially be seen in security fraud cases. As a result, even 
        if the Government recovered the full amount of the defendant's 
        gain (and took every asset the defendant possessed), we would 
        still not recover an amount close to satisfying the restitution 
        order.
  --In a July 2001 report (GAO-01-664), GAO indicated that a lack of 
        asset investigators, as well as the limited number of 
        collection staff (in relation to the number of criminal debt 
        collection cases), presents an obstacle for the USAOs in the 
        effective collection of criminal debt. MVRA mandated that the 
        U.S. Attorneys collect restitution on behalf of non-Federal 
        victims of crime. While the Congress recognized the importance 
        of ensuring that these non-Federal victims be compensated, no 
        additional resources were given to the USAOs to carry out this 
        mandate.
    Question. If more court fees were recovered, would DOJ receive a 
portion of those collections?
    Answer. No. While the total outstanding criminal balance is 
approximately $65 billion, the amount of criminal debt collected over 
the past decade is approximately $15 billion. Criminal debt is made up 
of several components:
  --special assessments ($100 for every count of conviction);
  --fines; and
  --restitution (Federal and non-Federal).
    With limited exceptions, collections of both special assessments 
and fines are deposited into the Crime Victims Fund. These monies are 
subsequently disbursed by OJP to the States to fund State-run victim 
assistance and compensation programs. Restitution collections are 
disbursed directly to the victims of the crime for which the 
restitution was ordered. Victims can be either the United States or, 
for the most part, non-Federal individuals or entities. An increase in 
collections would not result in additional monies coming to DOJ for law 
enforcement purposes. In order for DOJ to retain a portion of criminal 
collections, there would need to be legislation authorizing the 
Department to do so.
              task forces--state and local law enforcement
    Question. Joint Terrorism Task Forces (JTTFs) are Federal, State, 
and local police and intelligence agencies that work together to 
identify and respond to terrorist threats at the local level. There are 
now more than 100 task forces led by FBI, with 4,400 participants.
    These teams have been front and center in recent failed bombing 
attempts on a military recruiting station in my own home State of 
Maryland, former President Bush's home in Texas, and a holiday tree-
lighting ceremony in Oregon. Their efforts have prevented what could 
have been deadly attacks on Americans.
    How beneficial are the Task Forces in responding to terrorist 
threats? What unique role do they play in terrorism investigations?
    Answer. JTTFs are highly beneficial and play an essential role in 
responding to terrorist threats and protecting the United States from 
attack:
  --they enhance communication, coordination, and cooperation among the 
        Federal, State, local, and tribal agencies (by sharing 
        information regarding suspected terrorist activities and/or 
        subjects on a regular basis and providing access to other 
        investigative databases to ensure timely and efficient vetting 
        of leads);
  --they provide a force multiplier in the fight against terrorism; and
  --they enhance FBI's understanding of the threat level in the United 
        States.
    Currently, FBI leads 104 JTTFs:
  --One in each of the 56 field office headquarter cities; and
  --Forty-eight in various FBI resident agencies.
    In addition to the FBI, 688 State, local, and tribal agencies, and 
49 Federal agencies have representatives assigned to JTTFs. FBI is the 
lead Federal agency with jurisdiction to investigate terrorism matters, 
and JTTFs are the FBI's mechanism to investigate terrorism matters and 
protect the United States from terrorist attack.
    Question. Why have the number of Task Force participants been 
declining since 2009? What does it mean for DOJ when the number of 
Federal, State, and local participants decreases? What does it mean for 
your State and local partners?
    Answer. Overall, JTTF participation has declined since 2009 from 
4,597 to 4,506 members. Since 2009, State and local JTTF participation 
has declined by 60 full-time and 26 part-time members. During this same 
time period, FBI increased assigned personnel to JTTFs, and 
participation by other Federal agencies has increased by 20 full-time 
members and declined by 97 part-time members.
    JTTF membership decline can be attributed to current Federal, 
State, and local budgetary constraints that have created manpower 
issues for agencies and caused them to pull back personnel from JTTFs. 
Federal, State, and local agency full-time and part-time JTTF 
participation comes at a great manpower staffing cost to participating 
agencies and it will likely become increasingly difficult for agency 
executives to detail personnel to JTTFs due to budgetary constraints. 
FBI will continue to support the ability of its State and local law 
enforcement partners to participate in JTTFs, including by paying for 
overtime of State and local task force officers with funding provided 
by the Assets Forfeiture Fund.
    It is important to ensure the overall decline in Federal, State, 
and local JTTF participation does not negatively impact interagency 
coordination, cooperation, and information sharing at all levels. 
Defeating terrorism cannot be achieved by a single organization. It 
requires collaboration with Federal, State, local, and tribal partners 
to identify suspicious activity and address it. Given the persistent 
and growing threat posed by terrorists, JTTFs require an enhanced 
presence of other law enforcement and intelligence entities on task 
forces. JTTFs cover thousands of leads in response to calls regarding 
counterterrorism-related issues. These leads address potential threats 
to national security and require a significant amount of coordination 
and resources.
    Question. Do you anticipate expanding Task Forces in the future if 
funds are available? Or would you recommend that funding go to another 
priority area?
    Answer. As noted in the response to question 27, JTTFs are 
extremely effective in investigating terrorism matters and protecting 
the United States from terrorist attacks. JTTFs enhance communication, 
coordination, and cooperation amongst the Federal, State, local, and 
tribal agencies, and provide a force multiplier in the fight against 
terrorism. Additional resources would help FBI and other Federal, 
State, local, and tribal agencies increase participation on the JTTFs, 
and thus assist in combating terrorism.
    Question. What additional resources would you need to expand the 
program?
    Answer. In order to expand JTTFs, funding for personnel (FBI and 
task force officers), overtime, space, equipment, and other items would 
be necessary.
                   violence in fugitive apprehension
    Question. Over the past few months, there has been an alarming 
increase in the number of deputy marshals and State and local law 
enforcement officers who assist USMS task forces critically injured or 
killed while pursuing dangerous fugitives. Just days before this 
subcommittee's hearing with the Attorney General, a deputy marshal was 
shot and killed, and another deputy marshal and a task force officer 
were shot, as they attempted to catch a violent fugitive.
    These recent acts of violence against law enforcement officers, 
including deputy marshals, serve as a reminder that law enforcement 
personnel put their lives on the line every day to keep our communities 
safe. Fugitive apprehension is always dangerous, as these individuals 
are often known to be violent and make concentrated efforts to avoid 
capture. When faced with the prospect of answering for their crimes, 
some lash out. The brave work of our deputy marshals and their partners 
in State and local law enforcement is vital to bringing criminals to 
justice. They are on the front lines of keeping us safe, so we must arm 
them with resources to apprehend these fugitives as safely as possible.
    Recent tragedies in Missouri, West Virginia, Florida and 
Washington, DC, involving injuries and deaths of deputy marshals and 
task force officers suggest an increase in violence shown by fugitives. 
Why have we seen this rise in violence?
    Answer. The National Law Enforcement Officers Memorial Fund reports 
that as of April 19, 2011, 29 officers have been killed in the line of 
duty as a result of gunfire, compared to 17 through the same date in 
2010. Two of the slain officers were Deputy U.S. Marshals and another 
six were USMS task force officers. These statistics are sobering, but 
also somewhat perplexing, as a review of the FBI's Uniform Crime 
Reports indicates that violent crime has actually decreased in recent 
years. Although the violent crime rate fell 6.2 percent between 2009 
and 2010, law enforcement firearm fatalities increased by 24 percent 
over this same time period.
    Many factors potentially contribute to the increase in violence 
shown by fugitives. Although there is no specific explanation for the 
rise in violence against law enforcement personnel, one factor may be 
that USMS has been confronting an increasing number of violent 
fugitives over the past decade with the expansion of Violent Offender 
Task Forces (VOTF). In fiscal year 2001, VOTFs were responsible for 
clearing approximately 21,000 felony State and local warrants. In 
fiscal year 2010, more than 118,000 violent fugitives were arrested by 
VOTFs. It stands to reason that as encounters with violent fugitives 
increase, the chances of violence and risk to law enforcement personnel 
also increase. It is the very nature of law enforcement operations that 
officers are placed in the arena of violence.
    However, DOJ and USMS continue to make every effort possible to 
mitigate the risk our officers face when arresting these individuals. 
Risk mitigation takes place in many forms--before, during, and after 
the arrest--and is responsible for the many hundreds of safe 
apprehensions that take place every day. In fact, in response to the 
recent tragic events, the USMS Director assembled a team of senior law 
enforcement officials--known as the Fugitive Apprehension Risk 
Management Assessment Team (FARMAT)--to review current training and 
operations procedures in an effort to reduce the serious risks inherent 
in performing fugitive apprehension mission. This group reports 
directly to the USMS Director. While the tragedies suffered in 
Missouri, West Virginia, Florida, and Washington, DC, have brought 
increased attention to violence against law enforcement in recent 
months, it is important to note that Federal, State, and local agents 
and officers arrest tens of thousands of violent felons each month 
without incident.
    Question. What can DOJ, as well as the Congress, do to help our law 
enforcement officers stay safe and apprehend these dangerous criminals?
    Answer. In response to this increase in law enforcement officer 
fatalities, DOJ launched a law enforcement officer safety initiative, 
directing every U.S. Attorney to meet with Federal, State, and local 
law enforcement officials in their districts to ensure the Department's 
resources are made available to help stem officer deaths. In addition, 
DOJ convened a meeting of law enforcement officers in Washington, DC, 
to solicit input for further action to improve officer safety. DOJ's 
Officer Safety initiative's focus is three-pronged:
--Communicate with local prosecutors to ensure that cases involving the 
        ``worst of the worst'', repeat offenders who cycle in and out 
        of local jails and State prisons, are evaluated to determine 
        whether the offender may instead be prosecuted under Federal 
        law for offenses that often carry stiffer penalties.
--Ensure that State and local law enforcement partners are fully 
        informed about the resources available to help protect 
        officers.
--Ensure that all Federal task forces make effective use of 
        deconfliction systems.
    DOJ believes risk mitigation is one of the most effective methods 
of keeping law enforcement officers safe. Law enforcement officials can 
identify gaps, make the appropriate adjustments, as well as highlight 
effective techniques or tools by assessing their agency's policies, 
procedures, training, and tactics. Most risk mitigation assessments 
will point to improvements in training and equipment.
--Tactical training is an integral element of DOJ component operations 
        and is performed on a recurring basis within budgeted levels. 
        Training helps ensure that disparate agency personnel serving 
        in Task Forces are familiar with the lead agency's procedures, 
        and helps reinforce critical elements that promote officer 
        safety: preparation and planning, standard operating 
        procedures, best practices, and team cohesiveness.
--Additionally, equipment such as for electronic surveillance can be a 
        critical factor in reducing violence towards law enforcement 
        officers serving arrest warrants. Electronic surveillance 
        increases and enhances the investigator's ability to pick and 
        choose when and where a fugitive will be contacted for arrest 
        (many of this year's fatal shootings occurred as law 
        enforcement officers approached locations in an attempt to 
        contact residents while looking for a wanted suspect). A 
        proactive electronic surveillance posture also minimizes the 
        officer's ``time on target,'' which reduces an investigator's 
        exposure to hostile threats and gun fire. Leveraging technical 
        surveillance resources exponentially increases the odds for a 
        safe, successful arrest.
    The Bureau of Justice Assistance's (BJA) Officer Safety Training 
and Technical Assistance program also has specific grant programs 
designed to address officer safety. They include the programs listed 
below.
      International Association of Chiefs of Police (IACP) Center for 
        the Prevention of Violence Against the Police.--In response to 
        the need for critical information on violence against the 
        police, a BJA grant was awarded in fiscal year 2010 to IACP to 
        launch the Center for the Prevention of Violence Against the 
        Police. The Center is designed to reduce the frequency and 
        severity of felony assaults on law enforcement officers by 
        providing data collection on the key variables that are present 
        when a felony assault on an officer occurs; analysis of why the 
        felonious incidents occur; and a translation of the data and 
        analysis into guidance on the steps officers can take to avoid 
        injury or death. This data analysis and research will also be 
        used to inform Federal, State, local, and tribal law 
        enforcement policies and training that will prevent or mitigate 
        officer injuries. Designed as a multiyear effort, the Center is 
        anticipated to reduce the number of felony assaults on 
        officers, reduce costs to governments, and increase community 
        safety.
      Bulletproof Vest Partnership (BVP) Program.--This program 
        provides funds that enable law enforcement agencies to acquire 
        bullet-resistant body armor for their personnel. Following 2 
        years of declining law enforcement officer line-of-duty deaths, 
        the country saw a dramatic 37 percent increase in officer 
        deaths in 2010. Fifty-nine of the 160 officers killed in 2010 
        were shot during violent encounters; a 20 percent increase more 
        than 2009 numbers. Due to this increase and our renewed efforts 
        to improve officer safety jurisdictions must certify during the 
        application process that all law enforcement agencies 
        benefiting from the BVP program have a written ``mandatory 
        wear'' policy in effect for uniformed officers.
    Question. With deep cuts facing State and local and budgets, will 
USMS be able to maintain robust task forces?
    Answer. Maintaining robust task forces requires both Federal and 
State and local participation. While USMS hopes that State and local 
participation will continue at current levels, there is no guarantee 
that it will given current funding constraints. That being said, USMS 
is vested in maintaining robust task forces. USMS will support State 
and local participation where it can, including paying for overtime of 
State and local task force officers with the limited funding made 
available through the Asset Forfeiture Fund. Like State and local 
budgets, USMS budget is also constrained. The fiscal year 2011 USMS 
appropriation is $12 million less than the fiscal year 2010 enacted 
level, which means that mandatory expenses, such as health insurance 
premiums, retirement contributions, and rent, must be absorbed.
                      funding for terrorist trials
    Question. Continuing to loom over the Commerce, Justice, Science, 
and Related Agencies (CJS) spending bill this year is the debate over 
the transfer of Guantanamo Bay detainees to stand trial in U.S. 
civilian courts. In November 2009, Attorney General Holder announced 
DOJ's intentions to bring five 9/11 terrorist suspects to New York City 
for trial, but that plan is now in limbo. However, the Ike Skelton 
National Defense Authorization Act for fiscal year 2011 (Public Law 
111-383) included language to restrict Guantanamo Bay detainees from 
coming into the United States, even for prosecution. The House-passed 
2011 continuing resolution reiterates that language.
    DOJ does not request funds in 2012 for security costs civilian 
trials. But DOJ has said that if trials become necessary, they will 
``identify funding'' for trials.
    What authority would allow DOJ to ``identify funding'' for 
something that is arguably a new purpose and prohibited under current 
law?
    Answer. DOJ executes critical law enforcement and national security 
missions every day that are vital to the Nation's health and economic 
well-being. DOJ does not consider prosecuting terrorism cases a new 
mission. During the 24-month period from 2009 through 2010, more 
defendants were charged in Federal court with serious terrorism 
violations--offenses directly related to international terrorism--than 
in any similar period since 2001. More than 120 defendants were charged 
with such violations in 2009 and 2010. That is more than double the 
number charged with such offenses in 2001 (post-9/11) and 2002. Since 
9/11, hundreds of defendants have been convicted of terrorism or 
terrorism-related violations in Federal court.
    Although DOJ has a well-established record of successfully 
prosecuting hardened terrorists in Federal court, the Department is not 
currently pursuing prosecutions against the September 11 conspirators 
in U.S. civilian courts. On April 4, 2011, the Attorney General 
announced that the cases involving Kahlid Sheikh Mohammed and the four 
other GuantanamoBay detainees accused of conspiring to the commit the 
September 11 terror attacks had been referred to DOD to proceed in 
military commissions and that the Federal indictment against these 
detainees--which had been returned under seal by a grand jury in the 
southern district of New York on December 14, 2009--had been unsealed 
and dismissed.
    The fiscal year 2012 budget does not request additional funds for 
increased security and prosecutorial costs typically associated with 
high-threat terrorist trials. However, the administration proposes to 
delete division B, title V, Sec. 532 of the Consolidated Appropriations 
Act, 2010 (Public Law 111-117), which, by its terms, limits the 
President's discretion regarding the disposition of detainees at 
Guantanamo Bay Naval Base. Further, the administration proposes to 
continue Sec. 505 of the act. This general provision would allow 
agencies, including DOJ, to reprogram funds for obligation or 
expenditure upon advance notification to the Congress.
    Question. Even if funds were identified, wouldn't current law be an 
obstacle for DOJ to pursue such controversial, high-threat trials on 
U.S. soil?
    Answer. The administration proposes to delete division B, title V, 
Sec. 532 of the Consolidated Appropriations Act, 2010 (Public Law 111-
117), regarding the disposition of detainees at Guantanamo Bay Naval 
Base because the language seeks to limit the President's discretion in 
this national security matter.
    Question. What unique costs are associated with these trials 
compared to other trials held in Federal courts? What costs has DOJ 
estimated for all years the trials would take? What is the range of 
costs depending on location?
    Answer. As explained earlier, DOJ has referred the September 11 
conspirators to the DOD to proceed in military commissions, and the 
Department is not currently pursuing prosecutions against the September 
11 conspirators in U.S. civilian courts.
    The categories of costs for the 9/11 trials or trials of other 
Guantanamo detainees would be similar to those for other trials held in 
Federal courts. These categories include transportation and prisoner 
production, prisoner housing, security, and litigation costs. However, 
the security requirements associated with trying these suspects would 
likely have been higher than the requirements associated with most 
other trials.
    The $73 million requested for DOJ in the fiscal year 2011 
President's budget reflected the estimated additional assets (human 
capital and infrastructure) needed to manage the risks associated with 
trying the September 11 conspirators. Specifically, the funding would 
have been used to harden cell blocks, housing facilities, and 
courthouse facilities; to increase electronic surveillance capability; 
and to provide increased protection for judges and prosecutors. The 
additional security requirements took into consideration the safety of 
the communities in which the trials would have occurred.
    DOJ anticipated the costs for future years would have been similar 
to the fiscal year 2011 request, with adjustments for pay raises and 
other annualization costs. In developing the estimate, DOJ made certain 
assumptions, including the location of the trials. The location can 
have a significant impact on the scale and type of assets currently 
available and the subsequent need for additional assets. Therefore, 
location was an important determinant underlying the development of the 
planning estimates. The allocation of costs among the various functions 
(transportation, housing, security, litigation, etc.) may also have 
changed depending on location.
    Question. Under what circumstances would DOJ be able to conduct 
Article III court trials at the Guantanamo Bay detention facility?
    Answer. Under current law, we do not believe Article III trials 
could be conducted at the GuantanamoBay detention facility.
                         project gunrunner--atf
    Question. ATF's Project Gunrunner combats illegal gun trafficking 
and violence along the Southwest Border. Since 2005, Gunrunner teams 
have seized 10,000 illegal firearms and 1 million rounds of ammunition 
destined for Mexico. Yet violence continues spreading out and away from 
the Southwest Border and into the United States and Mexico.
    ATF's gun tracing intelligence is critical to target and dismantle 
the infrastructure supplying guns to Mexican drug cartels. That is why 
I am troubled by reports that the ATF allowed assault rifles to be sold 
to suspected straw buyers who transported them into Mexico. Two of 
those weapons turned up at the scene of a fatal shooting of a U.S. 
Border Patrol agent in December 2010, although it is unclear if either 
of those guns was used to kill the agent. When an Immigration and 
Customs Enforcement agent was killed last month, ballistics tests and a 
partial serial number traced the weapon used in the shooting to a north 
Texas smuggling ring that was under ATF observation.
    How is DOJ responding to these allegations?
    Answer. I take these allegations seriously and have referred them 
to the acting inspector general of DOJ for investigation. I have also 
made it clear to our law enforcement personnel and prosecutors working 
on the Southwest Border that the Department should never knowingly 
permit illegally trafficked firearms to cross the border.
    Question. What safeguards do you have in place to ensure that the 
ATF is not letting assault weapons slip across the Southwest Border and 
into the hands of drug cartels?
    Answer. Since 2006, Project Gunrunner has been ATF's comprehensive 
strategy to combat firearms-related violence by the cartels along the 
Southwest Border. It includes special agents dedicated to investigating 
firearms trafficking on a full-time basis and industry operations 
investigators responsible for conducting regulatory inspections of 
FFLsalong the Southwest Border. Since 2006, ATF's Project Gunrunner and 
other investigative efforts along the Southwest Border have resulted in 
the seizure of thousands of firearms and more than 1 million rounds of 
ammunition destined for Mexico.
    I have made it clear to DOJ's law enforcement agencies and 
prosecutors working along the Southwest Border that the Department 
should never knowingly permit firearms to illegally cross the border. I 
have also asked DOJ's Acting Inspector General to investigate the 
allegations concerning ATF's actions in the firearms trafficking 
investigation known as Operation Fast and Furious.
    Question. ATF's 2012 budget request includes $19 million to make 
Project Gunrunner's nine teams permanent. In the face of these 
allegations that ATF may not be implementing Project Gunrunner most 
effectively, what assurances can you give the Congress that more 
aggressive oversight of and safeguards for Project Gunrunner operations 
will be done to continue ensuring this funding is merited?
    Answer. Project Gunrunner remains an important investigative 
strategy to combat the flow of guns to Mexican drug cartels. However, I 
take these allegations seriously and have made it clear to our law 
enforcement personnel and prosecutors working on the Southwest Border 
that DOJ should never knowingly permit illegally trafficked firearms to 
cross the border. I will determine what additional oversight actions 
are needed once the Acting Inspector General has completed her 
investigation.
                              atf director
    Question. I am concerned by reports on allegations by 
whistleblowers that ATF allowed known straw purchasers to buy guns from 
United States dealers and then transported those firearms across the 
border to Mexico. A thorough investigation is necessary to address 
these serious allegations, and Attorney General Holder moved quickly to 
request that OIG conduct a thorough investigation of these alleged ATF 
activities.
    It also seems to me that this is another indication that ATF is in 
serious need of real leadership. ATF has not had a confirmed Director 
for over 5 years, which hamstrings the Bureau's ability to seek 
appropriate funding levels and ensure proper oversight of these complex 
investigations.
    Do you agree that it is crucial for the Senate to hold a hearing 
soon on Andrew Traver, to keep the process moving on his nomination?
    Answer. I urge prompt Senate consideration of all DOJ nominations, 
including the nomination of Andrew Traver to be Director of the ATF.
    Question. Why do you believe it is important to have a confirmed 
Director leading the ATF? How does it impact the ATF when there is only 
an Acting Director?
    Answer. In the 5 years since the Congress enacted legislation 
designating the ATF Director as subject to confirmation, the Senate has 
never confirmed a nominee to serve in this position. The confirmation 
of a Director would strengthen the agency's ability to carry out the 
tasks the Congress has assigned to it.
                        atf long guns reporting
    Question. In December 2010, ATF proposed a new rule to issue 
``demand letters'' to require gun dealers located in States along the 
Southwest Border--specifically California, Arizona, New Mexico, and 
Texas--to report multiple sales of certain ``long guns'' favored by 
Mexican drug cartels. This rule is meant to help the ATF stem the flow 
of guns over border and into Mexico. ATF already collects these 
multiple sales reports for handguns. In 2008, they generated 300 
criminal investigations connected to 25,000 illegal firearms.
    What value do these multiple sale reports provide to law 
enforcement in pursuit of cartel gun traffickers? How would this data 
collection help in preventing gun trafficking?
    Answer. The goal of the current proposal is to ensure that ATF 
receives multiple sale reports on a narrowly defined specific category 
of long guns favored by drug-trafficking organizations (DTOs) in Mexico 
and along the Southwest Border. These reports will help law enforcement 
agencies detect and disrupt firearms trafficking before the firearms 
are used in a violent crime, whether in the United States or in Mexico.
    Multiple sales reporting for the specified rifles will help us 
identify those conspiring with the DTOs by trafficking firearms to 
Mexico. While investigating violence in Mexico, Mexican law enforcement 
officials have recovered thousands of certain types of rifles with 
regularity, suggesting that violent criminals, including drug 
traffickers, favor these rifles. As part of our partnership with Mexico 
in the fight against cartel violence, ATF has traced a significant 
portion of the recovered firearms. This has yielded significant 
intelligence, which multiple sales reporting will enable ATF to develop 
more fully and proactively.
    The trace results have shown a short time between the first 
individual retail purchase and recovery, and a preponderance of first 
retail sales in the Southwest Border States. Thus, ATF believes that 
firearms traffickers who bring rifles to Mexico are targeting FFLs in 
the Southwest Border States as their preferred source of the rifles. 
ATF will use multiple sale reports of the rifles to discern patterns in 
the purchases of the specified rifles, which will in turn enable us to 
narrow the field of FFLs that the DTOs are targeting. Moreover, with 
the identity of the purchasers known, we can conduct investigations to 
determine whether the purchasers are associated with DTOs or other 
criminal activity and develop further investigative leads.
    Multiple sale reports are entered into the ATF Firearms Tracing 
System (FTS) and are available to all ATF field divisions via ATF's 
eTrace system. Investigators review the reports daily in conjunction 
with firearms trace data, analyzing the data for repeat purchasers and 
recoveries in crimes, as well as other information that may disclose 
trafficking patterns. This routine practice of evaluating multiple sale 
reports and the leads that they generate frequently results in 
initiation of criminal investigations, disruption of illegal firearms 
trafficking, and convictions. If multiple sale reports generate no 
investigative leads, they will be purged after 2 years.
    Question. Does ATF already have the authority to issue ``demand 
letters'' seeking information without requiring any further action by 
the Congress?
    Answer. Yes. ATF has authority under 18 U.S.C. Sec. 923(d)(5) to 
issue demand letters to licensees requiring them to submit ``on a form 
specified by the Attorney General, for periods and at the times 
specified in such letter, all record information required to be kept by 
this chapter or such lesser record information as the Attorney General 
in such letter may specify.'' ATF has used this ``demand letter'' 
authority to require FFLs to submit to ATF certain information in their 
required records that they otherwise are not expressly required to 
provide, including firearm purchase information. The nature and scope 
of this authority has been examined in litigation and, on each 
occasion, upheld in court decisions. See, e.g., RSM v. Buckles, 254 
F.3d 61 (4th Cir. 2001); Blaustein & Reich v. Buckles, 365 F.3d 281 
(4th Cir. 2004); J&G Sales v. Truscott, 473 F.3d 1043 (9th Cir. 2007).
    To address the problem of illegal gun trafficking into Mexico, ATF 
will send a letter requesting multiple sales reports for certain rifles 
to FFLs in the four Southwest Border States:
  --Arizona;
  --California;
  --New Mexico; and
  --Texas.
    The notice relating to multiple sales reporting for rifles is 
posted on the Federal Register Web site: http://www.ofr.gov/
inspection.aspx?AspxAuto DetectCookieSupport=1. The information request 
will be tailored to address the threat along the Southwest Border. It 
only applies to firearms dealers in the four border States, because 
those States have a significant number of crime guns traced back to 
them from Mexico. The prospective reporting requirements apply only if 
a firearms dealer sells within 5 business days to a single individual 
two or more long guns having all of the following characteristics:
  --semi-automatic action;
  --a caliber greater than .22 (including .223/5.56 caliber); and
  --the ability to accept a detachable magazine.
    Question. Where is the White House's Office of Management and 
Budget (OMB) in its review process of this information collection 
request regarding long guns?
    Answer. As required under the Paperwork Reduction Act, ATF 
published the second notice for the information collection request in 
the Federal Register on April 29, 2011. The purpose of this notice is 
to allow for an additional 30 days for public comment--during the 30 
days following publication, any interested person may comment on the 
proposed collection of information. This proposed information 
collection was previously published in the Federal Register Volume 75, 
Number 242, page 79021 on December 17, 2010, allowing for a 60-day 
comment period. ATF received 12,680 comments from this collection 
(8,928 commenters supported the collection, and 3,752 commenters 
opposed the collection).
    The 30-day public comment period ended on May 28. OMB is reviewing 
the public comments received and will determine whether the collection 
of information should be approved in accordance with the law.
                federal courthouse and judicial security
    Question. DOJ's fiscal year 2012 budget would cut the USMS 
courthouse account by $11 million. These funds make security 
improvements (x ray machines, prisoner movement hallways, and secured 
prisoner elevators) to aging infrastructure, as well as handle a 
growing prisoner population in Federal courthouses. The current backlog 
is 150 courthouse projects costing $120 million. Old and dated 
infrastructure in Federal court facilities has dangerous effects on 
judicial security. These problems grow worse with time as courthouses 
age and more facilities need immediate attention.
    Judicial security is a major concern, yet the 2012 budget request 
designates only $3 million to Federal courthouse security improvements. 
Does DOJ really believe this funding is adequate to provide security 
for the judiciary?
    Answer. Fiscal realities dictate that difficult decisions must be 
made. The Full-Year Continuing Appropriations Act, 2011 (Public Law 
112-10) includes a $10 million reduction to the amount enacted in 
fiscal year 2010 for the USMS construction appropriation, which funds 
Federal courthouse security improvements. So $10 million of the $11 
million reduction for USMS construction proposed in the fiscal year 
2012 President's budget has already been cut. USMS will continue to 
improve its security for the judiciary by researching and implementing 
new technologies and equipment, continuing our training programs with 
the judiciary, and providing timely information on security awareness 
issues.
    Question. Are more resources needed to ensure the safety of all 
employees of the Federal judiciary and U.S. Attorneys? What gaps in 
security measures are still present?
    Answer. Additional resources requested in the fiscal year 2012 
President's budget will enhance DOJ's ability to ensure the safety of 
the Federal judiciary and U.S. Attorneys. The fiscal year 2012 
President's budget requests nearly $482 million for judicial and 
courthouse security in the USMS' salaries and expenses account, which 
is an increase of $32 million, or 7 percent, more than the fiscal year 
2010 enacted level. These resources will support USMS base operations. 
USMS strives to enhance the level of security for the Federal judiciary 
and U.S. Attorneys by researching new technologies and equipment and 
deploying those new technologies and equipment across the country as 
funding allows. USMS's Technical Operations Group (TOG) also provides 
direct support to Federal courthouses and enhances judicial security by 
providing technical assistance (e.g., maintaining technical integrity 
and ``sweeping'' for devices). USMS constantly reviews its equipment, 
personnel requirements, and training procedures to stay ahead of any 
potential gaps in judicial and courthouse security, such as those 
previously identified by OIG. USMS is working within its current 
resources to implement and resolve OIG recommendations to the extent 
possible.
    Question. Given this already substantial--and growing--backlog, why 
did DOJ's request decrease funding for the USMS aimed at addressing 
this issue of securing Federal courthouses?
    Answer. Fiscal realities dictate that difficult decisions must be 
made. The Full-Year Continuing Appropriations Act, 2011 (Public Law 
112-10) includes a $10 million reduction to the amount enacted in 
fiscal year 2010 for Federal courthouse security improvements. So $10 
million of the $11 million reduction proposed in the fiscal year 2012 
President's budget for USMS construction has already been cut. USMS 
will continue to improve its security for the Judiciary by researching 
and implementing new technologies and equipment, continuing our 
training programs with the judiciary, and providing timely information 
on security awareness issues.
    Question. DOJ's inspector general issued a December 2009 report on 
protection of the judiciary and U.S. Attorneys that found that Federal 
judges, U.S. Attorneys, and Assistant U.S. Attorneys (AUSAs) were 
inconsistently reporting threats on a timely basis to the USMS and, 
more troubling, not reporting threats at all in some instances. Does 
DOJ continue to have concerns that the Federal judiciary and USAOs may 
fail to participate in security and threat training? What can be done 
to improve communications between USMS and their protectees to clarify 
the categories of security threats and coordination to ensure that 
reporting and response processes are in place?
    Answer. USMS has improved the training materials provided to the 
judiciary and U.S. Attorneys to better emphasize the importance of 
quickly reporting threats and inappropriate communications, as well as 
the ramifications of not doing so. Increasing awareness and 
disseminating this information to the Judiciary and U.S. Attorneys has 
lessened concerns that they may fail to participate in security and 
threat training. Also, the Executive Office for United States Attorneys 
has provided explicit instructions to every employee in the U.S. 
Attorney community on how to report threats and why it is important to 
do so, even if the employee does not believe the threat is serious.
    Over the last 12 months, USMS has increased its efforts to provide 
training at U.S. Attorneys' Conferences and Judicial Conferences 
regarding security threats. In addition, a Memorandum of Understanding 
(MOU) between USMS and the Executive Office for U.S. Attorneys has been 
completed. This MOU delineates the responsibilities for each agency 
regarding the reporting of threats and threat awareness.
                       southwest border violence
    Question. I continue to be concerned that DOJ lacks sufficient 
resources to combat violence related to drug and gun trafficking on the 
Southwest Border. If the current wave of violence isn't contained, 
cartel-related crime will most likely expand to major metropolitan 
areas, including areas like Atlanta, Chicago, and even Baltimore.
    Violence is caused by large, sophisticated, and vicious criminal 
organizations--not by isolated, individual drug traffickers. DOJ's 2012 
request includes $2 billion to support investigations and prosecutions 
relating to border violence.
    How will DOJ deal with increased violence along the Southwest 
Border both this year and in 2012 when no additional funds are provided 
in the 2011 continuing resolution for the DEA, ATF, FBI, USMS, and 
their Federal, State, and local law enforcement partners to expand 
investigations and prosecutions?
    Answer. Because the enacted fiscal year 2011 appropriation funded 
all DOJ components, except for the FBI, BOP, and Office of the Federal 
Detention Trustee, at the fiscal year 2010 level or below, new funding 
that was requested to increase and sustain our ability to address 
violence along the Southwest Border will not be available to us. 
However, DOJ will still have base resources of approximately $1.86 
billion in fiscal year 2011 to continue law enforcement, prosecutorial, 
and detention functions on the Southwest Border. Additionally, DOJ will 
continue to expand its efforts to address violence along the Southwest 
Border in fiscal year 2011 with funds from the border security 
supplemental that was enacted in August 2010, which provided $196 
million to DOJ for Southwest Border enforcement activities.
    The President's fiscal year 2012 budget includes $134.7 million to 
annualize the border security and other prior-year Southwest Border 
supplementals, including funding to sustain more than 400 positions. 
Program enhancements to increase the OCDETF program's Southwest Border 
prosecutorial activities and to provide additional capacity at DEA's El 
Paso Intelligence Center (EPIC) have also been requested. This funding 
will be an important component of DOJ's ability to continue to address 
the challenges posed by the Mexican drug cartels and violence along the 
Southwest Border.
    Question. How concerned should communities along the border--and 
throughout the United States as a whole--be about cartel-related 
violence?
    Answer. Other than isolated incidents, ``cross-over'' cartel 
violence from Mexico into the United States is minimal. The reason for 
this is two-fold. First, the United States has not witnessed the same 
turf battles over supply and distribution routes that are occurring in 
Mexico. In fact, local crime reports submitted by DEA offices located 
along the Southwest Border show most categories of crime decreasing 
from 2009 to 2010.
    Second, the cartels already have enormous influence in the U.S. 
drug trade and control the vast majority of wholesale markets, as well 
as many retail markets, for drugs in the United States. To engage in 
violence on the U.S. side of the border would be detrimental to the 
cartels' business because it would invite additional scrutiny at the 
border and increased law enforcement attention within the United 
States. This does not negate the fact that cities and communities in 
the United States should remain vigilant against the threat of violent 
cartel-related crime.
    Question. How is DOJ working with the Mexican Government to 
dismantle these violent cartels?
    Answer. DOJ has engaged the Government of Mexico in a variety of 
ways, as discussed below, in an effort to combat drug trafficking and 
its associated violence--and will continue to do so. DOJ recognizes 
that the drug-related violence along the Southwest Border and in Mexico 
remains significant and the Department will need to both continue its 
current efforts, as well as respond to emerging drug-trafficking 
threats to combat these problems. Considering this, DOJ will continue 
to partner with the Government of Mexico and Mexican law enforcement 
partners in efforts to dismantle DTOs and curb drug trafficking-related 
violence in the hopes of achieving long-term success against the 
violence perpetrated by DTOs and Transnational Criminal Organizations 
(TCOs). In spite of ongoing challenges, DOJ is optimistic that its 
efforts will ultimately result in reducing violence related to drug 
trafficking.
    The progress made against the cartels in Mexico by the Calderon 
administration is admirable. President Felipe Calderon has taken a 
strong, proactive stance against drug traffickers and the associated 
violence and he has shown an extraordinary commitment to address the 
problems of the drug cartels and police corruption. Under his 
leadership, DOJ's bilateral inter-agency cooperation with the 
Government of Mexico has also continued to develop in a positive 
manner. Under the Calderon administration, DOJ has experienced 
unprecedented levels of cooperation and solidarity with Mexico in 
combating DTOs.
    DOJ personnel in Mexico work closely with our counterparts in the 
Mexican Government and together we have made significant progress in 
disrupting and dismantling the cartels. The noteworthy achievements by 
the Government of Mexico in recent years were supported, in many cases, 
by the information sharing and assistance of the DEA. One example was 
the dismantlement of the Arturo Beltran-Leyva (ABL) cartel, which took 
place on December 16, 2009. Information shared between DEA, the Mexican 
Federal Police, and the Mexican Naval Secretariat (SEMAR) facilitated 
the Government of Mexico's efforts in this investigation and resulted 
in the apprehension of 23 individuals and four deaths, including 
Consolidated Priority Organization Target (CPOT) Beltran-Leyva. 
Subsequently, DEA's Special Operations Division (SOD), in coordination 
with the USMS, provided information regarding ABL second-in-command 
Edgar Valdez Villareal, aka ``La Barbie'', to DEA's Mexico City country 
office. This information was shared with the Government of Mexico and 
resulted in the arrest of La Barbie on August 30, 2010 in Mexico City. 
Another example of the cooperation between DEA personnel and SEMAR was 
an enforcement operation on November 5, 2010, which resulted in the 
death of CPOT Antonio Ezequiel Cardenas Guillen, aka ``Tony Tormenta'', 
in Matamoros, Tamaulipas.
    The most recent example of cooperation between DOJ and the Mexican 
authorities was the arrest of Julian Zapata Espinoza, aka ``Piolin'', 
and three other criminal associates on February 23, 2011. Piolin has 
been detained by the Mexican authorities and is being investigated in 
connection with the murder of Immigration and Customs Enforcement (ICE) 
Special Agent Jaime Zapata. These are but a few examples of the 
outstanding coordination and cooperation being carried out between DOJ 
and the Government of Mexico on a daily basis.
    DOJ's close relationship with the Government of Mexico is also 
exemplified by our joint effort to restructure the Mexican Sensitive 
Investigative Unit (SIU) program, led by DEA with crucial support from 
DOJ's Criminal Division. The SIU is composed of individuals from 
Mexico's Ministry for Public Security (SSP) and Office of the Attorney 
General (PGR). Every member has been vetted and trained by DEA and 
assigned to autonomous groups that are tasked with pursuing a specific 
Mexican cartel. The Mexican SIU plays an important role in Western 
Hemisphere drug enforcement efforts and they are working to increase 
collaboration with counterparts in Colombia through an exchange of SIU 
personnel.
    DEA has also applied many of the lessons learned in Colombia to our 
efforts in Mexico, including areas such as judicial wire intercepts, 
extradition programs, methamphetamine trafficking, and joint targets. 
Additionally, DEA has participated in several joint meetings with the 
leadership of Colombian and Mexican law enforcement and security forces 
to examine the best practices which could assist the Government of 
Mexico in combating drug cartels. These efforts have focused on 
conducting complex narcotics and financial investigations, which have 
enhanced information-sharing protocols. Since 2007, DEA has sponsored 
eight Tripartite meetings between Colombia, Mexico, and the United 
States. These meetings have included the Mexican PGR and SSP, the 
Colombian National Police, the Minister of Defense of Colombia, and DEA 
Principals. The ninth Tripartite Meeting is tentatively scheduled for 
October 2011.
    A key component of DOJ's efforts to address violent cartels along 
the Southwest Border is EPIC. EPIC is a national tactical intelligence 
center that supports law enforcement efforts throughout the Western 
Hemisphere and it is DEA's long-standing and most important 
intelligence sharing organization focusing on the Southwest Border. 
Through its 24-hour watch function, EPIC provides immediate access to 
participating agencies' databases to law enforcement agents, 
investigators, and analysts at all levels of government throughout the 
United States and with some foreign nations. Much of EPIC's success can 
be attributed to the strong partnerships forged among the more than 20 
agencies represented at the Center, including representatives from 
foreign police organizations in Mexico and Colombia.
    The Government of Mexico has three representatives permanently 
assigned to EPIC as Liaison Officers. The first representatives from 
Mexico's federal investigative organizations, SSP and PGR, were 
assigned to EPIC in 2007 and 2008 respectively. A third representative 
from the Mexican Military (SEDENA) joined EPIC in 2010. While not 
permitted unescorted access to the entire center, the representatives 
have extensive access to EPIC staff and tailored database access that 
permits the exchange of information and intelligence on a daily basis. 
The presence of the Government of Mexico representatives at EPIC has 
enhanced the center's capabilities to develop intelligence on criminal 
activities, both along the border and in Mexico, using resources of 
both the United States and Mexico.
    Additionally, ATF has cooperated with Mexico in a variety of 
practical ways to combat the threat posed by the cartels. Consistent 
with ATF and DOJ strategies, ATF has expanded our presence in the U.S. 
Embassy and consulates in Mexico to assist and work side-by-side with 
Mexican law enforcement; expanded the use of eTrace throughout Mexico, 
including training more than 130 Mexican officials (as of May 6, 2011) 
in the use of this technology; begun the expansion of ballistic 
technology to increase information sharing between our governments; and 
developed specialized teams with Mexico addressing firearms and 
explosives investigations. ATF works every day with our Federal law 
enforcement and Mexican partners to cooperate in investigations and 
share information and intelligence to target the cartels responsible 
for drug and firearms trafficking that is at the roots of the violence.
    Finally, the United States and Mexico both benefit from an 
excellent extradition partnership. In 2009, Mexican authorities 
extradited 107 individuals to the United States, including several 
high-ranking cartel members. This was a record number for the eighth 
consecutive year. In 2010, 94 individuals were extradited from Mexico 
to the United States. This includes the extradition of a CPOT, a 
lieutenant in the Sinaloa Cartel, and a former Mexican state governor.
                 danger pay for dea and usms in mexico
    Question. Violence in Mexico, targeted at law enforcement 
personnel, has intensified in recent years. The very real and present 
danger faced by United States personnel working in Mexico is evident in 
recent deaths of consulate employees and ICE agents in Mexico. DEA and 
FBI receive danger pay for their personnel in Mexico due to prior 
authorizations, but the USMS and ATF lack the same authorization even 
though they face the same risks as their DEA and FBI counterparts in 
Mexico.
    Why does the President's budget not provide for danger pay 
increases to USMS and ATF personnel working in Mexico?
    Answer. Increases associated with danger pay allowances are 
traditionally absorbed by a component's existing base resources. Due to 
the potentially fluid nature of danger pay authorities, which are 
established by the Secretary of State, permanent resources for danger 
pay authority in Mexico were not requested for USMS or the ATF in the 
fiscal year 2012 President's budget.
    Question. Given the rise in violence due to the Mexican drug wars, 
targeted attacks against United States law enforcement, and the fact 
FBI and DEA have danger pay in Mexico, shouldn't the USMS and ATF 
receive the same sort of compensation?
    Answer. The authority to initiate and terminate danger pay 
allowances rests with the Secretary of State in accordance with title 
5, U.S. Code (5 U.S.C.), Sec. 5928. The Department of State regulation 
implementing this authority states that ``a danger pay allowance is 
established by the Secretary of State when, and only when, civil 
insurrection, civil war, terrorism or wartime conditions threaten 
physical harm or imminent danger to the health or well being of a 
majority of employees officially stationed or detailed at a post or 
country/area in a foreign area.''
    The Secretary of State's authority with regard to danger pay 
allowances was modified through several public laws related to DEA and 
FBI. These modifications do not permit the Secretary of State to deny a 
request by DEA or FBI to authorize a danger pay allowance for any 
employee of either DOJ component. Consequently, DEA and FBI employees 
may receive danger pay allowances in posts that are not designated 
danger posts by the Secretary of State. Other similarly-situated 
employees, particularly DOJ employees in USMS and ATF, do not receive 
danger pay allowances unless the Secretary of State has approved the 
post for such allowances.
    As of March 14, 2010, the Department of State has extended equal 
danger pay allowances to all U.S. Government personnel serving in 
certain posts in Mexico, which currently mitigates the pay disparity 
that had previously existed between the FBI and DEA employees in those 
posts, and similarly situated employees from other agencies, including 
other DOJ components. Mexican posts for which danger pay allowances 
were announced on March 14, 2010, include:
  --Ciudad Juarez;
  --Matamoros;
  --Monterrey;
  --Nogales; and
  --Nuevo Laredo.
    However, at this time, a pay disparity still exists for DOJ 
personnel stationed in Mexico City and Merida; in Mexico City, FBI and 
DEA employees are authorized danger pay, while ATF, the USMS and other 
United States Government personnel are not eligible. In Merida, DEA 
employees are authorized danger pay while ATF employees and other 
United States Government personnel are not eligible. The Department of 
State has not extended danger pay allowances equivalent to those 
authorized by the FBI and DEA to these posts in Mexico.
    DOJ considers danger pay disparity to be a core compensation 
inequity. That is, United States Government employees serving our 
national interests in the same overseas locations, many times working 
side-by-side on critical criminal investigations and law enforcement 
issues, should be compensated similarly.
    Question. When can we expect to see proposed legislation to remedy 
this issue from DOJ?
    Answer. On April 13, 2011, the Border Security Enforcement Act of 
2011 (S. 803) was introduced, which contains a provision authorizing 
danger pay for the USMS and ATF law enforcement personnel working in 
Mexico. This legislation would remedy this disparity.
               afghanistan--fighting narco-terrorism--dea
    Question. DEA plays a critical role in combating narco-terrorism by 
helping the Afghan Government establish drug enforcement institutions 
and capabilities to enforce the rule of law. This means successfully 
identifying, disrupting, and dismantling major DTOs that fuel the 
insurgency and profit from the narco-economy. Were DEA to expand its 
operations in Afghanistan, the focus will be on high-value targets, 
including members of the Taliban, who use the heroin trade to fund 
insurgents' attacks on U.S. military forces.
    What is DEA's current role in Afghanistan? Do you expect those 
operations to be expanded in the future and, if so, how?
    Answer. DEA supports the U.S. Ambassador's Counternarcotics (CN) 
Strategy in Afghanistan through close partnership with the Department 
of State and DOD. DEA is helping Afghanistan by training, mentoring 
Afghan law enforcement partners and units, as well as building a 
sustainable capacity within those entities to investigate, disrupt, and 
dismantle DTOs fueling the insurgency. DEA is also working to help 
establish drug enforcement institutions and capabilities to enforce the 
rule of law. This means working bilaterally with host nation 
counterparts to identify, investigate, and bring to justice the most 
significant drug traffickers in Afghanistan and the region. These 
operations disrupt and deny the insurgents' ability to derive revenue 
from opiate production and distribution.
    In fiscal year 2010, DEA completed a significant expansion effort 
in Afghanistan. DEA now has 82 permanent positions assigned to 
Afghanistan for 2-year tours of duty, including 62 agents and 7 
intelligence analysts. In addition to these positions, the Kabul 
Country Office (KCO) is augmented by the Foreign-Deployed Advisory and 
Support Teams (FASTs), which provide intensive training for the Afghans 
and operational support to KCO. Furthermore, the KCO is supported by 
three temporary duty (TDY) Special Agent pilots.
    A FAST deploys to Afghanistan every 120 days. Each FAST team 
consists of a Group Supervisor, eight Special Agents, and one 
Intelligence Research Specialist. DEA's FAST teams advise, train, and 
mentor their Afghan Minister of Interior (MOI) counterparts in the 
National Interdiction Unit (NIU) of the Counter Narcotics Police--
Afghanistan (CNP-A). The NIU, which currently has 538 officers, is a 
tactical unit capable of conducting raids, seizures, and serving Afghan 
search and arrest warrants in a high-threat environment, much like a 
U.S. Special Weapons and Tactics (SWAT) team. Furthermore, FAST teams 
are the enforcement arm of DEA's Drug Flow Attack Strategy and Campaign 
Plan in Southern Afghanistan.
    In addition, DEA Special Agents advise, train, and mentor their 
Afghan CNP-A counterparts in the Sensitive Investigative Unit (SIU) and 
the Technical Investigative Unit (TIU). DEA's Afghan SIU is comprised 
of 85 vetted and DEA-trained officers who conduct complex drug 
conspiracy and high-value target (HVT) investigations. These bilateral 
investigations focus on national and international level DTOs. TIU 
includes 9 officers selected from the SIU and 200 vetted Afghan 
civilian polyglot translators who conduct court ordered judicial 
telephonic intercepts pursuant to Afghan law.
    DEA's Regional Training Team (RTT) has conducted effective training 
of Afghan law enforcement officers in hundreds of courses. RTT has also 
developed a highly skilled Afghan training cadre capable of carrying 
out not only their own organic training programs, but also of 
developing their own trainers. To ensure Afghan and regional stability, 
effective Afghan law enforcement institutions must be in place. DEA's 
training programs and bilateral initiatives in Afghanistan are 
specifically designed to accomplish this goal.
    DEA, in conjunction with other United States Government agencies 
and the Afghan MOI, has also developed the only Afghan MOI judicially 
authorized wire intercept program (JWIP) in Afghanistan, which allows 
the use of intercepts as evidence in court. Afghan law enforcement 
counterparts are able to lawfully intercept the criminal communications 
of not only narcotics traffickers, but also terrorists, insurgents, 
kidnappers, criminal financiers, and corrupt officials. Since its 
inception in December 2008, the JWIP has lawfully intercepted more than 
15 million telephone conversations. As of December 31, 2010, 2,135 
wiretaps have been performed and used to develop bilateral 
investigations.
    DEA is also the lead agency in the Afghan Threat Finance Cell 
(ATFC), which is intended to identify, disrupt, and interdict the 
sources of funding for insurgent and terrorist organizations operating 
in Afghanistan. The Department of the Treasury and DOD act as co-
deputies for the cell. The ATFC Director from DEA oversees all 
investigative, intelligence, and administrative activities of the ATFC, 
while the Treasury deputy coordinates intelligence matters and the DOD 
co-deputy coordinates operational matters. In addition to these 
agencies, ATFC is comprised of U.S. and coalition partner law 
enforcement and military officials and conducts its investigations and 
initiatives jointly with Afghan law enforcement, banking, and 
regulatory officials. ATFC also works closely with the SIU and other 
Afghan vetted units to conduct these complex financial investigations.
    DEA's Special Operations Division (SOD) also plays a significant 
role in DEA's efforts in Afghanistan. SOD has the unique capability to 
identify investigative links between individuals and organizations 
involved in criminal/insurgent activity via domestic intercepts in 
support of bilateral Afghan-led investigations. Information obtained 
through these intercepts routinely has direct implications on force 
protection, anti-corruption efforts, and support for Afghan rule of 
law, as well as disrupting the material support of the insurgency 
fueled by drug and weapons trafficking and money laundering activities. 
With the assistance of SOD, DEA Special Agents in Afghanistan and their 
Afghan counterparts conduct enforcement efforts against identified High 
Value Targets (HVTs). These HVTs provide support to the Taliban and 
other insurgent groups that threaten the coalition and Afghan efforts 
to provide the citizens of Afghanistan with a strong central 
government.
    Currently, DEA has no plans to further expand operations in 
Afghanistan.
    Question. Are there any limits on DEA operations and capabilities--
funding, policy or otherwise--that may hinder DEA's ability to carry 
out its mission in Afghanistan?
    Answer. DEA has approximately $19.2 million in direct base 
resources for ongoing DEA efforts in Afghanistan. This funding supports 
13 positions and associated operating costs, three DEA FAST teams, and 
three TDY pilots. The rest of DEA's permanent presence in Afghanistan, 
including funding for 69 positions and associated operating costs, is 
funded through transfers from the State Department as part of a State 
Department-led civilian staffing uplift in Afghanistan. Currently, the 
State Department has committed to providing $50.8 million in resources 
for DEA's Afghanistan activities for fiscal year 2011.
    DEA's success depends on the commitment, willpower, and tenacity of 
the Afghan Government. DEA personnel operate in conjunction with and 
largely under the authorities of Afghan law enforcement. In terms of 
policy, although there is not a formal bilateral extradition 
relationship between the United States and Afghanistan, DEA has 
successfully brought a number of significant Afghan traffickers to the 
United States to stand trial before U.S. courts. This was accomplished 
by lawful means, including extradition by Afghanistan under the 1988 
U.N. Drug convention, extradition from third countries, expulsion, and 
voluntary travel to the United States. Working in consultation with the 
Department of State, we are continuing our efforts with Afghanistan to 
regularize our use of existing legal authorities for the return of 
defendants for trial in the United States.
    Question. How are DEA's activities coordinated with those of the 
United States and Afghan military, as well as other United States 
agencies operating in Afghanistan? Is what DEA can dedicate in direct 
resources to Afghanistan sufficient to cover its personnel, operations, 
and other mission responsibilities there? Are the resources transferred 
to DEA from other United States Federal partners in Afghanistan 
sufficient to cover its personnel, operations and other mission 
responsibilities there? What is the impact if insufficient resources 
are not transferred to DEA from other agencies?
    Answer. DEA's KCO has built successful relationships with DOD, the 
Central Intelligence Agency (CIA), the National Security Agency (NSA), 
North Atlantic Treaty Organization/International Security Assistance 
Force (NATO/ISAF), the State Department, DOJ, Department of Homeland 
Security (DHS), Office of National Drug Control Policy (ONDCP), and 
U.S. military, to include the 101st Airborne Division, 82nd Airborne 
Division, First Marine Expeditionary Force, and Combined Joint Special 
Operations Task Force (C-JIATF). These enhanced relationships have led 
to successful operations through battle space deconfliction; 
utilization of unmanned aerial vehicles, quick reaction forces, close 
air support, and medical evacuation; development of concepts of 
operation; provision of logistical life support to DEA. DEA's FAST 
units also regularly conduct operational missions along with the U.S. 
military and their Afghan host country counterparts.
    Question. Is what DEA can dedicate in direct resources to 
Afghanistan sufficient to cover its personnel, operations, and other 
mission responsibilities there?
    Answer. DEA's base salaries and expenses budget includes 
approximately $19.2 million for ongoing DEA efforts in Afghanistan. 
This funding supports 13 positions and their associated operating 
costs, three DEA FAST teams, and three pilots. The rest of DEA's 
expanded presence in Afghanistan, including funding for 69 positions 
and their associated operating costs, has been funded through transfers 
from the State Department as part of a State Department-led civilian 
staffing uplift in Afghanistan. In addition to transfer funding 
received from the State Department, DOD has provided significant 
financial, logistical and operational support for DEA's counter-
narcotics mission in Afghanistan. DOD has provided training, equipment, 
infrastructure, and airlift to the Afghans supporting the counter-
narcotics mission. Operational support provided by DOD, including air 
mobility support, troop support, and interagency intelligence sharing 
and targeting, has led to several successful investigations against 
identified High Value Targets. Such support from DOD has been and 
continues to be vital for DEA's expanded mission in Afghanistan.
    Question. Are the resources transferred to DEA from other United 
States Federal partners in Afghanistan sufficient to cover its 
personnel, operations and other mission responsibilities there? What is 
the impact if insufficient resources are not transferred to DEA from 
other agencies?
    Answer. DEA, as well as other DOJ entities participating in the 
State Department-led civilian staffing uplift in Afghanistan, do not 
have base funding to cover the cost of the expanded presence and 
mission in Afghanistan. Sufficient support for personnel and operations 
connected to the civilian staffing uplift must be provided by the State 
Department. The appropriate level of support required will vary 
depending upon the level of staffing required and the operational needs 
determined to be in support of the U.S. Afghan Strategy. In fiscal year 
2010, the State Department transferred $58.6 million to DEA for 
activities in Afghanistan. The State Department has committed to 
provide $50.8 million to DEA in fiscal year 2011.
    Question. DEA plays the lead role in investigating and alerting 
U.S. military about High Value Targets (HVT) and has identified 13 such 
individuals who are Taliban members or have close ties. Does DEA have 
the resources it needs to continue to track down these high-value 
targets?
    Answer. As of April 2011, DEA had identified 17 High Value Targets 
(HVTs), all of whom have ties to, or are members of, the Taliban. The 
HVT list is constantly reviewed and updated by DEA in coordination with 
other U.S. Government and Coalition elements. Additionally, DEA has 
identified more than 30 Priority Targeted Organizations (PTOs), almost 
all of which have ties to the insurgency. Through focused mentoring of 
elite Afghan counternarcotics forces and an operational presence that 
works in tandem with Afghan partners, DEA's Afghanistan expansion, 
which was completed in fiscal year 2010 as part of the State 
Department-led civilian staffing uplift in Afghanistan, has been 
focused on the support of major investigations directed at HVTs, 
including members of the Taliban involved in the drug trade, and those 
traffickers supporting the Taliban and other insurgents. DEA's base 
salaries and expenses budget includes approximately $19.2 million for 
ongoing DEA efforts in Afghanistan. The State Department provides 
resources to cover the cost of DEA's expanded presence and mission in 
Afghanistan. In fiscal year 2010, the State Department transferred 
$58.6 million to DEA for activities in Afghanistan. The State 
Department has committed to provide $50.8 million to DEA in fiscal year 
2011.
                            healthcare fraud
    Question. Now that the historic healthcare reform legislation is 
law, we must do more to combat healthcare and insurance fraud that cost 
U.S. citizens more than $60 billion annually. We need to make sure law 
enforcement has the resources it needs to investigate these crimes and 
prosecute the scammers.
    What role does DOJ play in healthcare fraud investigations and 
prosecutions?
    Answer. DOJ has committed to fighting healthcare fraud as a 
Cabinet-level priority, both at DOJ itself and in cooperation with the 
Department of Health and Human Services. Through the creation of the 
Health Care Fraud Prevention and Enforcement Action Team (HEAT), a 
senior-level joint task force, we are marshalling the combined 
resources of both agencies in new ways to combat all facets of the 
problem. Our Medicare Fraud Strike Force prosecutors and agents are 
using billing data to target a range of fraudulent healthcare schemes, 
deploying appropriate criminal and civil enforcement tools in hot spots 
around the country. In fiscal year 2010, DOJ charged 931 defendants 
with criminal healthcare fraud. This was a record--an approximately 16 
percent increase more than fiscal year 2009. We also convicted more 
than 725 healthcare fraud defendants--another record and a nearly 25 
percent increase more than fiscal year 2009.
    DOJ has also brought successful civil enforcement actions to 
protect taxpayer dollars and the integrity of government programs from 
fraud. In fiscal year 2010, we obtained record recoveries of more than 
$2.5 billion in healthcare fraud matters pursued under the False Claims 
Act. In the 2-year period beginning in January 2009, DOJ has won or 
negotiated healthcare fraud recoveries in False Claims Act matters 
totaling nearly $5.4 billion. During that same period, DOJ won or 
negotiated restitution, fines, forfeitures and penalties in Food, Drug 
& Cosmetic Act matters that exceed $3.3 billion.
    Question. How is DOJ carrying out new responsibilities placed on it 
by the Patient Protection and Affordable Care Act in terms of 
healthcare fraud?
    Answer. The Patient Protection and Affordable Care Act of 2010 
provides several additional statutory tools that will enhance Federal 
law enforcement's ability to combat healthcare fraud. Among the most 
significant for criminal enforcement is the directive to the U.S. 
Sentencing Commission to amend the Sentencing Guidelines with respect 
to calculating loss in healthcare fraud cases and increase the 
guideline ranges for healthcare fraud schemes involving losses of $1 
million or more. DOJ has worked closely with the commission to develop 
guideline amendments to:
  --provide for tiered sentence enhancements beginning at loss amounts 
        of $1 million or more; and
  --provide that the aggregate dollar amount of fraudulent bills 
        submitted to the Government healthcare program constitutes 
        prima facie evidence of the defendant's intended loss.
    The commission promulgated the amendments on April 6, and the 
Congress has 180 days to review them. The amendments have a designated 
effective date of November 1, 2011, unless the Congress acts 
affirmatively to modify or disapprove them. On the civil side, the act 
made several amendments to section 3730(e)(4) of the False Claims Act 
(commonly known as the public disclosure bar), including authorizing 
the Government to ``oppose'' a defendant's motion to dismiss a qui tam 
action under this provision. The Supreme Court has held that these 
changes to the public disclosure bar are not retroactive, and thus DOJ 
has not yet had an occasion to exercise its authority to oppose a 
defendant's public disclosure motion.
    The Affordable Care Act also makes other changes. Among other 
things, the act:
  --Clarifies that use of the term ``willfully'' in the healthcare 
        fraud and anti-kickback statutes does not require proof that 
        the defendant knew of the existence of, or intended to violate, 
        those specific statutes.
  --Amends the anti-kickback statute to provide that a claim that 
        includes services or items resulting from a violation of the 
        statute would constitute a false or fraudulent claim for 
        purposes of the False Claims Act. The act also adds the anti-
        kickback statute to the definition of ``Federal health care 
        offense'' in 18 U.S.C. 24.
  --Clarifies that the obstruction of justice statute, 18 U.S.C. 
        1510(b), applies to healthcare fraud subpoenas issued pursuant 
        to 18 U.S.C. 3486.
  --Confers new subpoena power on the Attorney General to demand 
        records and access to institutions when investigating claims 
        under the Civil Rights of Institutionalized Persons Act.
  --Makes several significant changes to the law governing employee 
        group health benefit plans subject to title I of the Employee 
        Retirement Income Security Act of 1974 (ERISA) and multiple 
        employer welfare arrangements (MEWAs) regulated by ERISA by 
        prohibiting false statements in the sale or marketing of 
        employee health benefits by MEWAs and adding certain ERISA 
        offenses concerning the sale and marketing of employee group 
        health benefit plans to the definition of ``Federal health care 
        offense'', 18 U.S.C. 24.
    DOJ has distributed guidance to our agents and prosecutors about 
these statutory revisions and we expect they will assist many current 
investigations and case development efforts.
    Question. How is the role DOJ plays in the Health Care Fraud 
Prevention and Enforcement Action Team (HEAT) initiative evolving and 
do you expect an expansion of the HEAT initiative in coming years?
    Answer. DOJ has expanded the number of Strike Force locations from 
two to nine cities since announcing our HEAT initiative in May 2009. In 
February, we announced the two newest locations, Chicago and Dallas. 
Since HEAT's inception, the Medicare Fraud Strike Force has charged 
more than 660 defendants with seeking to defraud Medicare of more than 
$1.3 billion taxpayer dollars. In fiscal year 2010, the Strike Force 
secured 240 criminal convictions--217 guilty pleas and 23 defendants 
convicted at trial--the most since the Strike Force was created in 
2007, and both numbers almost double those from the prior fiscal 
year.\1\ In the 4 years since launching the Strike Force in May 2007, 
prosecutors from DOJ Fraud Section and USAOs have filed criminal 
charges against more than 1,000 defendants for a variety of healthcare 
fraud offenses that collectively exceed $2.3 billion in fraudulent 
billings to Medicare.
---------------------------------------------------------------------------
    \1\ The Strike Force conviction statistics are included among the 
overall number of defendants convicted during fiscal year 2010 cited in 
response to the healthcare fraud question posed earlier by Chairwoman 
Mikulski.
---------------------------------------------------------------------------
    We will continue to expand to additional cities to the extent 
additional funding becomes available. In fiscal year 2011, DOJ 's 
discretionary funding, which is used to support HEAT expansion, was 
funded at the fiscal year 2010 level, thus hampering the Department's 
ability to expand to additional Strike Force locations, or expand 
HEAT's civil fraud enforcement. The fiscal year 2012 budget contains a 
$63 million increase in funding for HEAT, which would allow for 
expansion of DOJ's criminal and civil healthcare fraud efforts.
     Question. DOJ's efforts to combat healthcare fraud are funded by 
the Health Care Fraud and Abuse Control account, administered by HHS. 
The fiscal year 2012 request has $300 million for these activities. How 
does DOJ use these funds to stop fraud in Medicare, Medicaid, and other 
healthcare benefits programs?
    Answer. In fiscal year 2012, DOJ is requesting a total of $283.4 
million to investigate and prosecute healthcare fraud. This funding 
request includes both mandatory and discretionary Health Care Fraud 
Abuse and Control (HCFAC) account funding, as well as mandatory funding 
provided to FBI through the Health Insurance Portability and 
Accountability Act. This request represents a $63.5 million increase 
more than the fiscal year 2011 enacted funding level of $219.9 million.
    The fiscal year 2012 requested funding increase will allow DOJ to 
expand the number of Medicare Fraud Strike Force locations beyond the 
current nine locations. The Strike Forces are an essential tool for DOJ 
in addressing criminal fraud in locations where fraudulent billing is 
rampant. In addition to supporting an expansion of criminal enforcement 
efforts, the fiscal year 2012 increase will support additional civil 
enforcement efforts, such as addressing pharmaceutical fraud, off-label 
marketing, and other fraud schemes.
    The requested resources will support additional attorneys, support 
staff, and special agents, which are essential for expanding DOJ's 
efforts in addressing fraud in the Medicare program. The increase in 
HCFAC discretionary resources has allowed for the expansion of DOJ's 
healthcare fraud enforcement efforts, and the additional resources 
requested in fiscal year 2012 will allow us to continue to expand our 
efforts.
               earmarks ban--congressional communications
    Question. Pursuant to Executive Order 13457, ``Protecting American 
Taxpayers from Government Spending on Wasteful Earmarks,'' issued on 
January 29, 2008, DOJ took steps to postcongressional communications 
recommending that funds be committed, obligated or expended for an 
earmark. DOJ has on its Web site a page where such communications is 
supposed to be posted. The most recent communication posted on that Web 
page from a Member of Congress regarding earmarks is dated May 11, 
2010.
    Since the earmark moratorium was put in place--first by the House 
on November 18, 2010, and then by the Senate on February 1, 2011, how 
many communications has DOJ received from Federal lawmakers who appeal 
to the Department to fund their earmarks with available funds? Please 
provide the subcommittee with a list of those lawmakers along with the 
accompanying communication or request, whether it be via post, email, 
telephone, or other means of communication.
    Answer. Since the earmark moratorium was fully put in place by the 
Congress, we are aware of only one communication from a Federal 
lawmaker regarding earmarks. As you know, Executive Order 13457 
provides guidance on how agencies should interpret and execute 
earmarks, and requires agencies to make public within 30 days of 
receipt any congressional communications from Federal lawmakers or 
their staffs regarding earmarks. Since DOJ began implementing Executive 
Order 13457 in 2009, there have been a total of 23 communications from 
Federal lawmakers regarding earmarks; this is current as of May 9, 
2011. The majority of these communications seek to clarify the intent 
of an earmark included in a previously enacted appropriations bill or 
to make technical changes, such as updating the name of the grant 
recipient. These communications are related to earmarks already 
included in enacted appropriations bills, and do not request DOJ to 
fund or augment earmarks with other resources.
    The complete and up-to-date list of congressional communications 
related to earmarks can be found at http://www.justice.gov/jmd/ccre/. 
This site contains the requesting Member of Congress or office, the 
date of the communication and a link to the communication received.
    Question. A March 16, 2011, New York Times piece titled, 
``Lawmakers Find a Path Around an Earmarks Ban'', detailed that--under 
the earmark ban--not only have lawmakers been appealing directly to 
Federal agencies to push them to direct available funds to their 
preferred projects, but also agency officials may be responding 
positively to those requests, despite the Executive Order 13457. Has 
DOJ received requests of this type to fund Member's pet projects and 
how does the Department respond to such pressure?
    Answer. Since the earmark moratorium was implemented, we are only 
aware of one communication from a Federal lawmaker appealing for DOJ to 
direct available resources to a preferred project not otherwise funded. 
DOJ adheres to the principles outlined in Executive Order 13457, and 
executes resources only for earmarks written in the appropriations bill 
language. However, DOJ often works with the committees on 
appropriations and individual Member offices to ensure that 
appropriately designated earmarks are executed per the intent of the 
requesting member.
    Question. Who at DOJ is responsible for updating the congressional 
communications Web page? Why has DOJ's congressional correspondence Web 
page not been updated since May 11, 2010? In a time when the President, 
the Congress and the American public are calling for more oversight and 
accountability in how and where taxpayer dollars are spent, don't you 
believe DOJ should do a better job keeping this Web page up-to-date in 
order to help transparency?
    Answer. The process of keeping the congressional correspondence Web 
page updated involves several components and offices in DOJ. The 
recipient of a congressional correspondence regarding earmarks--
typically one of the Department's grant components, i.e., OJP, the 
Office of Community Oriented Policing Services or the Office on 
Violence Against Women (OVW)--forwards any correspondence they believe 
is subject to Executive Order 13457 to the Justice Management 
Division's (JMD) budget staff. The budget staff works with JMD's Office 
of General Counsel and the Assistant Attorney General for 
Administration to determine whether the correspondence meets the 
criteria established in Executive Order 13457 and gain approval to post 
it. If it is determined that a piece of correspondence should be posted 
pursuant to Executive Order 13457, budget staff removes all personally 
identifiable information, or PII, as appropriate and provides the 
redacted correspondence to the Office of the Chief Information 
Officer's e-Government staff to post to DOJ's Congressional 
Communications Web site. Last, JMD makes efforts to notify the 
recipient component and the Committees on Appropriations staffs at 
least 24 hours prior to the cleared correspondence going ``live'' on 
the Web site (http://www.justice.gov/jmd/ccre/).
    DOJ understands the subcommittee's desire for transparency and 
timely reporting, and we work very hard to make these types of 
communications public as soon as possible. Only three communications 
have been submitted after the May 11, 2010, correspondence was posted. 
We will continue to ensure that all stakeholders in this process are 
aware of the requirement to postcongressional communications regarding 
earmarks and that we are efficient in our processing and posting of 
such information.
    Question. Would DOJ support a new Executive order--similar to 
Executive Order 13457, with the goal of seeking transparency--that 
would require Federal agencies to post on their Web sites a list of any 
meetings with registered lobbyists, a synopsis of what was solicited by 
those lobbyists, and the Department's response to those lobbyists?
    Answer. DOJ appreciates the subcommittee's interest in increased 
transparency and accountability, and we always strive to uphold the 
tenets espoused in recent efforts to increase transparency and 
accountability. We defer to the administration, however, on 
predecisional matters regarding possible new Executive orders.
                        curbing lavish spending
    Question. The previous administration exercised lavish spending at 
DOJ. There was one instance when the Department spent $1.4 million to 
host a single conference, and another report of spending $4 on Swedish 
meatballs. In the wake of such extravagant spending, I required the 
Justice Department to create uniform, internal guidelines on conference 
spending to avoid irresponsible spending.
    What steps has DOJ already taken and continues taking to ensure 
that it is following requirements to avoid lavish spending and cost 
overruns so that the American people's tax dollars are not being 
squandered?
    Answer. The Justice Management Division issued policy guidance in 
April 2008 on Conference Planning, Conference Cost Reporting, and 
Approvals to Use Non-Federal Facilities. This guidance outlines a 
uniform policy for all components within DOJ to follow, and sets limits 
on the amount that may be spent on meals and refreshments. It also 
provides guidance for selecting appropriate venues, appropriately 
handling non-Federal attendees, and reporting costs in a timely manner.
    Since that guidance was written, the Assistant Attorney General for 
Administration issued a memorandum to DOJ's component heads in June 
2008, and the Deputy Attorney General issued a similar memo in May 
2009, highlighting the importance of fiscal responsibility with respect 
to conferences sponsored by the Department. In January 2011, the 
Attorney General issued a memorandum to DOJ's Component Heads that re-
emphasized the need for fiscal responsibility particularly with respect 
to conferences and training. The following summarizes the relevant 
parts of these memoranda:
  --Conference locations are to be selected based on business need and 
        minimization of travel and other costs.
  --Lavish or resort-type locations and accommodations should be 
        avoided. Component heads are required to approve in writing if 
        the facility gives the appearance of being lavish or is a 
        resort location, and this Component Head approval cannot be 
        delegated.
  --Components must restrict the number of people traveling to 
        conferences to the minimum necessary to accomplish the official 
        purpose.
  --Components must ensure the selected lodging location is within per 
        diem rates.
  --Meals should be provided on an infrequent basis and only as a 
        working meal when necessary to accomplish the purpose of the 
        event. Refreshments should be kept to an absolute minimum. 
        Grantmaking organizations should instruct grant recipients that 
        DOJ grant funding is not be used for lavish food, refreshments, 
        or entertainment purposes.
  --Components must ensure that travelers are aware of their 
        responsibility to reduce per diem when meals are provided at 
        the conference.
  --Components must ensure that reporting of costs for all non-Federal 
        facility events and conferences are submitted by Component 
        Heads no later than 45 days following the close of each fiscal 
        quarter.
    In addition, my office submits to the inspector general a report of 
conferences held by DOJ. The report is submitted on a quarterly basis. 
OIG is concluding an audit of DOJ's fiscal year 2008 and 2009 
conference reports. DOJ will address any areas of weakness identified 
by this internal review.
    By establishing a uniform policy across DOJ, regularly reminding 
senior management and staff of the importance of fiscal prudence, and 
reviewing past performance, the Department is able to assure the 
American people that their money is being well spent.
    Question. American families are tightening their belts in this 
tough economy. What are other ways that DOJ can tighten its belt and 
clean up waste, fraud, and abuse?
    Answer. Within DOJ, we regularly examine opportunities for savings 
and efficiencies as part of our day-to-day operations. In addition, DOJ 
instituted a formal review of savings and efficiencies in fiscal year 
2010. On July 22, 2010, the Attorney General established a Department 
Advisory Council for Savings and Efficiencies (SAVE Council). The SAVE 
Council develops and reviews Department-wide savings and efficiency 
initiatives and monitors component progress to ensure positive results 
for cost savings, cost avoidance, and efficiencies. In addition, the 
SAVE Council has provided a framework to identify and implement best 
practices for saving taxpayer dollars, realizing efficiencies, and 
monitoring our savings progress. The SAVE Council institutionalizes 
DOJ's pilot savings efforts that began in June 2009. Through fiscal 
year 2010 the SAVE Council has directed more than $39 million in 
savings throughout DOJ in areas ranging from double-sided printing to 
consolidated procurements which have leveraged the Department's buying 
power.
    The fiscal year 2012 budget funds DOJ's critical missions in a 
fiscally responsible manner. Resources requests for the Department's 
highest-priority programs have been offset by administrative and 
programmatic savings. In total, $1.9 billion in program and management 
offsets and rescissions were identified so as to lower our bottom line 
without impacting mission or capability.
    These offsets include administrative efficiencies and savings, task 
force and space consolidations, a reduction of DOJ's physical 
footprint, component-specific program savings, IT project management 
efficiencies, relocation efficiencies, reductions to less effective 
grant programs, elimination of earmarks, and rescissions of prior year 
balances.
    Beyond DOJ internal operations, the Attorney General chairs the 
Financial Fraud Enforcement Task Force, an interagency task force 
established by Executive order of the President to combat financial 
crime and fraud. It is the broadest coalition ever brought to bear in 
confronting fraud. The mission of the Task Force is to improve efforts 
across the Government and with State and local partners to investigate 
and prosecute financial fraud, recover proceeds for victims, and 
address discrimination in the lending and financial markets.
    DOJ will use all of the enforcement tools at our disposal to combat 
financial crime and fraud in all its forms, including mortgage fraud, 
securities and investment fraud, and procurement fraud, and to stop 
fraudsters who would attempt to take advantage of our efforts at 
economic recovery.
    The Congress' financial support of our criminal and civil 
enforcement is critical to protecting the American taxpayer's hard 
earned money. Moreover, the amount of taxpayer money restored to the 
United States Treasury through our criminal and civil enforcement 
efforts far exceeds what we spend to recover that money.
                   prisons--thompson prison facility
    Question. The 2012 budget request has $67 million for the Federal 
Prison System to get up and running the Thomson Correctional Center in 
Illinois, which assumes that the Congress will be able to provide $170 
million this year to buy the facility. Under the continuing resolution, 
buying Thomson is in jeopardy due to the rapidly dwindling availability 
of funds.
    I support our Federal investigators and prosecutors who are so very 
successful. But this means Federal prison inmate population grows 
exponentially. In fact, growth in that population has far outpaced 
growth in prison capacity and reached grave proportions.
    What are DOJ's plans for the immediate future--to relieve dangerous 
overcrowding now--not only this year but beyond?
    Answer. At the same time, DOJ has proposed sentencing reforms that 
will slow the rate of Federal inmate prison population growth in the 
long-term. The legislative proposals continue to provide inmates with 
incentives for good behavior as well as to participate in programming 
proven to reduce the likelihood of recidivism. The proposed sentencing 
reforms include an increase in the amount of credit an inmate can earn 
for good behavior and a new sentence reduction credit, which inmates 
can earn for participation in education and vocational programming.
    Question. How would purchasing the Thomson facility--or any other 
prison facility--address BOP crowding?
    Answer. In general, increasing capacity--either by acquiring and 
renovating existing structures, expanding existing facilities where 
infrastructure permits, or constructing new prison facilities--reduces 
crowding. In particular, the Thomson acquisition will allow BOP to add 
high-security administrative bed space expeditiously and at a lower 
cost than construction of a new administrative/high-security facility.
    Acquisition and full activation of the Thomson facility by fiscal 
year 2012 would reduce inmate crowding in BOP high-security 
institutions from the current 51 percent to 38 percent over rated 
capacity. Without the acquisition, crowding in BOP high-security 
institutions would increase to 63 percent over rated capacity. The 
Thomson facility is unique and suitable for the BOP's needs since it 
was built specifically to house maximum security inmates. The number of 
Administrative Maximum (ADX) beds available in BOP facilities has not 
increased since ADX Florence was activated in 1994, when the total 
inmate population was 95,000. Thus, in addition to housing general 
population high-security inmates, USP Thomson would also be used by the 
BOP to house a number of inmates with ADX custody, other inmates who 
have proven to be difficult to manage and inmates who are designated 
for Special Management Units (SMUs). Conditions of confinement for SMU 
inmates are more restrictive than for general population inmates. The 
Thomson facility would provide the physical structure and security to 
appropriately house inmates who are designated for SMU placement. The 
Thomson facility has 1,600 cells, of which the BOP anticipates using 
400 for ADX type inmates (400 single-bunked beds). The remaining cells 
would yield 1,500 beds at high-security rated capacity. However, the 
actual number of SMU inmates housed there would probably be much higher 
given the current and projected crowding levels.
    Question. The fiscal year 2011 budget request had $170 million to 
purchase Thomson, but now I'm told the facility could cost upwards of 
$220 million, simply to buy. What is the actual cost to buy the Thomson 
facility and on what is this cost based? What factors have contributed 
to the cost difference between what DOJ estimated in the fiscal year 
2010 budget request to purchase the Thomson facility and what 
subsequent appraisals done by both the State of Illinois and the 
Federal Government now estimate the cost to be? Will the increase in 
cost to buy the facility increase the amount needed to make the 
necessary renovations and outfitting for it to meet Federal 
requirements for an ADX USP?
    Answer. The cost to buy the Thomson Correctional Center has been 
negotiated by DOJ and State of Illinois representatives; $165 million 
has been agreed upon. The negotiated cost is based on current 
professional appraisals ordered by the U.S. Government.
    The main factor contributing to the cost difference is that the 
fiscal year 2011 budget request was an estimate based on previous 
construction cost rather than current professional appraisals of the 
actual value of the Thomson facility, which were not available at the 
time the budget was developed.
    No, the cost identified in the fiscal year 2011 budget included the 
estimated cost to purchase Thomson, an estimate of the amount necessary 
to renovate it and also an estimate to begin activation of the 
facility. An increase in the purchase price will not cause the cost of 
renovations or the activation to increase or decrease. However, the 
length of time that Thomson remains inactive may impact renovation 
costs. We note that BOP has a critical need for penitentiary prison 
capacity and this is an extremely cost advantageous means of acquiring 
that critical bedspace.
                         prisons--overcrowding
    Question. I understand that DOJ would house at the Thomson 
facility--once purchased, renovated, and outfitted as an ADX USP--high-
security inmates, some Supermax inmates, and inmates designated for 
Special Management Units (SMU). I am also concerned about the current 
crowding rate at high-security institutions. By the end of 2012, DOJ 
expects 227,000 inmates incarcerated in BOP institutions nationwide.
    What is the current crowding rate in Federal prisons?
    Answer. As of April 21, 2011, BOP institutions are operating at 37 
percent over rated capacity system-wide and at the following rates by 
security level:
  --High security, 51 percent over rated capacity;
  --Medium security, 42 percent over rated capacity;
  --Low security, 39 percent over rated capacity; and
  --Secure female, 47 percent over rated capacity.
    Question. What does it mean for staff and inmate safety?
    Answer. BOP faces continued challenges as the inmate population 
continues to grow. BOP facilities are operating at 37 percent above 
rated capacity system-wide. More than 174,000 Federal inmates (81.5 
percent of the total inmate population) are imprisoned in BOP-operated 
facilities intended to house about 127,000 inmates. The remainder, more 
than 39,500 inmates (18.5 percent), are in contract care, including 
privately operated secure facilities, facilities managed by State and 
local governments, residential re-entry centers, or home confinement.
    A 2006 BOP study found that an increase in prison crowding (the 
percentage of inmates above rated capacity) could lead to increases in 
serious assaults. The study concluded that an increase of one inmate in 
a Federal prison's inmate-to-custody staff ratio increases the prison's 
annual serious assault rate, by 4.5 per 5,000 inmates. The fiscal year 
2012 President's budget supports both system capacity expansion and 
staffing increases, which are important tools in addressing crowding 
and providing safer environments for both staff and inmates.
    Further, it is critical to acquire high-security bed space, such as 
that potentially provided by Thomson, to alleviate crowding at the 
upper security levels (42 percent and 51 percent over rated capacity at 
medium- and high-security facilities, respectively). The combined 
inmate population confined in medium- and high-security facilities 
represents nearly 40 percent of the entire inmate population. At the 
higher-security levels, more than 70 percent of the inmates are drug 
offenders, weapons offenders, or robbers, another 10 percent have been 
convicted of murder, aggravated assault, or kidnapping, and one-half of 
the inmates in this population have sentences in excess of 12 years. 
Furthermore, nearly 70 percent of high-security inmates have been 
sanctioned for violating prison rules, and more than 90 percent have a 
history of violence. One out of every six inmates at high-security 
institutions are gang affiliated. There are much higher incidences of 
serious assaults by inmates on staff at medium- and high-security 
institutions than at the lower-security level facilities.
    Question. Can you help the subcommittee understand the impact that 
would be made on this problem by having the additional bed space at 
Thomson or other prisons you have ready for activation or may want to 
purchase?
    Answer. Currently, more than 174,000 Federal inmates are in 
facilities operated by BOP, and these facilities have a rated capacity 
of only about 127,000 beds. Acquiring an existing higher-security 
institution would be the quickest and most economical means to add bed 
space. The Thomson facility would add 1,600 cells for SMU and ADX 
inmates, thereby freeing up high-security bed space that is now being 
used at existing institutions for these type inmates. Acquisition and 
full activation of the Thomson facility by fiscal year 2012 is expected 
to reduce inmate crowding in BOP high-security institutions from the 
current 51 percent to 38 percent over rated capacity.
    There are no other high-security facilities under construction. 
However, BOP has three prisons (Federal Correctional Institution [FCI] 
Mendota, California; FCI Berlin, New Hampshire; and Secure Female FCI 
Aliceville, Alabama) for which construction has already been completed 
or will be completed in fiscal year 2012. Construction is complete at 
FCI Mendota and FCI Berlin, and construction at the Secure Female FCI 
Aliceville is scheduled for completion in November 2011. FCI Mendota 
and FCI Berlin facilities will each add 1,152 male medium-security and 
128 minimum-security work camp beds to capacity. These facilities 
currently remain unopened because funds are needed to begin or continue 
the activation process. When operational funding is received, the 
Secure Female FCI Aliceville will add 1,792 beds for female inmates. 
Together, these three newly constructed prisons total more than 4,350 
additional prison beds which could be utilized to ease high levels of 
inmate overcrowding in BOP institutions if activation funding is 
provided as requested in the fiscal year 2012 President's budget.
    Question. Why does DOJ's budget request include no additional 
funding for new prison construction projects or to purchase existing 
prison facilities in fiscal year 2012? Does DOJ anticipate including 
such funding in its requests for fiscal year 2013 and beyond? What 
level of prisons do you anticipate will be shovel ready come 2012 and 
beyond, how long will it take to build and get those facilities online, 
and how will those facilities alleviate prison overcrowding?
    Answer. While the fiscal year 2012 President's budget does not 
include new construction funds for BOP, nearly $185 million is 
requested to continue or begin five new prison activations. In total, 
these prisons will add more than 7,500 prison beds to the Federal 
Prison System from fiscal year 2010 through fiscal year 2012. Further, 
the administration proposed legislative changes to increase the amount 
of sentence-reducing credits that inmates can earn for good behavior. 
This is the right thing to do. It will also help address prison 
population growth and potentially alleviate crowding in the long term.
    For fiscal year 2013 and beyond, DOJ will continue to review, 
analyze and make recommendations on BOP's budget requirements.
    BOP has seven partially funded projects in the site and planning 
phase that require additional funding to move forward to award a 
construction contract. Two of the proposed projects are to construct 
medium security FCIs and five are to construct high-security USPs. 
Exhibit O, Status of Construction, in the fiscal year 2012 President's 
budget request for buildings and facilities gives additional 
information on these projects.
    By the end of fiscal year 2018, when all of these planned 
institutions could be fully activated, pending future funding 
availability, inmate crowding is projected to be 55 percent at medium-
security and 14 percent at high-security levels (this estimate includes 
the proposed capacity for Thomson). However, without Thomson and the 
five USPs above, the BOP estimates high-security crowding would 
increase to 61 percent over rated capacity.
                         prisons--understaffing
    Question. Understaffing of prisons puts prison guards and inmates 
at great risk. The number of correctional guards who work in Federal 
prisons, however, is failing to keep pace with this tremendous growth 
in the prison inmate population.
    The Federal Prison System is currently staffed at an 89 percent 
level, as opposed to 95 percent staff levels in the mid-1990s. BOP says 
the minimum staffing level for maintaining safety and security should 
not be less than 90 percent. The current BOP inmate-to-staff ratio is 
4.8 inmates to 1 staff member, versus the 1997 inmate-to-staff ratio of 
3.6 to 1.
    The President's 2012 request for BOP provides funding to hire an 
additional 1,800 correctional staff, including 823 correctional 
officers, in BOP facilities. Will this address the shortfall in 
staffing?
    Answer. The fiscal year 2012 President's request supports a 
critical need to increase 1,200 staff at existing Federal prisons and 
requests additional positions for the activation of three new prisons. 
If the fiscal year 2012 President's request is enacted, BOP estimates 
it would provide staffing at 90 percent of the authorized level.
    Question. If the Congress fully funds the President's request so 
that BOP may hire new correctional staff, would this conflict with the 
Attorney General's DOJ-wide hiring freeze? Or would the Attorney 
General have to implement an exception for BOP to hire new correctional 
staff?
    Answer. DOJ has not yet determined if the fiscal year 2011 hiring 
freeze will be extended to fiscal year 2012. However, if the fiscal 
year 2012 President's request were fully funded for BOP and a DOJ-wide 
hiring freeze was in place, then BOP would seek an exception from the 
Attorney General to hire new correctional staff.
    Question. There have been numerous assaults on prison guards, 
including an incident at a BOP facility when an inmate stabbed an 
officer seven times. What steps are you taking to protect officers in 
BOP facilities?
    Answer. BOP employs many management techniques to prevent and 
suppress inmate violence. BOP has enhanced its population management 
strategies in a variety of areas, including an improved inmate 
classification/designation system, more targeted training of staff, 
intelligence gathering, gang management, controlled movements, pre-
emptive lockdowns, and proactive interventions to prevent violence and 
other serious misconduct.
    Beginning in fiscal year 2008, BOP began operating SMUs, targeting 
inmates who have proven to be violent or confrontational, resistant to 
authority, and disrespectful of institution rules. Designation to a SMU 
is considered when an inmate's behavior poses a threat to the safe and 
secure operation of BOP facilities.
    Improvements have also been made in the architectural design of new 
facilities, and a variety of security technologies (e.g., enhanced 
video cameras, improved body alarms, stab-resistant vests, more 
sophisticated perimeter detection systems, etc.) are now available. All 
of these changes and new technologies have helped staff to monitor and 
supervise the growing number of inmates. Further, recent President's 
budgets, including the fiscal year 2011 and fiscal year 2012 requests, 
have supported staffing increases at existing institutions. Increasing 
staff in Federal prisons improves the inmate-to-staff ratio, which 
results in better supervision and enhanced prison security.
                   state and local grants management
    Question. DOJ awards billions of dollars in State and local law 
enforcement grants each year. This year, we expect it to administer up 
to $3 billion in grants alone. We must make sure OJP, the COPS office, 
and OVW have tools to get grants out the door and monitor how those 
funds are spent.
    Now that the Congress has a moratorium on earmarks and States and 
communities are facing budget cuts, do you expect dramatic increases in 
grant applications for State and local programs?
    Answer. DOJ has already experienced a significant increase in 
inquiries, visits, and other requests for information from 
organizations that have traditionally received earmarks. It is expected 
that this increased interest will be reflected in the number of grant 
applications received.
    Question. What is DOJ doing to improve accountability of taxpayer 
dollars when processing and awarding grants?
    Answer. Proper grants management is one of DOJ's highest 
priorities, and we are fully committed to ensuring that the grants 
process is transparent, fair, and managed in a manner that avoids 
waste, fraud, and abuse.
    Accounting for taxpayer dollars and overall grants management have 
been greatly enhanced through the establishment of DOJ-wide Grants 
Management Challenges Workgroup. This workgroup, created in February 
2010, is an interagency initiative established by the Office of the 
Associate Attorney General. Led by the Deputy Associate Attorney 
General and consisting of representatives from COPS, OJP, and OVW, the 
workgroup meets every 2 weeks to share information and develop 
consistent practices and procedures in a wide variety of grant 
administration and management areas, including application review and 
award procedures, monitoring guidelines, high-risk grantee criteria, 
and the expeditious handling of OIG grantee audits. Additionally, the 
three components are sharing monitoring plans that will better position 
each component to target those grantees who pose the greatest 
compliance risk. In recent testimony, the OIG praised the efforts of 
this workgroup in improving numerous areas of grant management, and 
thus improving the accountability of taxpayer dollars.
    During the last 2 years, OJP, OVW, and COPS have also:
  --Developed and provided DOJ-wide training, including ongoing 
        training, to all American Recovery and Reinvestment Act 
        recipients. Issued our tribal grants under a single Coordinated 
        Tribal Assistance Solicitation in 2010 and 2011, and 
        coordinated the application review and award process. Developed 
        joint training and technical assistance programs for tribal 
        grantees. Developed and implemented procedures for managing a 
        DOJ-wide high-risk grantee designation program to ensure that 
        all high-risk grantees are treated consistently across DOJ. 
        Developed a DOJ-coordinated monitoring plan to allow for 
        maximum joint on-site monitoring visits by DOJ grant program 
        offices and OJP's Office of the Chief Financial Officer.
    We also continue to seek ways to collaboratively develop tools for 
effective grants management. For example, we are currently developing a 
DOJ-wide, online financial training tool for DOJ grantees. We also 
have, in draft form, a guide for grantees that outlines OJP's 
expectations for how grantees are to report on their accomplishments 
that are funded by Federal dollars.
    Question. Will you need additional resources to administer grants 
and ensure no waste, fraud, or abuse in your grantmaking?
    Answer. Yes. DOJ requires additional resources to fulfill its 
commitment to perform quality and complete grant monitoring across its 
grant programs to detect and prevent waste, fraud, or abuse.
    For OVW, the fiscal year 2012 President's budget request includes 
an additional $7 million and 32 positions. The funding requested is 
needed to properly administer OVW's grants workload and to transfer 
certain costs previously distributed to grant programs to management 
and administration.
    For COPS, the fiscal year 2012 President's budget request includes 
an additional $2.9 million and 22 positions. The funding requested will 
allow the COPS office to have the staff and the systems in place to 
handle additional hiring grant awards and to continue to efficiently 
monitor, maintain, and close grants awarded in previous fiscal years.
    For OJP, the fiscal year 2012 President's budget request includes 
$39.8 million and 28 additional positions to meet responsibilities for 
OJP's programs. Some of the newly requested staff will support the 
implementation of the Adam Walsh Act, while others are essential to 
fulfill OJP's stewardship obligations. Just more than $8 million of 
OJP's S&E request would go to strengthen OJP's Grants Management System 
(GMS). GMS--through which practitioners file grants with OJP--is the 
backbone of the OJP's grants delivery system; but it is aging, and 
needless hours are spent compensating for the inefficiencies of this 
system.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                 extraditions from mexico (drug caucus)
    Question. As Chairman of the Senate Caucus on International 
Narcotics Control, I am convinced that there is no greater threat to 
Mexican drug traffickers than extradition to the United States.
    Ninety-four drug trafficking organization leaders were extradited 
from Mexico to the United States in 2010 and 107 were extradited in 
2009. This is up from a mere 12 in 2000. Defendants who have been 
extradited to the United States often receive significant sentences.
    Over the past year, the Mexican Government has been particularly 
successful in arresting high-profile drug traffickers. Fourteen top 
kingpins were arrested or killed in 2010 and a total of 28,216 Mexican 
nationals and 342 foreigners were arrested in the country on drug-
related charges.
    As the Mexican Government increases its enforcement efforts, what 
is the Department of Justice (DOJ) doing to ensure that extraditions 
continue to expeditiously take place?
    Answer. DOJ shares your assessment that extradition is an important 
and powerful means of bringing drug traffickers and other criminals to 
justice, particularly as Mexico undergoes the reform of its own 
criminal justice system. To ensure that extraditions continue to take 
place expeditiously, this point is reiterated at every meeting with our 
counterparts at every level of the Mexican Government. Extradition is a 
vital piece of our comprehensive strategy to dismantle drug trafficking 
organizations.
    The Criminal Division's Office of International Affairs (OIA) and 
its Attache's Office in Mexico City have primary responsibility for 
submitting requests for extradition to Mexico and tracking the progress 
of extraditions of fugitives that are wanted for prosecution at both 
the State and Federal levels. With funding from the 2010 Border 
Security appropriations bill, DOJ increased OIA's Mexico/Central 
American team to 16 trial attorneys and eight paralegals and added 
another attache to the United States Embassy in Mexico--the only post 
to which two OIA attorneys are assigned--to support our increasing law 
enforcement cooperation with Mexico.
    Moreover, Mexican officials, working closely with the U.S. Marshals 
Service (USMS) and the Federal Bureau of Investigation (FBI), have used 
their authority under their immigration laws to remove hundreds of U.S. 
citizen fugitives who can be repatriated more expeditiously through 
deportation, as opposed to extradition.
    In addition, USMS, Drug Enforcement Administration (DEA), and FBI 
have increased their efforts to assist Mexico in locating fugitives 
wanted in Mexico. In 2003, USMS established an office in Mexico City, 
which has been expanded from 2 to 5 inspectors; and added 10 additional 
positions at our Embassy and consulates, which are being staffed now. 
Moreover, the work of our permanent USMS staff assigned to Mexico is 
frequently supplemented by temporary duty officers and the 50-person 
USMS Mexico Investigative Liaison program, which focuses on fugitives 
cases with Mexico and along our Southwest Border.
    In light of our increased successes and the increased volume of our 
work, the U.S.-Mexico Fugitive Working Group meets twice yearly to 
review pending cases, address systemic problems, and work toward 
improved procedures and practices. This working group is comprised of 
representatives from OIA, USMS, FBI, the Department of State, and their 
Mexican counterparts.
    The results of this increasing cooperation have been significant. 
As you note, Mexico extradited 94 fugitives in 2010 (of these 94, 42 
were wanted for drug trafficking offenses, while the remaining 
fugitives were wanted mostly for violent or sexual assault offenses, 
such as murder, rape, and physical or sexual child abuse), compared to 
only 12 in 2000. As of April 2011, the number of extraditions from 
Mexico for 2011 is on track to meet or exceed that number.
    Question. Are extraditions keeping up with the pace of high-profile 
arrests in Mexico?
    Answer. Extraditions from Mexico to the United States have improved 
significantly over the last few years. In the past 2 years, Mexico has 
extradited 201 fugitives to the United States, making Mexico one of the 
United States' most active extradition partners. Among those extradited 
are several high-value fugitives, including some associated with 
notorious Mexican drug trafficking organizations, such as the gulf, 
Arellano Felix, and Sinaloa cartels. Some of the most notable since the 
beginning of 2009 include:
  --February 2009 extradition of Miguel Angel Caro-Quintero, who led 
        the family drug organization after the arrest of his brother 
        Rafael Caro-Quintero (who was complicit in the kidnapping, 
        torture, and murder of DEA Special Agent Enrique Camarena);
  --January 2010 extradition of Jesus Navarro Montes, charged with the 
        2008 murder of Customs and Border Protection Agent Luis 
        Aguillar and with drug conspiracy;
  --February 2010 extradition of Sinaloa cartel leader and DEA fugitive 
        Vicente Zambada-Niebla (son of Ismael Zambada-Garcia);
  --March 2010 extradition of Oscar Arriola Marquez, a designated 
        Foreign Narcotics Kingpin;
  --April 2010 extradition of Juan Jose Quintero Payan, former head of 
        the Juarez cartel, who had been in Mexican custody since 1999;
  --May 2010 extradition of Mario Villanueva Madrid, former Governor of 
        Quintana Roo and alleged abettor of the Juarez cartel, on drug, 
        money laundering, and bribery charges;
  --June 2010 extradition of Pedro Bermudez Suaza, a.k.a. ``El 
        Arquitecto'', who orchestrated the smuggling of cocaine from 
        Medellin, Colombia, to Mexico;
  --January 2011 extradition of Sinaloa Cartel leader and DEA fugitive 
        and Consolidated Priority Organization Target (CPOT) Oscar Nava 
        Valencia, a.k.a. ``El Lobo''; and
  --March 2011 extradition of CPOT Esteban Rodriguez Olivera.
    Extradition of high-profile fugitives, however, depends 
significantly on the ability of Mexican authorities to first locate and 
arrest them. (In the extradition context, those initial arrests are 
referred to as ``provisional arrests'' pending extradition.) The 
location and arrest of high-profile fugitives can be very challenging 
and dangerous. USMS, FBI, and other U.S. law enforcement agencies 
provide critical intelligence and technical support to their Mexican 
counterparts in these efforts by developing and sharing information on 
fugitives' whereabouts.
    However, once fugitives are arrested, we find that the extradition 
process in Mexico can be lengthy, litigious, and often formalistic. In 
some cases, it can take several years before a fugitive exhausts all of 
his or her appellate rights and is extradited to the United States. In 
other cases, extradition principles akin to our double jeopardy 
restrictions can limit or complicate Mexico's ability to extradite 
major figures who are also charged in Mexico. Thus, we expect that 
continuing to pursue the extradition of significant cartel targets from 
Mexico will be a resource-intensive endeavor for our staff in OIA and 
the Federal prosecutors with whom they work. At the same time, DOJ will 
continue its work--at both leadership and staff levels--to work with 
our Mexican counterparts to expedite and streamline the extradition 
process when possible.
                                 ______
                                 
                Question Submitted by Senator Ben Nelson
                   cuts to state and local assistance
    Question. As I mentioned during the March 10, 2011 hearing, I 
believe we need to work together to exercise serious spending restraint 
in the current fiscal climate. We all know we have to cut back. In 
reviewing the Department of Justice's (DOJ) fiscal year 2012 budget 
request, State, local, and tribal assistance programs seem to take a 
particularly significant cut while other areas of your budget see 
increases. Specifically, these cuts impact programs such as Regional 
Information Sharing Systems, a multi-state, multi-jurisdictional 
program responsible for many law enforcement successes in Nebraska and 
across the country. As the fiscal year 2012 budget and appropriations 
process proceeds I hope to work with your Department to identify 
meaningful cuts while prioritizing those programs that are most 
relevant to DOJ's core missions.
    It appears there will be a serious discussion this year to cut 
total domestic discretionary funding back to fiscal year 2008 levels. 
Perhaps that will not happen in fiscal year 2012, but rather fiscal 
year 2013, as suggested by the President's fiscal commission. As you 
know, that would mean a nearly 15 percent cut to DOJ.
    My question is, if you had to get back to 2008 levels, where would 
you cut specifically? And what practical effect would those cuts have 
on DOJ and your mission?
    Answer. At the fiscal year 2008 funding level, DOJ would be cut to 
a level that would have serious consequences for the American public. 
For 2011, DOJ's discretionary budget is $26.9 billion. In 2008, the 
discretionary budget was $23 billion. DOJ would need to cut $3.9 
billion from the 2011 full-year continuing resolution level if funding 
is reduced to 2008 levels.
    This shortfall is further intensified when compared to DOJ's true 
operational requirements for 2012, which reflect compulsory cost 
increases associated with maintaining the prisons and detention systems 
and safeguarding resources to perform our national security 
responsibilities. DOJ would be forced to cover mandatory prison and 
detention costs at the expense of other critical law enforcement and 
prosecutorial priorities.
    Currently, there are approximately 63,000 detainees in Federal 
custody awaiting sentencing, which is 11 percent higher than the 2008 
population. Without the additional resources provided to the Office of 
the Federal Detention Trustee since 2008, DOJ would be unable to pay 
for mandatory detention costs and would be forced to turn away 
additional detainees remanded to Federal custody.
    Because DOJ's total budget is nearly 60 percent salaries and 
benefits, with the other portion largely consumed by ``mandatory'' 
prison and detention costs, as well as fixed costs such as rent and 
utilities, the Department will lose staff if funded at the 2008 levels. 
This would impact national security, and traditional law enforcement 
and litigating missions. DOJ's ability to respond to continuously 
evolving threats and emergencies--such as the Deepwater Horizon oil 
spill and the Tucson, Arizona shootings--would be severely threatened.
    Reductions to the national security workforce could leave our 
Nation vulnerable to attacks in a time when we are experiencing a spike 
in national security incidents. New intelligence analysts would be 
eliminated, hindering domain management, collection management, HUMINT 
collection, tactical intelligence, and intelligence production and 
dissemination capabilities.
    Funding reductions would also result in the elimination of hundreds 
of counterintelligence and counterterrorism agents.
    Simply put, fewer agents mean fewer investigations of national 
security threats, drug trafficking, cyber intrusions, child 
pornography, human trafficking, financial scams, and a host of other 
crimes under the jurisdiction of the Federal Government. Fewer 
attorneys mean fewer prosecutions for criminal offenses. Finally, DOJ 
would be forced to reduce grants to our State, local, and tribal law 
enforcement partners. For example, the COPS hiring program, which 
places more cops on the beat in local jurisdictions to tackle violent 
crime, would be reduced and fewer officers would be funded. This would 
impact the ability of many law enforcement agencies in Congressional 
Districts across the country to provide safe streets and communities.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor
                         problem solving courts
    Question. Can you describe your commitment to ensuring that problem 
solving courts remain strong and effective?
    Answer. The Office of Justice Programs (OJP) has funded drug courts 
since 1995. The President's fiscal year 2012 budget proposes to 
consolidate the Mentally Ill Offender Act and Drug Court programs into 
a new Problem Solving Courts program that will provide greater 
flexibility in using these funds. The fiscal year 2012 budget request 
for the consolidated program equals the fiscal year 2010 enacted level 
for the two separate programs.
    OJP has made a total of 2,609 drug court awards to 1,853 different 
drug court programs. In the last 2 fiscal years, OJP has been able to 
fund more than 50 percent of all eligible applicants, which represents 
a very high funding rate. Of the drug court programs funded under OJP, 
95 percent are still operational today.
    In fiscal year 2010, OJP placed a priority on building the capacity 
of existing drug courts to increase participation rates. The statutory 
provisions of the JAG formula allow State, local, and tribal 
jurisdictions to support drug courts. The Problem Solving Courts 
program will allow State, local, and tribal grantees increased 
flexibility to fund evidence-based strategies that address unique local 
needs and expand collaboration among drug courts, mental health, and 
substance abuse providers. Programs funded under the new Problem 
Solving Courts initiative may serve as models to other courts 
nationwide.
    Question. Are the limited resources that are available for problem 
solving courts adequate for handling the huge case loads these courts 
have?
    Answer. The priorities of the Problem Solving Courts program are 
to:
  --support States, tribes, and localities by funding evidence-based 
        grants generated around best practices;
  --merge funding streams with funding from other Federal agencies to 
        maximize resources;
  --target problem solving court resources for offenders and practices, 
        which research has shown to most improve public safety and 
        reduce recidivism; and
  --explore how to bring problem solving principles to scale in general 
        jurisdiction courts.
    The recently completed Multi Adult Drug Court Evaluation overseen 
by the National Institute of Justice has provided insight regarding how 
offenders benefit from the program. In fiscal year 2011, resources are 
targeted to those drug courts that aim to serve offenders with both 
high criminogenic risks and substance abuse treatment needs.
    In fiscal year 2010, OJP began collaborating with the Department of 
Health and Human Services, Substance Abuse and Mental Health Services 
Administration, Center for Substance Abuse Treatment to administer the 
Enhancing Adult Drug Court Services, Coordination, and Treatment grant 
program. The purpose of this streamlined funding program is to enhance 
drug court capacity by inviting jurisdictions to submit one application 
to fund a comprehensive strategy to address both criminal justice and 
substance abuse treatment services. This interagency funding 
partnership maximizes Federal resources at the State, local, and tribal 
levels.
    The proposed Problem Solving Court program would provide even 
greater flexibility in meeting jurisdictional needs based on their own 
resource gaps and will assist OJP in exploring with jurisdictions 
innovative ways to bring problem solving principles to work in general 
jurisdiction courts. While this program, with limited funding, will not 
be able to fully meet the needs of the jurisdictions, it can help court 
systems determine how to address these challenges in a systematic 
fashion.
    Question. It's my understanding that in fiscal year 2010, the 
Methamphetamine Enforcement and Cleanup program received $40.3 million 
through the Community Oriented Policing Services (COPS) program. Of 
this $40.3 million, $10 million was transferred to the Drug Enforcement 
Administration (DEA) to administer these meth cleanup funds. The $10 
million has been spent and no funds are currently available through 
this program to assist with the cleanup of meth sites. The President's 
fiscal year 2012 budget request zeros out methamphetamine enforcement 
and cleanup.
    I am concerned that without this dedicated funding from the DEA 
that local law enforcement agencies will not be able to bear the cost 
of cleanup. This could result in openly contaminated meth labs not 
being cleaned up.
    Can you provide additional details about how this program has 
worked in the past and why the choice was made to cut funding that 
would support the cleanup of these meth sites?
    Answer. For a number of years, DEA received funding through the 
COPS program to administer various contracts across the country that 
provide specialists to remove the hazardous waste and chemicals found 
at illegal drug laboratories. The contractors that perform the actual 
cleanup services have been properly trained and licensed and are 
required to submit background security applications to determine their 
suitability to conduct this type of sensitive work.
    The entire Federal Government is being asked to tighten its belt 
and make tough decisions on programs that can be consolidated, reduced, 
or eliminated. The elimination of the funding for the COPS 
methamphetamine enforcement and cleanup program represents just one of 
the difficult decisions DOJ had to make in the formulation of the 2012 
budget.
    DEA will continue to clean up the labs it investigates with funding 
from the Assets Forfeiture Fund. In addition, State and local agencies 
have a few options for dealing with these labs. One option is for them 
to use Byrne Justice Assistance Grant funding from the Bureau of 
Justice Assistance for lab cleanup. Also, several States (Alabama, 
Kentucky, Illinois, Indiana, and Oklahoma) already have container 
programs set up that allow State and local law enforcement officers to 
expedite the removal of seized chemicals from clandestine laboratory 
sites to temporary secure containers pending removal by a contractor. 
These programs lower the cost of clean-up. DEA is willing to provide 
technical assistance to any other States that want to implement the 
container program.
    Question. Do you have concerns that a lack of funding for local law 
enforcement agencies could lead to an increase in the number of openly 
contaminated meth labs that are not cleaned up?
    Answer. DOJ understands it will be a challenge for the States to 
address this new responsibility, and we will provide all of the 
assistance we can. DEA has a clandestine lab training facility at its 
Academy in Quantico, Virginia. At this facility, DEA trains Federal, 
State, local, and foreign law enforcement officials on the latest 
techniques in clandestine laboratory detection, enforcement, and 
safety. In fiscal year 2010, the Clandestine Laboratory Training Unit 
conducted training for a total of 1,306 State and local law enforcement 
officers.
    In addition, State and local agencies have a few options for 
dealing with these labs. One option is for them to use Byrne Justice 
Assistance Grant funding from the Bureau of Justice Assistance for lab 
cleanup. Also, several States (Alabama, Kentucky, Illinois, Indiana, 
and Oklahoma) already have container programs set up that allow State 
and local law enforcement officers to expedite the removal of seized 
chemicals from clandestine laboratory sites to temporary secure 
containers pending removal by a contractor. These programs lower the 
cost of clean-up. DEA is willing to provide technical assistance to any 
other States that want to implement the container program.
    Question. How will DOJ work with local law enforcement agencies in 
the future to ensure that our citizens are properly protected from such 
dangers?
    Answer. DEA continues to work collaboratively with State and local 
law enforcement agencies to protect citizens from drug threats. 
Further, State and local agencies have a few options for dealing with 
clandestine lab cleanup. One option is for them to use Byrne Justice 
Assistance Grant funding from the Bureau of Justice Assistance. Also, 
several States (Alabama, Kentucky, Illinois, Indiana, and Oklahoma) 
already have container programs set up that allow State and local law 
enforcement officers to expedite the removal of seized chemicals from 
clandestine laboratory sites to temporary secure containers pending 
removal by a contractor. These programs lower the cost of clean-up. DEA 
is willing to provide technical assistance to any other State that 
wants to implement the container program.
    DEA also has a clandestine laboratory training facility at the DEA 
Academy in Quantico, Virginia. At this facility, DEA trains Federal, 
State, local, and foreign law enforcement officials on the latest 
techniques in clandestine laboratory detection, enforcement, and 
safety. In fiscal year 2010, the Clandestine Laboratory Training Unit 
conducted training for a total of 1,306 State and local law enforcement 
officers. DEA will continue some State and local clan lab training 
during fiscal year 2011 with funding available from COPS. In addition 
to the clandestine lab training facility at Quantico, DEA has two 
Tactical schools and one Site Safety School scheduled in 2011. Tactical 
training is designed for officers involved in clandestine laboratory 
raids but who have limited training and experience, and Site Safety 
School is designed to certify attendees as Clandestine Laboratory Site 
Safety Officers. Advanced assessment and investigative techniques are 
also taught at this school.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison
       the president's announcement on guantanamo detainee trials
    Question. Attorney General Holder, in July 2009, the Guantanamo 
Task Force established a system for the evaluation and referral of 
detainees for prosecution. In November 2009, you announced that the 9/
11 hijackers were going to be tried in civilian courts, while the 
U.S.S. Cole suspect was going to be tried via military commission. 
Monday's announcement expressly referred to a military commission trial 
for the U.S.S. Cole bomber.
    What change does this really signal other than an end to the delay, 
if the person who was slated for military commission trial 18 months 
ago is merely going to be tried via military commission?
    Answer. The administration, working on a bipartisan basis with 
Members of Congress, successfully enacted key reforms to the military 
commission process in the Military Commissions Act of 2009. These 
reforms included a ban on the use of statements obtained as a result of 
cruel, inhuman or degrading treatment, and a better system for handling 
classified information, among others. As a result of these reforms, the 
Department believes the military commissions can deliver fair trials 
and just verdicts and will meet constitutional standards. That said, it 
is essential that the government have the ability to use both military 
commissions and Federal courts as tools to keep this country safe.
    Question. Second, does this mean the 9/11 conspirators, including 
Khalid Sheikh Mohammed, are going to be tried via military commission 
as the Bush administration was in the process of doing before the Obama 
administration reversed course and cancelled those proceedings in 
January 2009?
    Answer. Since these questions were presented, and after the passage 
of the fiscal year 2011 National Defense Authorization Act, a final 
decision was made to try several alleged 9/11 conspirators, including 
Khalid Sheikh Mohammed, by military commission.
    Question. Have any decisions been made regarding the 9/11 
conspirators trial venue--for example, has a final decision been made 
that they will not be tried in a U.S. civilian court in New York or 
elsewhere?
    Answer. Since these questions were presented, and after the passage 
of the fiscal year 2011 National Defense Authorization Act, a final 
decision was made to try several alleged 9/11 conspirators, including 
Khalid Sheikh Mohammed, by military commission.
    Question. You told the House Appropriations Committee last spring 
that the Khalid Sheikh Mohammed decision was coming soon. We are now at 
more than a year later. How long will the families of the victims of 9/
11 have to wait before you decide where to try these terrorists? This 
isn't a new question, and it wasn't a surprise when you took the job of 
Attorney General. It will be 10 years in September, so how long?
    Answer. Since these questions were presented, and after the passage 
of the fiscal year 2011 National Defense Authorization Act, a final 
decision was made to try several alleged 9/11 conspirators, including 
Khalid Sheikh Mohammed, by military commission.
                          fort hood shootings
    Question. The Senate Homeland Security and Government Affairs 
Committee issued a report on the events surrounding the shootings at 
Fort Hood that took place in November 2009. The report criticizes the 
Federal bureau of investigation (FBI), citing that FBI field offices 
failed to recognize warning signs that Nidal Malik Hasan was a threat. 
The report also concluded that FBI had sufficient information to detect 
that he was a ``ticking time bomb'' who had been radicalized to violent 
Islamist extremism, but failed to understand and act on it. FBI has 
been provided significant funding since 9/11 to bolster its 
intelligence program which includes the hiring and professionalizing 
its intelligence analyst workforce. According to the report, FBI failed 
to use its analysts in this situation.
    Next month FBI Director Mueller will appear before this 
subcommittee and I plan to take this matter up with him, but I'm 
interested in hearing from you too.
    What is your response to this report and what has DOJ, and FBI, 
done in response to the Fort Hood shootings?
    Answer. During the internal FBI review undertaken immediately after 
the attack at Fort Hood, FBI identified several of the areas of concern 
outlined in the report and, as noted in the report, has implemented 
changes to its systems and processes to address them. FBI will review 
each of the report's recommendations and adopt them, as appropriate.
    While concluding that FBI's transformation to an intelligence-
driven organization remains a work in progress, the report recognizes 
FBI's substantial progress and many successes, led by Joint Terrorism 
Task Forces (JTTFs), in disrupting terrorist plots by homegrown 
extremists.
    In addition, at the request of FBI Director Mueller, Judge William 
H. Webster is conducting an independent, outside review of FBI's 
actions with respect to Fort Hood. Judge Webster and his team are 
evaluating the corrective actions taken to determine whether they are 
sufficient and whether there are other policy or procedural steps FBI 
should consider to improve its ability to detect and prevent such 
threats in the future.
    DOJ supports FBI in its efforts to evaluate the Fort Hood shooting 
and to take the appropriate actions in response to the findings of the 
reviews that have been conducted in its wake.
    Question. What changes have you made to ensure this tragedy does 
not happen again?
    Answer. Immediately after the tragedy, FBI Director Robert Mueller 
ordered a preliminary review of FBI's actions, as well any relevant 
policies and procedures that may have guided FBI's actions before the 
shooting. In addition, the Director asked for recommendations as to 
what changes should be made as a result of that review.
    On December 8, 2009, Director Mueller asked Judge William H. 
Webster to conduct a more comprehensive, independent review of FBI 
policies, practices, and actions. That review is currently underway. 
The goal of these reviews is to look at both the actions of individuals 
involved and the systems in place at the time of the tragic events at 
Fort Hood, and to ensure that investigators have the tools they need to 
effectively carry out their responsibilities in today's evolving threat 
environment. The paramount concern in this process is to make sure that 
the systems and policies that are in place support public safety and 
national security.
    In addition, as a result of the internal review, FBI identified 
four areas for immediate adjustment and improvement.
Protocols With the Department of Defense (DOD)
    Although information-sharing has dramatically improved since 
September 2001, there is still room for improvement in certain areas, 
especially given the changing nature of the terrorist threat, and the 
need to constantly recalibrate approaches and responses. Working with 
DOD, FBI has formalized a process for centrally notifying DOD of FBI 
investigations involving military personnel. This should streamline 
information-sharing and coordination between FBI and all components of 
DOD, where appropriate, and as permitted by law. Improved processes for 
exchanging information will help ensure that FBI task force officers, 
agents, and analysts have all available information to further their 
investigations.
Additional Levels of Review
    FBI determined that intelligence collected in connection with 
certain threats--particularly those that affect multiple equities 
inside and outside the FBI--should have a supplemental layer of review 
at the headquarters level. This redundancy in the review process will 
limit the risk of human error by bringing a broader perspective to the 
review. In this way, FBI should have a better institutional 
understanding of such threats.
Technological Improvements
    During the course of the internal review, FBI identified 
information technology improvements that should be made to its systems. 
Those improvements, which are being engineered, should strengthen FBI 
agents' and analysts' ability to sift through information by 
automatically showing certain connections that are critical to 
uncovering threats.
Training for Members of JTTFs
    FBI increased training for members of JTTFs to better ensure JTTF 
members know how to maximize access to all available information and to 
best utilize existing tools to identify and link critical information. 
Specifically, JTTF Task Force Officer (TFO) training consists of three 
components:
  --Orientation and operations training;
  --Database training;
  --and Computer-based training.
    Training addressing legal restrictions that govern the retention 
and dissemination of information was also expanded and strengthened.
    The JTTF TFO Orientation and Operations Course (JTOOC) was 
established prior to Fort Hood and has continued to evolve as training 
is evaluated to ensure the best possible instruction is provided to 
TFOs. JTOOC is now a 5-day course designed to develop a basic 
familiarization with counterterrorism investigations for all TFOs 
assigned to JTTFs. JTOOC classes are designed around a notional 
counterterrorism case to facilitate discussion and participant 
interaction.
    In fiscal year 2010, in response to the initial Fort Hood findings, 
the FBI Counterterrorism Division (CTD) mandated that JTTF members 
receive hands-on training on key FBI databases and systems. Database 
training is now required for all JTTF members including special agents, 
TFOs, Intelligence Analysts and other personnel assigned to JTTFs who 
have access to systems and conduct investigative work.
    FBI provides computer-based training to its employees via the FBI 
Virtual Academy system. CTD has identified 12 specific Virtual Academy 
training modules as the baseline level of training for JTTF personnel. 
All personnel assigned to a JTTF or working counterterrorism matters 
are required to complete these baseline training modules.
                      ice agent shooting in mexico
    Question. General Holder, as stated earlier, on February 15, U.S. 
Immigration and Customs Enforcement (ICE) agent Jaime Zapata was 
murdered, and ICE agent Victor Avila was wounded in an attack in 
Northern Mexico. The Bureau of Alcohol, Tobacco, Firearms and 
Explosives (ATF) traced the murder weapon, where it was linked to a 
sale in Dallas and three men were arrested in connection with the sale 
of the weapon used in this incident.
    In response to the shootings, DOJ created a joint task force to 
investigate the shootings where FBI is the lead agency.
    What can you tell us about the investigative efforts of this task 
force since this tragic incident in Mexico?
    Answer. Upon notification of the attack against the ICE agents, FBI 
immediately organized a multi-agency task force located in Washington, 
DC, with a multi-United States Federal agency Command Post (CP) at the 
United States Embassy in Mexico. The task force and CP communicate 
daily regarding all facets of the investigation. Additionally, numerous 
FBI field offices have organized multi-agency efforts to assist in the 
investigation (Dallas, Houston, Las Vegas, Miami, Phoenix, and San 
Antonio to name a few). Through their Mexican liaison contacts, CP 
members have gathered significant information and evidence regarding 
the perpetrators and accomplices of the ICE attack. Two of the alleged 
perpetrators have been transported to the United States; those two and 
two others (a total of four) have been indicted on multiple charges. 
The United States Government has presented the Government of Mexico 
with the necessary documentation to transport two other alleged 
perpetrators, including the leader of 1 of the 2 teams that attacked 
Agents Zapata and Avila. As of now, 5 of the 8 individuals identified 
as perpetrators are in custody, either in Mexico or the United States.
    Mexican law enforcement officials are conducting a parallel 
investigation into this incident. The Mexican Government and its 
agencies have an ``open door'' for all United States requests for 
access to evidence, interviews, and support to our Embassy personnel in 
conducting this investigation. Members of the Embassy staff meet 
regularly with Mexican counterparts to ensure necessary information is 
shared.
    Question. Are Mexican law enforcement authorities cooperating and/
or assisting in this investigation?
    Answer. Mexican law enforcement officials are conducting a parallel 
investigation into this incident. The Mexican Government and its 
agencies have an ``open door'' for all United States requests for 
access to evidence, interviews, and support to our Embassy personnel in 
conducting this investigation. Members of the Embassy staff meet 
regularly with Mexican counterparts to ensure necessary information is 
shared.
    Question. Are discussions taking place to have the perpetrators 
extradited to the United States for prosecution of this crime?
    Answer. Yes, such discussions are taking place. The DOJ prosecution 
team, consisting of two prosecutors from the U.S. Attorney's Office in 
the District of Columbia and two prosecutors from DOJ's Criminal 
Division, has been working virtually around the clock both here in 
Washington and on the ground in Mexico since the tragic murder of Agent 
Zapada. United States prosecutors are in close contact with the Mexican 
office of the Attorney General (PGR) to discuss progress in the case, 
and DOJ officials at the highest levels have reached out to the Mexican 
Attorney General and other PGR officials to discuss the need to have 
the perpetrators extradited to the United States for prosecution. Our 
goal is to bring all of those involved in the murder of Agent Zapada to 
justice in the United States.
      atf's national integrated ballistics imaging network (nibin)
    Question. ATF's budget cuts NIBIN (N-eye-bin) by nearly 50 percent, 
crippling State and local law enforcement efforts investigating violent 
gun crimes. NIBIN has received unequivocal support across multiple 
venues and national and international law enforcement organizations. 
The President's own national Southwest Border Counterdrug and Violence 
Strategy calls for upgrading and modernizing ballistics imaging 
technology. General Holder, you and President Obama have publicly 
stated support for upgrading NIBIN and committed to data sharing along 
the Southwest Border with Mexico.
    Explain this proposed cut to a tool critical in solving violent gun 
crime and investigating violent crime along the Southwest Border and in 
Mexico?
    Answer. The NIBIN program has supported DOJ's nationwide efforts to 
investigate and prosecute gun-related crime. However, the entire 
Federal Government is being asked to tighten its belt and make tough 
decisions on programs that can be consolidated, reduced, or eliminated. 
The reduction of funding for ATF's NIBIN program represents just one of 
the difficult decisions DOJ had to make in the formulation of the 2012 
budget. ATF will work to minimize the impact to operations, both along 
the Southwest Border and throughout the United States, as ATF scales 
back the NIBIN program.
    Question. State and local law enforcement have devoted significant 
time and effort in building up the NIBIN database and the program is a 
force multiplier for more than 200 NIBIN partners. Under this budget, 
more than 120 NIBIN sites will be shut down.
    If 120 sites are shut down, how and where will these jurisdictions 
have access to the ballistics information they need to fight gun crime?
    Isn't that creating a huge void in the system?
    Answer. Where feasible, ATF will consider relocating equipment in a 
regional manner, so that State and local participants can still have 
access to NIBIN equipment and databases. If there is significant 
interest from State and local agencies to maintain the program, ATF may 
consider implementing a user fee or cost-sharing proposal to ensure 
widespread access is available. State and local agencies will also be 
able to submit evidence to an ATF laboratory for analysis and 
correlation, as capacity permits.
    Question. How will this affect the day-to-day operations of law 
enforcement officer investigating a gun crime?
    Answer. Minimizing the impact to day-to-day operations will be one 
of the foremost goals as ATF scales back the NIBIN program. Law 
enforcement officers without access to a NIBIN system can still submit 
ballistics evidence to ATF laboratories, as capacity permits. 
Additionally, through regionalization, the NIBIN program will 
concentrate its efforts in high crime and high gun trafficking areas. 
It is important to note that the ability of law enforcement officers to 
trace recovered firearms will not be affected by the cuts to the NIBIN 
program.
                          atf's nibin--houston
    Question. In 2009 in my home State of Texas, the Houston Police 
Department Crime Lab Division used this technology to link firearms 
evidence in 12 different investigations involving members of the La 
Tercera Crips (LTC) gang over a 10-month period. The use of NIBIN and 
its underlying technology resulted in the arrest of eight gang members. 
To supplement a portion of the cut to NIBIN, the request proposes a 
``user fee''. Details of the ``fee'' are not clear but it would clearly 
be a new cost to already cash-strapped State and local law enforcement 
agencies.
    How would this user fee work?
    Answer. The user fee or cost-sharing arrangement is still under 
development and is not currently available; however, DOJ is aware of 
the tight fiscal environment under which State and local partners are 
operating. Any user fee or cost sharing proposed will be developed 
based on factors that are fair and appropriate to the actual costs of 
operating the program and its use by partners. The proposal will also 
have to go through the traditional development process for regulations, 
including a public comment period.
    Question. Would State and local law enforcement be required to pay 
for access to the NIBIN database?
    Answer. If sufficient demand exists for the system and a fee or 
cost-sharing arrangement is implemented, then State and local law 
enforcement would be asked to pay for access. The cost sharing would be 
applied toward the maintenance and software upgrade costs that are 
needed for the technology currently in use.
    Question. What is the rationale behind shutting down more than one-
half of this program?
    Answer. The entire Federal Government is being asked to tighten its 
belt and make tough decisions on programs that can be consolidated, 
reduced, or eliminated. The reduction of funding for ATF's NIBIN 
program represents just one of the difficult decisions DOJ had to make 
in the formulation of the 2012 budget. ATF will work to minimize the 
impact to operations, both along the Southwest Border and throughout 
the United States, as ATF scales back the NIBIN program. ATF will 
reduce underutilized sites and reorganize the remaining sites to focus 
on higher-impact locations (such as the Southwest Border), allowing a 
smaller NIBIN program to invest in newer technology while reducing 
existing maintenance costs for many of the sites that have older, 
costlier technology.
    Question. The Washington Post reported on January 31 that the 
initial proposal from Office of Management and Budget (OMB) was to 
drastically cut the operations of ATF. I'm gratified to see that DOJ 
successfully argued to restore most of the cuts proposed by the White 
House, but I remain concerned about the cut to NIBIN. Reducing funding 
to this ballistics tracing program by $10 million, almost cutting it in 
half, seems like a dangerous cut that will leave State and local law 
enforcement agencies without an important tool to catch violent 
criminals. We hear from DOJ and DHS about how critical the need is to 
stop gun crimes in the United States and the flow of guns to Mexico and 
other areas.
    Will a new strategy for enforcing gun laws be proposed if this cut 
is enacted?
    Answer. While the NIBIN system provides a useful tool in combating 
violent crime and enforcing the Nations firearms laws, ATF uses a 
variety of intelligence led enforcement initiatives to enforce firearms 
laws. The intelligence for these enforcement efforts comes from a 
number of sources, most notably crime gun trace data accessible through 
ATF's eTrace system. The eTrace system is separate from the NIBIN 
system and the proposed cut will not hamper ATF's ability to focus its 
enforcement efforts through the use of crime gun trace data. 
Regionalizing the NIBIN systems will help to ensure that the high crime 
and high gun trafficking areas will still have systems available for 
them to enter their evidence and test exhibits. The capability will 
still be available, if not locally then through the ATF laboratories 
(as capacity permits).
    Question. Does the Mexican Government participate in NIBIN?
    Answer. ATF is currently working with the Government of Mexico to 
implement a NIBIN system. The Government of Mexico has NIBIN equipment 
in their country and is currently working with ATF to establish an MOU 
in order to share ballistic data internationally. ATF and the United 
States Government have been working with the Government of Mexico to 
come to agreement on the sharing of ballistic data between the two 
countries.
            law enforcement wireless communications (lewc) 2
    Question. The fiscal year 2012 request for the LEWC account is $103 
million, which keeps the older, legacy systems running. Last year, DOJ 
requested more than $200 million, which would buy roughly $100 million 
in new radios and network equipment. When we send agents from FBI, the 
Drug Enforcement Administration (DEA), ATF, and the U.S. Marshals 
Service (USMS) to catch violent criminals, we give them the tools they 
need to do their job, like a gun, vehicle, computer, and radio. Some 
agents believe the radio is the most important tool they have. There is 
a growing concern that Mexican drug cartels and sophisticated crime 
organizations have better communications equipment than the agents we 
send to track them down and bring them to justice.
    Would you comment on why the request simply sustains this account 
instead of improving it?
    Answer. For fiscal year 2012, DOJ's Integrated Wireless Network 
(IWN) will absorb a reduction of $105 million in the President's 
budget. The fiscal year 2012 President's budget assumed an fiscal year 
2011 level of more than $200 million; however, less than $100 million 
was enacted. This will require DOJ to re-evaluate our strategy going 
forward. During fiscal year 2011 and fiscal year 2012, the Department 
will focus most of its resources on advancing ongoing strategic 
deployments rather than on significant new deployments. This will allow 
sufficient time to further detail a re-plan of the program capitalizing 
on establishing baseline capabilities in an expedited manner that meet 
Federal security and radio spectrum usage mandates, using FBI's 
existing system as a platform for consolidation where possible. DOJ is 
currently working on re-evaluating best practices, including other 
cost-effective technology, to ensure a flexible deployment strategy 
that can take advantage of new technologies when they become available.
    Question. Do you believe that law enforcement radios are an issue 
of agent safety?
    Answer. Yes, law enforcement radios are an issue of agent safety. 
Within the DOJ's four law enforcement components--FBI, DEA, USMS, and 
ATF--tactical communications using radios are critical for coordination 
and performance of operations by teams involved in hostage rescue, 
high-risk arrests, investigations, surveillance, national events, 
incident response, and major disasters/incidents, to name just a few. 
More than 20,000 law enforcement officers operating in urban, rural, 
and suburban areas nationwide communicate with individuals within their 
respective groups, with other groups, and with on-scene and off-scene 
incident command and control.
    The land mobile radio infrastructure is a vital communications link 
used by DOJ law enforcement officers to conduct mission-critical work, 
and it provides device-to-device, one-to-many instantaneous ``off 
network'' communications.
    Question. What effect will this fiscal year 2012 request have on 
law enforcement?
    Answer. For fiscal year 2012, DOJ's IWN will absorb a reduction of 
$105 million in the President's budget. During fiscal year 2011 and 
fiscal year 2012, DOJ will focus most of its resources on advancing 
ongoing strategic deployments and upgrading legacy network capabilities 
rather than on significant new deployments. This will allow sufficient 
time to further detail a re-plan of the program capitalizing on 
establishing baseline capabilities in an expedited manner that meet 
Federal security and radio spectrum usage mandates, using FBI's 
existing system as a platform for consolidation where possible.
    Question. How will it affect operations along the Southwest Border?
    Answer. Fortunately, the Southwest Border is one of the geographic 
areas that are already underway and funded with prior year monies and, 
therefore, we do not expect the reduction to impact Southwest Border 
operations. Specifically, the infrastructure in some of the divisions 
along the Southwest Border is being upgraded to meet the narrow-banding 
and current security requirements, to refresh circuits/equipment where 
necessary, and to add capacity to the upgraded FBI system to allow the 
other components (DEA and ATF only as USMS is already using the FBI's 
system) to utilize the shared system and decommission their own 
individual systems, as appropriate. In addition, subscribers (radios) 
will be upgraded or replaced in order to ensure that they are capable 
of working on the upgraded infrastructure.
               effects of fiscal year 2010 levels on fbi
    Question. Although this hearing is about the fiscal year 2012 
budget request, this subcommittee is also currently negotiating the 
fiscal year 2011 budget. There has been much talk of not reducing DOD 
and Homeland Security budgets, but no mention of DOJ in these 
discussions. FBI, DEA, USMS, and ATF have protected us against more 
than any non-DOD agencies combined. This subcommittee is committed to 
protect national security. Specifically, we have heard that DEA could 
be on the verge of instituting furloughs and FBI will be facing 
deficits of more than $200 million if left to operate at fiscal year 
2010 funding levels.
    Is this true, and how will this affect this country's national 
security?
    Answer. We appreciate Senator Hutchison's recognition of the fact 
that DOJ's roles and responsibilities are varied and critical to the 
security and safety of our homeland and the American people. DOJ--
including FBI, DEA, USMS, and ATF--not only performs a key role in 
preventing terrorism and promoting the Nation's security, but also has 
a central role in combating violent crime in the Nation and maintaining 
safe communities for Americans. The fiscal year 2011 enacted 
appropriation funded FBI's current services requirements and there is 
not a $200 million shortfall. With the exception of FBI, all DOJ law 
enforcement components are funded at less than fiscal year 2010 levels, 
including DEA. While DEA does not plan to institute a furlough, it will 
need to find savings through attrition, nonpersonnel reductions, and 
administrative efficiencies. Overall, DOJ intends to sustain its core 
national security and law enforcement functions with the fiscal year 
2011 appropriation. However, even though the budget is essentially held 
flat for our law enforcement agencies, the cost of doing business-as-
usual is higher this year as a result of requirements to support 
increased health premiums, retirement contributions, rent and move 
expenses and second-year costs associated with new staff appropriated 
in last year's budget. Funding to support these ``mandatory'' expenses 
will have to come from management and administrative efficiencies and 
possibly scaled-back operations. DOJ will strive to ensure minimal 
disruption to core national security, law enforcement, and public 
safety initiatives.
    Question. Can agents be furloughed or is there a prioritization of 
personnel in all of the enforcement agencies?
    Answer. Agents can be furloughed. DOJ would take into account the 
safety of human life or protection of property when making decisions 
about furloughing staff. However, DOJ does not anticipate furloughing 
any staff in fiscal year 2011.
    Question. How does this affect the fiscal year 2012 budget that we 
see before us today?
    Answer. Because the fiscal year 2012 President's budget request was 
developed using the fiscal year 2011 current rate as the starting 
point, the fiscal year 2011 enacted budget has little impact on the 
fiscal year 2012 request. The fiscal year 2012 budget request includes 
mandatory increases and annualizations needed to maintain current 
investigative and litigating efforts.
                 cost of guantanamo bay detainee trials
    Question. On March 7, 2011, the President signed an Executive order 
allowing detainees held at Guantanamo Bay to again be tried via 
military commissions. In his statement, the President also referred 
that all aspects of the judicial system, including trial in Article III 
courts, would be used.
    While DOJ did not include funding for Guantanamo detainee trials in 
the fiscal year 2012 budget, the fiscal year 2011 President's budget 
included a planning estimate of $72.8 million for the Department's 
anticipated increases in security and prosecutorial costs associated 
with high-security threat trials.
    The requested resources would finance a variety of standard 
functions, including transportation and prisoner production, prisoner 
housing, security, litigation, and other costs associated with high-
threat trials. More than one-half of the request was anticipated for 
security and resources requirements related to USMS, including armored 
vehicles, communications and security equipment, personnel, training, 
funds for overtime and travel, and interpreters to communicate with the 
defendants.
    The security requirements associated with trying these suspects are 
higher than most other trials, which increase the cost. For example, 
for these trials, DOJ anticipates needing additional funding to harden 
cell blocks, courthouse facilities, and housing facilities, to increase 
its electronic surveillance capability, and to provide increased 
protection for judges and prosecutors.
    How many detainee trials do you anticipate holding in Article III 
courts? When will a decision be made?
    Answer. As long as the restrictions passed by the Congress in early 
2012 are in place, we will not be bringing any Guantanamo Bay detainees 
to the United States for trial in Federal court, so any detainees at 
Guantanamo who are to be prosecuted will be prosecuted in military 
commissions. Individuals tried by military commission must be afforded 
the full range of legal protections established by the Congress in the 
Military Commissions Act of 2009, including the right to counsel; the 
presumption of innocence; the right against self-incrimination; the 
right to present evidence, cross-examine the Government's witnesses, 
and compel the attendance of witnesses in their defense; the right to 
exculpatory evidence; the right to suppression of evidence that is not 
probative or that will result in unfair prejudice; protection against 
double jeopardy; the right to an appeal; and others.
    Question. What is the estimated cost for 1 year to hold criminal 
trials of detainees? How much of that is needed for security?
    Answer. The costs of conducting criminal trials are dependent on a 
range of factors (location, number of detainees, etc.). The 
Department's fiscal year 2011 budget request included a planning 
estimate of $72.8 million for the anticipated increases in security and 
prosecutorial costs associated with high-security threat trials. Of the 
amount requested, $22.8 million was related to security. The enacted 
fiscal year 2011 and fiscal year 2012 budgets do not include new 
resources for the Department to pursue or assist in trials associated 
with detainees currently held at Guantanamo Bay Naval Station. In 
addition, current law prohibits the Department of Defense (DOD) from 
using funds to transfer Guantanamo detainees to the United States and 
places unwise and unwarranted restrictions on the Department's ability 
to prosecute Guantanamo detainees in Article III courts.
    Question. What steps are you taking to ensure that communities will 
be safe if these detainees are transferred to the United States?
    Answer. As long as the restrictions passed by the Congress in early 
2012 are in place, we will not be bringing any Guantanamo Bay detainees 
to the United States for trial in Federal court; thus any detainees at 
Guantanamo who are to be prosecuted will be prosecuted in military 
commissions. Individuals tried by military commission must be afforded 
the full range of legal protections established by the Congress in the 
Military Commissions Act of 2009, including the right to counsel; the 
presumption of innocence; the right against self-incrimination; the 
right to present evidence, cross-examine the government's witnesses, 
and compel the attendance of witnesses in their defense; the right to 
exculpatory evidence; the right to suppression of evidence that is not 
probative or that will result in unfair prejudice; protection against 
double jeopardy; the right to an appeal; and others.
    Question. USMS' fiscal year 2012 request includes a $5 million 
offset in perimeter security and I understand this will be reduction to 
the Southern District of New York. Considering this administration 
planned to try Khalid Sheikh Mohammed and other 9/11 terrorists in New 
York, why would you suggest cutting courthouse security?
    Answer. The fiscal year 2012 budget proposed a $5 million offset to 
reduce perimeter security that USMS provides on a nonreimbursable basis 
for Federal complexes in the Southern District of New York. The 
proposed offset was not included in the fiscal year 2012 enacted 
budget. However, this offset would not have reduced security for the 
facilities, but would merely have transferred responsibility for 
perimeter security for the Southern District of New York complexes back 
to the Federal Protective Service (FPS). FPS charges Federal agencies 
fees to provide comprehensive coverage of Federal facilities and their 
occupants, including contract protective security officer and perimeter 
security services. The proposed offset amount funds nonpersonnel costs 
(i.e., contract guards and security equipment). This security cost 
adjustment would not have negatively affected USMS's ability to 
accomplish its strategic and performance goals as perimeter security 
for Federal buildings is not a core USMS mission. USMS does not use 
Deputy Marshals for perimeter security and there is no USMS payroll 
expended for this program.
    Further, as long as the restrictions passed by the Congress in 
early 2012 are in place, we cannot bring any Guantanamo Bay detainee, 
including Khalid Sheikh Mohammed and the other alleged co-conspirators 
of the September 11, 2001 terrorist attacks, to the United States for 
trial in Federal court, and any detainees at Guantanamo who are to be 
prosecuted will be prosecuted in military commissions.
    Question. Should this subcommittee expect to see a supplemental 
request for resources to hold criminal trials?
    Answer. Because current law prohibits DOD from using funds to 
transfer Guantanamo detainees to the United States. I am not aware of 
any plan by the Administration to request supplemental resources to 
conduct criminal trials of the Guantanamo detainees in the United 
States.
               law enforcement wireless (lewc)--technical
    Question. One of the more interesting sections of DOJ's budget 
request is the suspension of the Law Enforcement Wireless program, with 
the exception of operational and maintenance funds to sustain it. It is 
my understanding, based on the most recent LEWC quarterly reports, this 
program is being run efficiently.
    What has fundamentally changed between the last quarterly report 
and the fiscal year 2012 budget request to?
    Answer. The LEWC program is being run efficiently and the budget 
reduction does not intend to reflect otherwise. As stated in the 
response to the question above, the reduction was the result of the 
austere budget environment--DOJ remains committed to the program and 
will continue to support it going forward. Budget permitting, we will 
continue to revamp our wireless strategy and explore new technologies 
and innovative solutions to cut near- and long-term costs. For 
instance, we are considering utilizing some State law enforcement 
systems while adding capacity, encryption, and narrow banding to our 
legacy systems.
    Question. The administration continues to make public remarks about 
a Government-wide commitment to full and open competition and recently 
issued an OMB directive that agencies be technology neutral in their 
procurement. Yet, it is my understanding that the component agencies 
within DOJ have continued to sole-source numerous contracts for new 
radios in order to avoid competition. Further, any open contracts have 
included requirements for one vendor's proprietary technology.
    What specific steps has DOJ and its law enforcement components 
taken to promote such competition with respect to its procurements 
related to the LEWC program and its communications upgrades?
    Answer. DOJ's contract for systems integration in support of the 
IWN implementation was awarded to General Dynamics using full and open 
competitive procedures. General Dynamics then performed a competitive 
procurement for the infrastructure equipment for use within the 
National Capital Region and Harris Corporation was chosen as the 
supplier. Contracts to maintain legacy systems, narrowband legacy 
systems, and purchase radios have been awarded using other than full 
and open competitive procedures when justified in accordance with the 
Federal Acquisition Regulation (FAR).
    DOJ's mission demands leave it no choice, but to purchase Motorola 
radios unless:
  --State and local entities upgrade to narrowband, P25 compliant 
        systems;
  --DOJ has funding sufficient to compete a replacement of its legacy 
        systems;
  --Other suppliers of multi-band radios license the proprietary 
        functionality from Motorola; or
  --The P25 standard is complete across all required aspects of the 
        land mobile radio (LMR) infrastructure.
    In those cases where Motorola equipment is needed for mission-
critical reasons, DOJ has based its requirements on information 
gathered during market research and publicized its intentions. In other 
words, DOJ has been open and up front regarding its needs, publicizing 
them as required by the FAR, and no vendor has protested DOJ's actions. 
DOJ's plan has been and will continue to utilize full and open 
competition based on P25 standards and in accordance with the 
administration's memo to be technology neutral. However, until such 
time as any of the above-identified circumstances become reality, DOJ 
must continue to rely on equipment compatible with legacy systems.
    Question. Does that not contradict the administration's memo to be 
technology neutral?
    Answer. DOJ's contract for systems integration in support of the 
IWN implementation was awarded to General Dynamics using full and open 
competitive procedures. General Dynamics then performed a competitive 
procurement for the infrastructure equipment for use within the 
National Capital Region and Harris Corporation was chosen as the 
supplier. Contracts to maintain legacy systems, narrowband legacy 
systems, and purchase radios have been awarded using other than full 
and open competitive procedures when justified in accordance with FAR.
    DOJ's mission demands leave it no choice, but to purchase Motorola 
radios unless:
  --State and Local entities upgrade to narrowband, P25 compliant 
        systems;
  --DOJ has funding sufficient to compete a replacement of its legacy 
        systems;
  --Other suppliers of multi-band radios license the proprietary 
        functionality from Motorola; or
  --The P25 standard is complete across all required aspects of the LMR 
        infrastructure.
    In those cases where Motorola equipment is needed for mission-
critical reasons, DOJ has based its requirements on information 
gathered during market research and publicized its intentions. In other 
words, DOJ has been open and up front regarding its needs, publicizing 
them as required by the FAR, and no vendor has protested DOJ's actions.
    DOJ's plan has been and will continue to utilize full and open 
competition based on P25 standards and in accordance with the 
administration's memo to be technology neutral. However, until such 
time as any of the above-identified circumstances become reality, DOJ 
must continue to rely on equipment compatible with legacy systems.
    Question. What steps will you take to ensure fair and open 
competition in component contracts that are technology neutral and to 
prevent sole sourcing in the future?
    Answer. DOJ remains committed to pursuing full and open competition 
based on P25 standards, in accordance with the administration's memo to 
be technology neutral.
                         danger pay for mexico
    Question. Violence in Mexico, particularly toward law enforcement 
personnel, has steadily intensified over the past several years. The 
very real and present danger faced by United States personnel working 
in Mexico is evident in light of the recent deaths of United States 
consulate employees and an ICE agent in Mexico. While DEA and FBI 
receive danger pay for their personnel in Mexico due to prior 
authorizations passed in 1990 and 2002, USMS and ATF do not have this 
same authorization language. USMS and ATF personnel face the same risks 
as their DEA and FBI counterparts in Mexico and should be equally 
compensated.
    Why does the President's budget not provide for danger pay 
increases to USMS and ATF law enforcement personnel working in Mexico?
    Answer. Increases associated with danger pay allowances are 
traditionally absorbed by a component's existing base resources. Due to 
the potentially fluid nature of danger pay authorities, which are 
established by the Secretary of State, permanent resources for danger 
pay authority in Mexico were not requested for USMS or the ATF in the 
fiscal year 2012 President's budget.
    Question. Given the rise in violence generally, the targeted 
attacks against U.S. law enforcement officers, and the fact FBI and DEA 
already provide danger pay for their employees in Mexico, that USMS and 
ATF should receive the same sort of compensation.
    When can we expect to see proposed legislation to remedy this issue 
from DOJ?
    Answer. To address disparities as a result of the separate 
authorities afforded to DEA and FBI, DOJ has been planning to engage in 
ongoing policy-level discussions with the Department of State, OMB, and 
the Office of Personnel Management to pursue alternatives to resolve 
these pay disparities in an effective, lawful, fair and expeditious 
manner, and alleviate the concerns voiced by the committees on 
appropriations and others. DOJ considers this a pay disparity between 
FBI and DEA, and ATF and USMS. That is, United States Government 
employees serving our national interests in the same overseas 
locations, many times working side-by-side on critical criminal 
investigations and law enforcement issues, should be compensated 
equitably.
    On April 13, 2011, the Border Security Enforcement Act of 2011 (S. 
803) was introduced, which contains a provision authorizing danger pay 
for USMS and ATF law enforcement personnel working in Mexico. This 
legislation would remedy this disparity.
                           project gunrunner
    Question. National media reports now appear to support allegations 
that ATF has gun allowed dealers to proceed with suspicious firearms 
transactions, in hopes of tracking the movements of those guns and 
their buyers. Reportedly, field agents strongly protested the 
operation, especially after the guns started turning up in trace 
reports related to criminal activity. On March 3, ATF promised to 
convene ``a multi-disciplinary panel of law enforcement professionals 
to review the bureau's current firearms trafficking strategies.''
    When does ATF expect the panel's review to be completed?
    Answer. As I discussed during my testimony, I have asked the acting 
inspector general to review the matter. ATF is postponing the creation 
of a multi-disciplinary panel until the acting inspector general has 
completed her work, in part to avoid redundancies that simultaneous 
reviews of the same matter could create. After the acting inspector 
general's work is completed, ATF will revisit the option of convening a 
multi-disciplinary panel. Any such panel would then be able to consider 
the acting inspector general's conclusions and recommendations in 
conducting their review.
    Question. Did ATF allow these transactions to proceed, as alleged 
in the media reports?
    Answer. I take these allegations seriously and have referred them 
to the acting inspector general of DOJ for investigation. I have also 
made it clear to our law enforcement personnel and prosecutors working 
on the Southwest Border that the Department should never knowingly 
permit illegally trafficked firearms to cross the border.
    Question. If so, did DOJ approve use of this technique? Is this an 
investigative technique ATF has used in the past? What were the results 
in past investigations?
    Answer. Allegations that ATF knowingly allowed the sale of guns to 
straw purchasers in hopes of tracking the movements of those guns and 
their buyers are under investigation by the acting inspector general.
    Question. Is the practice being continued during this review and 
investigation?
    Answer. There is an ongoing investigation into the shooting death 
of Customs and Border Patrol (CBP) Agent Brian Terry. Accordingly, I 
cannot comment on that investigation at this time.
                  state and local law enforcement cuts
    Question. Attorney General Holder, 11 percent ($3 billion) of DOJ's 
budget request is comprised of State and local law enforcement grants. 
Five years ago, DOJ was responsible for soliciting and administering 
approximately 72 grant programs. Today, more than 100 grant programs 
and solicitations exist. Even in these tough budget times, the number 
of grants continues to grow and no serious proposals for consolidation 
or elimination of narrow and duplicative programs exist. Effective 
broad-use programs supported by law enforcement, such as Byrne-JAG and 
SCAAP, have been cut or eliminated to make room for more narrowly 
focused programs with limited purpose areas.
    What is DOJ doing to curtail the ballooning number of grant 
programs?
    Answer. DOJ is looking both at consolidating the way some grant 
programs are administered and at reducing or consolidating the number 
of grant programs that we are requesting. One example of consolidation 
and increased coordination is our CTAS. During a number of tribal 
listening sessions and conference calls with tribal leaders, concern 
was expressed regarding the need to improve DOJ's tribal grantmaking 
process. Beginning last year, we issued one, single CTAS that 
encompassed DOJ's available tribal government-specific grant programs. 
Under the fiscal year 2010 Coordinated Tribal Assistance Solicitation, 
DOJ asked each tribe to submit a single application for all available 
DOJ tribal government-specific grant programs, according to the tribe's 
needs. The advantage of this coordinated process is that, when DOJ 
reviewed a single application from a tribe, it had a better 
understanding of the tribe's overall public safety needs. The 
grantmaking components then coordinated in making award decisions to 
address these needs on a more comprehensive basis. DOJ continued with 
CTAS this year and made improvements where necessary to respond to 
tribal governments' needs and concerns.
    Additionally, in the fiscal year 2012 President's budget, the 
Office on Violence Against Women (OVW) request includes $14 million for 
a new Consolidated Youth-Oriented program. This grant program 
consolidates the purpose areas of four previously funded programs under 
one competitive program. The four programs in the consolidation 
include:
  --Services to advocate for and respond to youth;
  --Grants to assist children and youth exposed to violence;
  --Engaging men and youth in preventing domestic violence; and
  --Supporting teens through education.
    This consolidation will allow OVW to leverage resources for maximum 
impact in communities by funding comprehensive projects that include 
both youth services and prevention components.
    Question. How can DOJ be more proactive in providing flexibility to 
law enforcement agencies with broad purpose area grants when the number 
of narrow grants continues to grow?
    Answer. This year's COPS hiring program grants will be much 
different than previous years. COPS established an initiative to 
enhance the integration of community policing into its grant programs, 
and to better align COPS grant programs with the advancement of 
community policing. This year, applicants will be asked to address how 
grant funding will assist them in building partnerships, solving 
problems, and sustaining organizational change. The application will 
allow applicants to identify specific community crime and disorder 
problems that they seek to address with COPS funding, and the specific 
community policing strategies and tactics they plan to employ against 
these problems. DOJ is also requesting funding for the Byrne Justice 
Assistance Grant program, which provides the States the maximum 
flexibility both in categories and in the number of years they have to 
spend the funding. Last, as part of an administration-wide effort, DOJ 
is looking at ways through internal regulations and guidelines or 
through changes we might propose to the Congress that would make grant 
programs more flexible for States and localities. As an example, the 
fiscal year 2012 President's budget proposes to set-aside 7 percent of 
OJP funds to create a flexible tribal grant program that will replace 
several individual tribal grant programs.
    Question. Please explain how SCAAP was cut by $194 million, DNA 
grants cut by $51 million, and Coverdell grants were eliminated--yet 
narrowly focused COPS Hiring grants was increased by $302 million to 
$600 million?
    Answer. Due to tight fiscal restraints, important trade-offs were 
necessary in the budget, including reductions to some State and local 
criminal justice assistance programs.
    DOJ responds to State, local, and tribal law enforcement by 
developing programs and initiatives that provide flexibility for their 
public safety needs. The COPS hiring program advances community 
policing through partnerships, problem solving and organizational 
change. While the goal of the program may simply appear to be adding 
officers, the results show stronger relationships between communities 
and police, more efficient and effective policing practices and an 
overall commitment to better public safety.
    The requested increase for the COPS hiring program pales in 
comparison to the demand and needs of the field. For example, when the 
COPS office opened the solicitation for its COPS hiring recovery 
program in 2009, which was part of ARRA, the demand far outweighed 
funding available with more than $8 billion in requests for the $1 
billion that was appropriated.
           atf--gunrunner allowing firearms to be trafficked
Gun Traced to Border Patrol Agent Shooting Death in Arizona
    Question. Since its inception in 2006, ATF has had many successes 
with Project Gunrunner, seizing nearly 10,000 firearms and 1.1 million 
rounds of ammunition destined for Mexico. Yet, news reports have 
indicated that the ATF encouraged the sale approximately 2,000 weapons 
to known traffickers in an operation called Fast and Furious, in order 
track them to cartels and larger crime organizations in Mexico. The 
reports also indicate that two weapons recovered at the scene of the 
December 14, 2010, murder of CBP Agent Brian Terry in Arizona, were 
connected to Operation Fast and Furious and allowed to be smuggled into 
Mexico by ATF.
    Can you verify whether the weapons recovered at the scene of Agent 
Terry's death in Arizona were allowed by ATF to be sold to known 
traffickers and smuggled into Mexico?
    Answer. There is an ongoing investigation into the shooting death 
of CBP Agent Brian Terry. Accordingly, I cannot comment on that 
investigation at this time.
    Question. As I said in my statement, on February 15, ICE agent 
Jaime Zapata of Brownsville, Texas, was murdered in Mexico. The weapon 
used in Agent Zapata's murder was traced to a sale in Dallas, where 
three men suspected of weapons trafficking were arrested.
    Are there any indications that the weapon used in Agent Zapata's 
death was knowingly allowed to be sold to the three Dallas gun 
smugglers?
    Answer. There is no evidence that the weapon used in the death of 
Agent Zapata was knowingly allowed to be sold to the Dallas gun 
smuggler, nor is there evidence that it was allowed to be transported 
across the United States-Mexico border.
    Question. Are you aware of any senior members of ATF or DOJ 
encouraging ATF agents to allow gun dealers to sell weapons to known 
gun traffickers?
    Answer. Allegations that ATF knowingly allowed the sale of guns to 
straw purchasers in hopes of tracking the movements of those guns and 
their buyers are under investigation by the acting inspector general.
    Question. I understand you have instructed the inspector general to 
investigate this matter. Have you been given any preliminary reports 
that you can share with us?
    Answer. I have not received any preliminary reports.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
    Question. On March 14, 2011, the New York Times reported that 
Ahmed, who was convicted for his role in attacks upon American 
embassies, was assigned to the U.S. Penitentiary (USP) in Florence, 
Colorado, but not the Supermax. Four other Embassy bombing conspirators 
are imprisoned at the Supermax.
    Please explain the decision to hold Ghailani in a prison other than 
the Supermax.
    Answer. Inmate Ghailani received a life sentence for Conspiracy to 
Destroy Buildings and Property of the United States. On March 11, 2011, 
inmate Ghailani was designated to USP Florence, pending a due process 
hearing for Administrative-Maximum (ADX) placement. The ADX referral is 
based on his offense conduct and the imposition of Special 
Administrative Measures restrictions, as determined by the Attorney 
General.
    Inmate Ghailani's initial designation to USP Florence is 
appropriate to begin the ADX referral process. Placement at the ADX is 
guided by the BOP's Program Statement 5100.08, Inmate Security 
Designation and Custody Classification. The referral process usually 
takes 6 to 10 weeks.
    Please be assured that public safety is the highest priority for 
DOJ and BOP and is paramount in all decisions made regarding the 
housing of Federal inmates.
    Question. Will Ghailani be held in the general population of the 
penitentiary at Florence?
    Answer. Inmate Ghailani will not be placed in general population 
while at USP Florence.

                          SUBCOMMITTEE RECESS

    Senator Mikulski. This subcommittee stands in recess until 
March 31, at which time we will take testimony from the 
Administrator of NASA.
    [Whereupon, at 12:20 p.m., Thursday, March 10, the hearing 
was concluded, and the subcommittee recessed, to reconvene 
Thursday, March 31.]

</pre></body></html>
